M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                       
COMMODITY FUTURES TRADING COMMISSION

Reuben Jeffrey III
Chairman
Madge Bolinger Gazzola
Executive Director
Mark Carney
Chief Financial Officer

November 2005

This report is in the public domain. Authorization to reproduce it in whole or in part is granted.
While permission to reprint this publication is not necessary, the citation should be:
Commodity Futures Trading Commission, FY 2005 Performance and Accountability Report,
Washington D.C., 20581.

All photographs in this document are proprietary and prior permission from the photographer
is required for any use or reproduction of the photographs.
   In the Tradition of Quality Reporting,
the Commodity Futures Trading Commission
        Proudly Presents the FY 2005
   Performance and Accountability Report
                                                Table of Contents

	   Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
	   FY 2005 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
	   How This Report is Organized .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3


MANAGEMENT’S DISCUSSION AND ANALYSIS
	   CFTC 2005 Highlights. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
	   CFTC Celebrates 30 Years.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
	   Commission at a Glance.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
	   Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 12
	   Financial Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18
	   Management Challenges.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23


PERFORMANCE SECTION
	   Mission Statement and Agency Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
	   Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
	   Program Assessment Rating Tool.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30
	   Strategic Goal One: Economic Utility .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
	   Strategic Goal Two: Market User and Public.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
	   Strategic Goal Three: Industry .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46
	   Methodology for Collecting, Maintaining, and Analyzing Performance Data.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57


FINANCIAL SECTION
	   Message from the Chief Financial Officer.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
	   Financial Summary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 62
	   Principal Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64
	   Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
	   Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 80
	   Other Statutorily Required Reports.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 93


APPENDICES
	   Inspector General’s Assessment of Management Challenges .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 98
	   Enforcement Litigation by Strategic Goals.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 102
	   Glossary of Abbreviations and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 115
                A Message from the Chairman


Thirty years have passed since Congress established the            guidelines established in OMB Circular A-136, Financial
Commodity Futures Trading Commission (CFTC or Com-                 Reporting Requirements. It satisfies our statutory requirements
mission). The CFTC is an independent agency with the               for financial and performance management reporting.
mandate to regulate commodity futures and option markets           	   Most importantly, this report is a testament to the
in the United States. During that time, the Agency’s man-          CFTC’s dedication to regulating the markets under our juris-
date has been renewed and expanded several times, most             diction and achieving management excellence while doing
recently by the Commodity Futures Modernization Act of             so. Of particular note are the leadership contributions
2000 (CFMA).                                                       made by Commissioner Brown-Hruska serving as Acting
	    Today, because of the far reaching changes envisioned         Chairman. Her steady hand and good judgment served the
by the CFMA, trading in futures contracts has expanded rap-        Commission well during a transitional year. Thanks to all
idly beyond traditional physical and agricultural commodi-         our Commissioners and the dedicated staff for their suc-
ties into a vast array of financial instruments, including         cesses, many of which are highlighted in the Management’s
foreign currencies, U.S. and foreign government securities,        Discussion and Analysis section of this document.
and U.S. and foreign stock indices. As regulators, we play an      	   Therefore, it is with pride and confidence in the
important role in ensuring the vitality and innovativeness         Commission staff that I certify with reasonable assurance
of the futures markets. With effective CFTC oversight, the         that our agency’s systems of management control, taken
futures markets serve the important functions of price dis-        as a whole, comply with the Federal Managers’ Financial
covery and offsetting price risk. As this report chronicles, the   Integrity Act of 1982, and that our agency is in substantial
Commission works very hard to assure the integrity of the          compliance with applicable Federal accounting standards
futures markets by encouraging their competitiveness and           and the U.S. Standard General Ledger at the transaction
efficiency, protecting market participants against manipula-       level. The CFTC’s financial and performance data is reliable,
tion, abusive trading practices, and fraud, and ensuring the       accurate, and consistent.
financial integrity of the clearing process.
	    We also work to ensure that resources we are entrusted
with are used wisely and that we focus on results. That is         Reuben Jeffrey III
why we are pleased to present our second Performance and           Chairman
Accountability Report. It has been prepared following the          November 15, 2005




                                                                                                                                  
            Fiscal Year 2005 Commissioners




From left; Sharon Brown-Hruska, Commissioner; Walter L. Lukken, Commissioner; Reuben Jeffery III, Chairman; Frederick W.
Hatfield, Commissioner; Michael V. Dunn, Commissioner





                  How This Report is Organized


The CFTC’s FY 2005 Performance and Accountability Report is the second such report published by the
Commission. This document is comprised of three primary sections:


Management’s Discussion and Analysis
                                                                                                                 M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The Management’s Discussion and Analysis (MDA) is an
                                                                                                                                                                                              “
                                                                                                                  “
overview of the entire Report, as supported and detailed in
the Performance Section and Financial Section. The MDA
                                                                                                                             I expect the CFTC to continue to protect successfully the
                                                                                                                      public from fraud, manipulation, and abusive trading practices and
                                                                                                                  to foster open, competitive,and financially sound futures and option markets.

                                                                                                                                            —Chairman reuben Jeffery iii




presents performance and financial highlights for FY 2005,
in addition to compliance with legal and regulatory require-
ments and existing or possible effects and challenges facing
the Commission in the future.
                                                                                                            




Performance Section
                                                                                                                                   PERFORMANCE SECTION




The Performance Section compares the Commission’s
performance to the annual goals as set forth in the CFTC

                                                                                                                 “
Strategic Plan. For more information on this section,
                                                                                                                           [The CFTC Enforcement Program] is well designed to meet
                                                                                                                               objectives and to maximize the use of its resources.
                                                                                                                      Through cooperative enforcement with other government and private
                                                                                                                                                                                           “
                                                                                                                          organizations, the program enhances the impact of its efforts.



please contact Emory Bevill, Deputy Director for Budget
                                                                                                                                          —Office Of ManageMent and Budget




and Planning, at 202-418-5187.

                                                                                                            26




Financial Section
The Financial Section is comprised of the Commission’s                                                                                 FINANCIAL SECTION



financial statements and related Independent Auditors’
report. For more information on this section, please contact
                                                                                                                                                                                         “
                                                                                                                         “
Jeanne Ring, Deputy Director for Accounting and Financial
                                                                                                                                    We continue to strive for excellence in the


Systems, at 202-418-5185.                                                                                                   financial management of the Commission as illustrated
                                                                                                                            throughout this Performance and Accountability Report.

                                                                                                                                         —Mark Carney, Chief finanCial OffiCer




Questions and comments about this document can be directed to Mark Carney, Chief Financial
                                                                                                            60




Officer, at 202-418-5477 or, via e-mail at mcarney@cftc.gov.

An electronic version of this document is available on the Internet at www.cftc.gov/cftc/cftcreports.htm.
The Commission’s strategic and performance plans are also available at this Web site.




                                                                                                                                                                                                  
    M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                                                     “
     	

         “          I expect the CFTC to continue to protect successfully the
             public from fraud, manipulation, and abusive trading practices and
         to foster open, competitive,and financially sound futures and option markets.

                                   —Chairman Reuben Jeffery III





                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                             CFTC 2005 Highlights


Major Power Company Reaches Global                                from the United States and the European Union. Under
Settlement                                                        the terms set forth in the work program, a task force
                                                                  drawn from the CFTC and CESR will review issues relating
“The $81 million penalty assessed today against Ameri-
                                                                  to enhanced transparency and clarity of regulatory devel-
can Electric Power Company, Inc., (AEP) and AEP Energy
                                                                  opments, simplified access or recognition procedures, and
Services, Inc., reflects the gravity of the defendant’s illegal
                                                                  targeted consultation on cross-border issues, as well as
conduct in the natural gas markets. I applaud the extensive
                                                                  issues raised by the derivatives industry and end-users.
efforts of our enforcement staff to expose the company’s
wrongdoing, as well as their efforts in assisting the Depart-
ment of Justice and Federal Energy Regulatory Commis-             Enforcement Actions
sion. Over the last three years, Corporate Compliance             The Commission’s Enforcement program serves to
departments have changed their controls and the way they          protect markets, market users, and the public. In fulfill-
report sensitive market information. It is obvious that our       ing that mandate, the Division of Enforcement seeks to
diligent enforcement actions in this area have had a posi-        detect violations quickly, bring immediate action to cease
tive impact on the veracity of traders,” stated Director of       violative conduct, interact with other State and Federal
Enforcement, Gregory Mocek. January 26, 2005                      regulators as a force multiplier, and publicize its actions
                                                                  in order to educate the public about possible miscon-
Final Communiqué on Common Work                                   duct and deter future violators. To that end, during FY
Program to Facilitate Trans-Atlantic                              2005, the Commission’s Enforcement program filed 69
Derivatives Business                                              enforcement actions against more than 200 respondents/
On June 28, 2005, the CFTC and the Committee of Eu-               defendants, and obtained over $160 million in restitu-
ropean Securities Regulators (CESR) published the final           tion, disgorgement, and penalties in pending cases.
Communiqué, which sets out a common work program
to facilitate trans-Atlantic derivatives business and reflects    Approval of New Exchange
considerable industry input. 	                                    The Commission approved the application of the Chicago
	    The work program incorporates the views of orga-             Climate Futures Exchange, L.L.C., (CCFE) for designation
nized derivatives markets, intermediaries, and end-users          as a contract market. CCFE is an innovative new market




                                                                                                                               
that offers trading of standardized and cleared futures       New Products Pose New Challenges
contracts based on emission allowances. For example,
                                                              The Commission has faced the challenge of performing
the Sulfur Financial Instrument (SFI) futures contract is
                                                              surveillance on a record number of actively traded futures
based on the Environmental Protection Agency’s sulfur
                                                              and option contracts–over 900 contracts were listed by
dioxide emission allowance trading program. CCFE SFI
                                                              U.S. futures exchanges during 2005.
futures contracts are also financially guaranteed. These
                                                              	       The proliferation of new offerings reflects the con-
emission allowance futures contracts provide utilities and
                                                              tinuing evolution of the futures industry in responding
other firms with low-cost, financially guaranteed tools for
                                                              to the risk management and price discovery needs of the
managing the exposure to price volatility in the emission
                                                              international economy.
allowance market.
                                                              	       Examples of new futures and option contracts include
                                                              energy swaps, retail gasoline, weather derivatives, local
Unqualified Audit Opinion
                                                              housing markets and complex financial instruments, as
CFTC earned an unqualified or clean audit opinion on          well as new contracts based on the more traditional com-
its FY 2005 Financial Statements–the second year that its     modities such as ethanol, wood pulp, freight rates, and
statements were audited pursuant to the Accountability        corn and soybean production.
of Tax Dollars Act. This achievement validates the Com-
mission’s commitment to financial integrity and effective
                                                                        NEW FEDERAL GOVERNMENT
program management. Maintaining accounting integrity
                                                                      FINANCIAL EDUCATION WEBSITE
and quality stewardship of federal funds is tantamount to
fulfilling its fiduciary responsibility to the public.


Rule Enforcement Review of Regulatory
Compliance Programs
The Commodity Futures Trading Commission notified the
New York Board of Trade (NYBOT) of the results of its rule
enforcement review. Commission staff found that NYBOT
maintains an adequate market surveillance program to
prevent manipulations and enforce its speculative position
limits and position accountability levels.
	    The review, which was recently completed by the
Commission’s Division of Market Oversight, covered the
                                                                  Through a partnership with 19 other Federal agen-
target period from January 1, 2004, to December 31, 2004.
                                                                  cies, the CFTC helped launch a new financial edu-
                                                                  cation Web site and toll-free hotline number.	
Global Markets
                                                                  	      The mymoney.gov Web site and the 1-888-my-
Obtaining input on international market issues that affect
                                                                  money toll-free hotline were established to provide
the integrity and competitiveness of U.S. markets and
                                                                  Americans easy access to information that can help
firms engaged in global business is a necessity.
                                                                  them better understand their money – how to save
	    In FY 2005, the CFTC worked cooperatively with the
                                                                  it, invest it, and manage it wisely to meet important
U.S. Treasury Department in the continuing efforts to as-
                                                                  personal goals.
sist China in developing its financial markets.





                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                          CFTC Celebrates 30 Years


CFTC Celebrates 30 Years of Service to the                     	         At that time, the vast majority of futures trading took
American People                                                place in the agricultural sector and only on the trading
                                                               floors of major exchanges.
On April 21, 1975, with around 200 staff transferred from
the Commodity Exchange Authority of the Department             	         Today, the Commodity Futures Trading Commission
of Agriculture, the newly established independent agency       has nearly 500 employees who continue to dedicate
opened its doors to regulate the commodity futures and         themselves to achieving the agency’s mission in a world
option markets of the United States.                           of change.



                                            CFTC CHARTER MEMBERS

There are 26 employees who are deserving of special mention on CFTC’s 30th anniversary. They are charter members who
have been with the CFTC since its first day on April 21, 1975. Congratulations and thank you for your dedication!


•   Allen Cooper                •   Donald Nash	                   •   Judi Payne                      •   Ralph Der Asadourian
•   Alfonso Holston             •   Duane Schambach                •   Keith Day                       •   Richard Shilts	
•   Carol Ceropski              •   Elverse Alexander	             •   Lee Smith                       •   Thomas Purcell
•   Charlotte Ohlmiller             Frank Zimmerle
                                •                                  •   Loraine Leonard                 •   Vickie Evans
•   Charles Ricci               •   James Lammle                   •   Marshall Horn	                  •   Walter Maksymec	
•   David Kass                  •   Jon Hultquist                  •   Marvin Jackson                  	
•   David Rosenfeld             •   Josiane Branch	                    Philip Rix
                                                                   •                                       	




                                                                                                                                  
                                                                                                 Commission at a Glance


                                                    CFTC Mission                                                                                                         	   In February 2004, the Commission issued Keeping
                                                                                                                                                                         Pace with Change, a strategic plan for FY 2004-FY 2009.
                                                    The mission of the CFTC is to protect market users and the
                                                                                                                                                                         This plan reflects the new direction of the agency, driven
                                                    public from fraud, manipulation, and abusive practices
                                                                                                                                                                         by the CFMA, including three key objectives: 1) moderniz-
                                                    related to the sale of commodity futures and options and
                                                                                                                                                                         ing rules affecting trading platforms and market inter-
                                                    to foster open, competitive, and financially sound com-
                                                                                                                                                                         mediaries; 2) permitting futures based on single stocks
                                                    modity futures and option markets.
                                                                                                                                                                         or narrow-based stock indices; and 3) providing legal
                                                                                                                                                                         certainty for over-the-counter derivatives.
                                                    Keeping Pace with Change
                                                                                                                                                                         	   The plan also reflects the enormous and continuing
                                                    During FY 2005, the Commission continued to focus its                                                                changes in the markets, including rapid growth in volume,
                                                    actions on modernizing regulation and keeping pace with                                                              globalization, and the movement from open outcry on ex-
                                                    rapidly changing markets.                                                                                            change trading floors to all-electronic trading from widely
                                                                                                                                                                         dispersed geo-graphic locations.
                                                                 INDICATORS OF INDUSTRY GROWTH COMPLEXITY
                                                     2500
                                                                             Growth in Volume of Futures & Option Contracts Traded & FTEs                                CFTC History and Transformation
CO NT R A CT T R A DIN G VO LU ME (M IL L ION S )




                                                     2000
                                                                                                                                                                         Futures contracts for agricultural commodities have been
                                                                             In the past 12 years, trading volume has doubled while                                      traded in the U.S. for more than 150 years and have been
                                                                             staffing levels have on average decreased in recent years.
                                                                                                                                                                         under Federal regulation since the 1920s. Congress cre-
                                                     1500
                                                                                                                                                                         ated the CFTC in 1974 as an independent agency with the
                                                                                                                                                                         mandate to regulate commodity futures and option mar-
                                                     1000
                                                                                                                                                                         kets in the U.S. At the time of the Commission’s found-
                                                                                                                                                                         ing, the vast majority of futures trading took place in the
                                                        500
                                                                                                                                                                         agricultural sector. These contracts gave farmers, ranchers,
                                                                                                                                                                         distributors, and end-users of everything from corn to
                                                          0
                                                                    94     95      96     97     98     99      00     01     02      03    04      05     06            cattle an efficient and effective set of tools to hedge against
                                                                                                                                                   (est)   (est)
                                                                                                   FTE (STAFF YEARS)                                                     price movements.

                                                              Sources: National Finance Center for FTE data and, Futures Industry Association for Contract Volume data




                                                    
                                                                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




            1,200
                           ACTIVELY TRADED FUTURES & OPTION CONTRACTS                                                Organization and Locations
                                                                                                                     The Commission consists of five Commissioners who are
                1,000
                                 The number of actively traded contracts traded on U.S. exchanges
                                                                                                                     appointed by the President to serve staggered five-year
                                 has almost quadrupled in the last decade, 1993–2004.
                                                                                                                     terms. All Commissioners are confirmed by the Senate. No
                    800
CO N TR A CTS




                                                                                                                     more than three Commissioners at any one time may be

                    600
                                                                                                                     from the same political party. With the advice and consent
                                                                                                                     of the Senate, the President designates one of the Com-
                    400                                                                                              missioners to serve as Chairman.
                                                                                                                     	   The Commission’s organization chart is aligned with
                    200
                                                                                                                     its 2004–2009 Strategic Plan, and its functions are divided
                                                                                                                     between program policy and internal management. The
                     0
                            93    94    95     96    97    98    99    00     01   02    03     04   05
                                                                                                     (est)
                                                                                                             06
                                                                                                             (est)
                                                                                                                     Office of the Chairman oversees the Commission’s princi-
                                                                FISCAL YEAR                                          pal divisions and offices that administer the policies, regu-
                                                                                                                     lations, and guidance regarding the Commodity Exchange
                                                       Source: CFTC Permanent Records
                                                                                                                     Act (CEA). The Office of the Executive Director, by delega-
                	         Over the years, however, the futures industry has                                          tion of the Chairman, directs the internal management
                become increasingly complex. While farmers and ranch-                                                of the Commission, ensuring that funds are responsibly
                ers continue to use the futures markets as actively as ever                                          accounted for and that program performance is measured
                to effectively lock in prices for their crops and livestock                                          and improved effectively.
                months before they come to market, highly complex                                                    	   Attorneys at the Commission work on complex and
                financial contracts based on interest rates, foreign cur-                                            novel legal issues in litigation, regulation, and policy
                rencies, Treasury bonds, stock market indices, and other                                             development. They participate in administrative and
                products have far outgrown agricultural contracts in trad-                                           civil proceedings, assist U.S. Attorneys in criminal pro-
                ing volume. The latest statistics show that approximately                                            ceedings involving futures law violations, and provide
                five percent of on-exchange derivatives activity occurs in                                           legal advice to the Commission on policy and adjudica-
                the agricultural sector, while financial derivatives make                                            tory matters.
                up approximately 86 percent, and other contracts, such as                                            	   Auditors examine records and operations of futures
                those on metals and energy products, make up about nine                                              exchanges and firms for compliance with the CFTC rules
                percent. In recognition of this changing environment,                                                on financial requirements and trade practices.
                Congress and the President reauthorized the Commission                                               	   Economists evaluate filings for new futures and op-
                through FY 2005 with the passage of the CFMA in De-                                                  tion contracts and amendments to existing contracts to
                cember 2000. The CFMA repealed the ban on single stock                                               ensure they meet the Commission’s regulatory standards.
                futures and instituted a regulatory framework for such                                               Economists also analyze and advise the Commission on
                products to be administered jointly by the CFTC and the                                              the economic effect of various Commission and industry
                Securities and Exchange Commission (SEC). It codified                                                actions and events. In addition, economists monitor trad-
                the principal provisions of a new regulatory framework                                               ing activity and price relationships in futures markets to
                adopted earlier by the Commission. It also brought legal                                             detect and deter price manipulation and other potential
                certainty to bilateral and multilateral trading in over-the-                                         market disruptions.
                counter markets and clarified the CFTC’s jurisdiction over                                           	   Futures Trading Specialists perform regulatory and
                the retail, off-exchange foreign currency market. It gave the                                        compliance oversight of alleged fraud, market manipula-
                CFTC authority to regulate clearing organizations in a way                                           tions, and trade practice violations.
                which enables the CFTC to more effectively foster open,
                competitive, and financially sound markets.



                                                                                                                                                                                  
 	   The CFTC is headquartered in Washington, D.C.                  	     Additional information about the Commission’s history
 Regional offices are located in Chicago and New York; with         and its divisions can be obtained from the Commission’s
 smaller offices in Kansas City and Minneapolis.                    Office of External Affairs or through its Web site, www.cftc.gov.




     NUMBER OF CFTC REGISTERED DERIVATIVES CLEARING ORGANIZATIONS 2000–2005

 	 CLEARING ORGANIZATIONS	     DEC. 21, 2000	      SEP. 30, 2001	   SEP. 30, 2002	   SEP. 30, 2003	   SEP. 30, 2004	    JUL. 20, 2005

 	 AE Clearinghouse	                 					                                                                                  ✓
 	 BTEX	                             	                  ✓	               ✓	                ✓	
 	 CCorp	                            ✓	                 ✓	               ✓	                ✓	              ✓	               ✓
 	 CBOT	                             				                                                                  ✓	               ✓
 	 CME	                              ✓	                 ✓	               ✓	                ✓	              ✓	               ✓
 	 Energy Clear	                     	                  ✓	               ✓	                ✓
 	 FCOM	                             ✓	                 ✓	               ✓	                ✓
 	 GCC	                              		                                  ✓	                ✓
 	 Hedge Street	                     				                                                                  ✓	               ✓
 	 ICC	                              ✓	                 ✓	               ✓	                ✓
 	 KCBT	                             ✓	                 ✓	               ✓	                ✓	              ✓	               ✓
 	 LCH	                              		                                  ✓	                ✓	              ✓	               ✓
 	 MGE	                              ✓	                 ✓	               ✓	                ✓	              ✓	               ✓
 	 NYCC	                             ✓	                 ✓	               ✓	                ✓	              ✓	               ✓
 	 NYMEX	                            ✓	                 ✓	               ✓	                ✓	              ✓	               ✓
 	 OCC			                                                                ✓	                ✓	              ✓	               ✓
 	 ONXCC	                            ✓	                 ✓	               ✓	                ✓

 	 TOTAL	                            9	                11	               14	              14	              10	             11




10
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




  COMMODITY FUTURES TRADING COMMISSION ORGANIZATION STRUCTURE




Commissioner                Commissioner                       CHAIRMAN                             Commissioner               Commissioner




                                              Office of the                 Equal Employment
                                           Inspector General                   Opportunity
Office of General Counsel                                                                                          Office of Executive Director

                                              Office of the                      Office of
                                              Secretariat                     External Affairs



                                                                                  Office of
                                                                            International Affairs




  Division of Clearing &                     Division of                         Division of                               Office of
 Intermediary Oversight                    Market Oversight                     Enforcement                             Chief Economist


    Eastern Region                         Eastern Region                      Eastern Region
      (New York)                             (New York)                          (New York)


    Central Region                         Central Region                      Central Region
      (Chicago)                              (Chicago)                           (Chicago)


      Kansas City                            Kansas City                         Kansas City
        Office                                 Office                              Office



                                             Minneapolis
                                               Office




                                                                                                                                          11
                           Performance Highlights


 Commission Goals and Objectives                                 Desired Outcomes of Goal One:
 The Commission ensures, through effective oversight,            •	 Markets that accurately reflect the forces of supply and
 the economic vitality of the commodity futures and op-            demand for the underlying commodity and are free of
 tion markets and their important function of providing a          disruptive activity.
 mechanism for price discovery and a means of offsetting         •	 Markets that are effectively and efficiently monitored
 price risk.                                                       to ensure early warning of potential problems or issues
 	     The mission of the CFTC is accomplished through             that could adversely affect their economic vitality.
 pursuing three strategic goals, each focusing on a vital area
                                                                 Performance Summary Highlights for Goal One
 of regulatory responsibility:
                                                                 •	 Conducted daily surveillance of 669 active futures and
 1. Ensure the economic vitality of commodity futures and          option contracts. Particularly close monitoring was
     option markets.                                               conducted on the energy futures markets, which expe-
 2. Protect market users and the public.                           rienced periods of high prices and high price volatility
 3. Ensure market integrity in order to foster open, com-          due to, among other things, low stocks, tight production
     petitive, and financially sound markets.                      capacity, geopolitical tension in the Middle East, strong
                                                                   world economic demand, and natural disasters.
 Goal Overviews                                                  •	 Reviewed, under the Commission’s certification pro-
                                                                   cedures for listing new products, 286 new contracts,
 Goal One: Ensure the Economic Vitality of
                                                                   including 91 security futures products (SFPs), and under
 Commodity Futures and Option Markets
                                                                   its certification procedures, 125 product rule changes.
 The focus of this goal is the marketplace. If the U.S. com-
                                                                   Staff reviewed the terms and conditions of contracts
 modity futures markets are protected from and are free of
                                                                   submitted under certification procedures to ensure that
 abusive practices and influences, they will better operate
                                                                   statutory and regulatory anti-manipulation require-
 to fulfill their vital role in the nation’s market economy
                                                                   ments were met and to provide essential background
 and the global economy, accurately reflecting the forces of
                                                                   information in order to conduct market surveillance.
 supply and demand and serving market users by fulfilling
                                                                 •	 Filed ten enforcement actions against a total of 19 in-
 an economic need.
                                                                   dividual traders and companies alleging their participa-
                                                                   tion in false reporting and attempted manipulation in



12
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




  the energy markets. Four energy-related enforcement           referred to state or Federal authorities for prosecution under
  actions were settled in FY 2005 therein imposing $45.6        criminal statutes.
  million in civil monetary penalties. Through FY 2005,         	     Over the years, the Commission has taken action in
  the Commission’s activity in this program area has            a number of cases involving manipulation or attempted
  resulted in 32 enforcement actions, charging 49 defen-        manipulation of commodity prices. The Sumitomo copper
  dants and 24 settlements that included a total of nearly      case and the Hunt brothers silver case are well known ex-
  $300 million in civil monetary penalties.                     amples. A variety of administrative sanctions, such as bans
•	 Provided economic and statistical analysis for enforce-      on futures trading, civil monetary penalties, and restitution
  ment cases involving foreign currencies, energy prod-         orders, is available to the Commission. The Commission
  ucts, and several recently developed derivatives prod-        may also seek Federal court injunctions, asset freezes, and
  ucts, and an examination of the appropriate role for          orders to disgorge ill-gotten gains.
  Federal oversight of event-type markets.
                                                                Desired Outcomes of Goal Two:
•	 Conducted 72 market move reviews. Such reviews met
  the objectives of: assuring that registrants and financial    •	 Violations of Federal commodities laws are detected
  intermediaries are not impaired by market volatility or           and prevented.
  disruptions to meet financial obligations; and detecting      •	 Commodity professionals meet high standards.
  any failure by a DCO to meet its obligations or other         •	 Customer complaints against persons or firms
  impairment of a registrant.                                       registered under the Act are handled effectively and
•	 Collected and analyzed approximately 44,000,000 line             expeditiously.
  items of data regarding large trader activity and approxi-
                                                                Performance Summary Highlights for Goal Two
  mately 16,000 reports identifying the large traders.
                                                                •	 Typically, the Commission has more than 250 active
•	 Reviewed three filings by entities that notified the Com-
                                                                    litigation and investigation matters open at any time.
  mission of their intention to operate as exempt markets
                                                                    During FY 2005, two-thirds of the Commission’s en-
  under the CEA; and reviewed 10 rule amendment ap-
                                                                    forcement actions were filed in this performance area.
  proval requests for existing futures and option contracts.
                                                                    For example, the Commission filed an action closing
  In addition, staff: 1) reviewed the terms and conditions
                                                                    down Philadelphia Alternative Management, which had
  of contracts submitted for approval to ensure that the
                                                                    hidden trading losses in excess of $100 million. The
  contract terms and conditions were in compliance with
                                                                    CFTC also participated in the joint agency enforcement
  Commission regulations and policies and did not raise
                                                                    action as a result of the Bayou hedge fund collapse. The
  any public interest issues; 2) reviewed 262 exchange
                                                                    Enforcement program further continued to combat
  rule submissions that contained 1,237 separate new
                                                                    retail foreign currency (forex) “bucket shops” bringing
  rule amendments; 3) and reviewed six applications of
                                                                    its total, post-passage of the CFMA accomplishments in
  entities seeking to become a designated contract market.
                                                                    this area to 79 enforcement actions filed with approxi-
Goal Two: Protect Market Users and the Public                       mate sanctions of $115 million in restitution and $170
While our country reaps the rewards of an explosive growth          million in civil monetary penalties.
in the futures industry, the risk of fraud and manipula-        •	 Filed nine enforcement actions related to commod-
tion is always present. The trend toward electronic trading         ity pools (including “hedge funds”), and commodity
platforms and the expanding complexity of trading instru-           pool operators (CPOs); filed eight enforcement actions
ments have challenged the Commission to reconfigure                 related to fraud involving commodity trading advisors
its ability to identify, investigate, and take action against       (CTAs), managed accounts, and trading systems; filed 11
parties involved in violating applicable laws and regula-           enforcement actions related to futures commission mer-
tions. If evidence of criminal activity is found, matters are       chants (FCMs), introducing brokers and their associated




                                                                                                                              13
     persons; and filed a total of 17 enforcement actions in-       customers of CTAs and working with other agencies to
     volving foreign currency trading. The Commission also          complete information-sharing agreements.
     filed two enforcement actions involving other illegal        •	 Consumer education and outreach is an acknowledged
     off-exchange trading.                                          goal of the Commission and part of its effort to protect
•	 Obtained dismissal of one significant case before                the public from possible wrongdoing on the part of
     the U.S. Supreme Court. The result in that case, R.J.          firms and industry participants. The Commission’s
     Fitzgerald & Co. v. CFTC, 125 S. Ct. 808 (Dec. 13, 2004)       Web site is continuously updated with consumer
     (Mem.), preserved the ruling obtained by the Com-              protection advisories and enforcement bulletins to
     mission in the U.S. Court of Appeals for the Eleventh          alert and educate the public. The Web site is www.cftc.
     Circuit in an important anti-sales fraud prosecution.          gov/cftc/cftccustomer.htm
     See e.g., CFTC v. Wall Street Underground, 128 Fed. Appx.
     726 (10th Cir. 2005); CFTC v. Fremer, 128 Fed. Appx.         Goal Three: Ensure Market Integrity in Order
     104 (11th Cir. 2005); CFTC v. Gibralter Monetary Corp.,      to Foster Open, Competitive, and Financially
     No. 04-13828-I (11th Cir. May 9, 2005).                      Sound Markets
•	 Took part in a variety of domestic and international ef-       The Commission also focuses on issues of market integ-
     forts, including task forces and working groups designed     rity, seeking to protect: 1) the economic integrity of the
     to keep market participants abreast of new develop-          markets so that they may operate free from manipulation;
     ments in financial crimes and to coordinate governmen-       2) the financial integrity of the markets so that the insol-
     tal responses to common issues including the Corpo-          vency of a single participant does not become a systemic
     rate Fraud Task Force, anti-money laundering efforts,        problem affecting other market participants; and 3) the
     Telemarketing and Internet Fraud Working Group, the          operational integrity of the markets so that transactions
     Consumer Protection Initiatives Committee, and the           are executed fairly and proper disclosures to existing and
     Securities and Commodities Fraud Working Group.              prospective customers are made.
•	 Issued 37 opinions and other orders (including orders
     issued pursuant to delegated authority), 19 of which         Desired Outcomes of Goal Three:
     were final dispositions of cases pending on the Com-         •	 Clearing organizations and firms holding customer
     mission’s docket.                                              funds have sound financial practices.

•	 Initiated a review of the National Futures Association’s       •	 Commodity futures and option markets are effectively
     (NFA) program for the oversight of CPOs and CTAs for           self-regulated.
     compliance with Commission and NFA rules and regu-           •	 Markets are free of trade practice abuses.
     lations. The review specifically focused on: registration    •	 The regulatory environment is flexible and responsive
     of CPOs and CTAs; review of CPO and CTA disclosure             to evolving market conditions.
     documents; and review of CPO annual financial state-
     ments, sales practices, and disciplinary process. Staff is   Performance Summary Highlights for Goal Three
     currently finalizing its report, which is expected to be     •	 Performed 11 audits (one DCO and 10 FCMs) to test
     presented to the Commission by the close of the first          compliance with the Commission’s financial require-
     quarter of FY 2006.                                            ments for the safekeeping of customer funds. In addition,
•	 Consulted with staff of the U.S. Treasury Department             staff processed approximately 2,700 financial reports filed
     and various Federal financial regulators to develop anti-      by registrants. As a result of on-going program efforts
     money laundering regulations required under the USA            such as these, no regulated customer funds were lost in
     PATRIOT Act, including, providing guidance to certain          FY 2005, meeting the program’s objective of ensuring




14
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




  sound financial practices of clearing organizations and         trading on non-U.S. markets) in FY 2005. The Commis-
  firms holding customer funds.                                   sion issued an order to NFA authorizing NFA to confirm
•	 Filed 12 actions in this performance area during FY 2005       exemptive relief to certain firms acting in the capacity
  including an action imposing restitution and a civil            of an FCM that are subject to regulation by a foreign
  monetary penalty against an accounting firm for failure         futures authority or that are members of a foreign SRO
  to detect fraud perpetrated by a CPO and several statu-         in a particular jurisdiction. These firms are referred to in
  tory disqualification actions against registrants. In addi-     the order as cross-border futures brokers (CBFBs). The
  tion, the Commission assisted in the successful criminal        Commission previously had authorized NFA to confirm
  prosecution of a registered floor broker who illegally          exemptive relief solely to firms subject to regulation by
  converted customer funds in violation of the CEA.               a single foreign futures authority or that are members of
•	 Completed two rule enforcement reviews of self-regula-         a foreign SRO.
  tory organization (SRO) compliance programs. One              •	 Continued work on the International Organization
  of the rule enforcement reviews completed during FY             of Securities Commissions (IOSCO) Multilateral
  2005 was a review of OneChicago’s market surveillance,          Memorandum of Understanding concerning Consulta-
  audit trail, trade practice surveillance, disciplinary, and     tion, Cooperation and the Exchange of Information
  dispute resolution programs. The other rule enforce-            (MMOU), which is an important and meaningful
  ment review completed during FY 2005 was a review of            undertaking for regulators to expand cooperation by
  the Chicago Board of Trade’s (CBOT) audit trail, trade          establishing specific minimum standards for securities
  practice surveillance, disciplinary, and dispute resolu-        and futures regulators in the area of information-shar-
  tion programs. Staff found that both OneChicago and             ing. During FY 2005, Belgium, with which the Commis-
  CBOT maintain adequate programs with respect to the             sion previously did not have an information-sharing
  areas reviewed.                                                 arrangement, became a signatory to the MMOU.
•	Worked with NFA staff regarding retail foreign currency      •	 Issued or reviewed requests for no-action relief in con-
  trading by FCMs and their affiliates. The NFA submit-           nection with: 1) foreign exchange-traded foreign stock
  ted additional rules concerning retail foreign currency         index futures contracts; 2) the offer and sale of foreign
  on August 22, 2005, which the Commission approved               exchange-traded foreign stock index futures contracts
  on September 15, 2005. These rules are intended to              in the U.S. requests by foreign boards of trade to
  address on-going problems in the off-exchange retail            permit placement of electronic terminals in the U.S.
  forex market by allowing NFA to impose stricter net             without requiring contract market designation for
  capital requirements on certain persons registered              those boards of trade; 3) relief from the Commission’s
  as FCMs engaging in retail forex transactions, and              default contract reporting levels for futures and option
  to extend certain antifraud and customer protection             contracts so that Eurex U.S.’s new 3-Year U.S. Treasury
  rules to a greater number of off-exchange retail forex          Notes (3-Year T-Notes) contract would be subject to a
  transactions, where NFA members act as intermediaries           reporting level of 750 contracts, rather than the default
  but the counterparty is not an NFA member. Members              level of 25 contracts; and 4) easing the burden of
  are also required to provide customers with informa-            reporting on market participants, while preserving the
  tion about NFA’s registrant database (BASIC) so that            Commission’s ability to effectively surveil trading in
  they may review the registration status and disciplinary        the 3-Year T-Note contract.
  history of those who solicit them.                            •	 Provided technical assistance to foreign regulators from 14
•	 Furthered the development of the offer and sale of             foreign jurisdictions visiting the U.S. and to on-site visits
  foreign futures and option transactions (U.S. customers         to foreign jurisdictions. Sharing information enhances the




                                                                                                                                  15
     knowledge of other regulators and facilitates the develop-   as a whole and for the statutorily authorized programs
     ment of high levels of global regulatory protections.        that it administers.
•	 The Commission had two advisory committee meet-                	     For the end of FY 2005, this Performance and Accountabil-
     ings in FY 2005. On January 12, 2005, the Global Mar-        ity Report shows the extent to which these actions translated
     kets Advisory Committee (GMAC) met, and on April             into meaningful results and successful investment of public
     28, 2005, the Technology Advisory Committee (TAC)            funds. This report also includes a discussion of how the
     met. The GMAC was created by the Commission for              Commission will refine our policy and management activi-
     the purpose of obtaining input on international mar-         ties during FY 2006 to enable us to achieve greater success.
     ket issues that affect the integrity and competitiveness     	     For example, as outlined in the Commission’s FY
     of U.S. markets and firms engaged in global business.        2007 Budget Estimate to the Office of Management and
     The January 2005 GMAC meeting agenda included                Budget (OMB), a fourth goal, “Organizational and
     developments regarding the currency regime of China,         Management Excellence” will be added to the CFTC’s
     with presentations by officials of the U.S. Treasury         Strategic Plan in FY 2006. It will clearly articulate goals
     Department and a representative of the Chicago Mer-          for ensuring the Commission has the right people, in
     cantile Exchange; segregated/secured funds discussion        the right place, at the right time, doing the right work.
     lead by the GMAC Subcommittee on Bankruptcy; and             The plan sets up a framework for how information
     CFTC reauthorization, with updates by House and Sen-         technology investments can improve the work processes
     ate staff. The TAC was created by the Commission in          of the Commission and the services for its customers
     October 1999 to obtain input on emerging technolo-           and partners. The plan also focuses the Commission’s
     gies, the impact of technology on financial services and     efforts to ensure that appropriate internal controls and
     commodity markets, and the appropriate legislative           financial systems are in place to provide managers with
     or regulatory response to increasing use of technology       accurate and timely financial and performance informa-
     in the markets. TAC members represent U.S. desig-            tion for managing day-to-day operations.
     nated contract markets, SROs, financial intermediaries,      	     The accurate and timely financial and performance
     market users, and traders. The April 2005 TAC meeting        information will allow the Commission to integrate
     agenda included discussion of: 1) what constitutes           performance expectations and funding requirements
     “prior art” in the patents process; 2) intellectual prop-    effectively. Key target results for the proposed fourth goal
     erty in trading and settlements technology; 3) restric-      include the following:
     tions on the usage of exchange settlement prices; and        • The Commission will improve internal controls and
     4) market data piracy.                                           data integrity, as reflected in three sequential clean
                                                                      audit opinions and the ability to use financial data on
Strategic Planning and Reporting                                      a day-to-day basis to help inform management and
The three goals of the Strategic Plan 2004–2009 establish             programmatic decisions Commission-wide.
appropriate priorities for the Commission in enabling a very      •	 The Commission will improve the way it exchanges
small organization to be an effective regulator in a rapidly          data and interacts with customers by enhancing the use,
changing marketplace. The preceding overviews demonstrate             management, and security of information technology
a coordinated set of objectives and actions flowing from the          investments.
goals that shape our work into a cohesive whole.                  • The Commission will identify and refine performance
	      The Government Performance and Results Act                     measures for its programs, using data and analysis to
(GPRA) requires the Commission to establish meaningful                inform funding recommendations and focusing on the
performance standards for activities for the Commission               results expected from the programs.




16
                                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




•	 The Commission will employ top-notch professionals                                  	   In December 2004, the Commission’s Enforcement
    with strong academic records and excellent analytical                              program was evaluated by OMB and the Commission. The
    and problem-solving skills for its important work.                                 program received top scores for purpose and design
	     It will continue to implement Section 10702 of Public                            as well as management. Opportunities for improvement
Law 107-171, the Farm Security and Rural Investment Act                                existed in the areas of strategic planning and program
of 2002, which removes the CFTC from coverage under                                    results measurement.
certain provisions of Title V of the U.S. Code that govern                             	   Alignment of Financial Data and Performance
basic pay, benefits, and compensation in all pay systems                               Priorities. This Performance and Accountability Report
and removes the CFTC from the Senior Executive Service.                                strengthens the alignment of financial data and perfor-
	     This authority allows the Commission to compete                                  mance priorities by again identifying appropriations and
with the six agencies subject to the Financial Institu-                                net costs for the goals of the CFTC Strategic Plan. Each
tions Reform, Recovery, and Enforcement Act (FIRREA)                                   Commission program is aligned with the same strategic
of 1989 (12 U.S.C.1833b (a)) for the scarce talent
                                             1                                         goal(s) as a year ago, enabling both our appropriations
required to meet its mission.                                                          and our estimated net costs to clearly reflect the discrete
                                                                                       priorities of the CFTC Strategic Plan.
Integration of Performance with Budget                                                 	   Integrating Performance Plan into Budget. Dur-
and Finance                                                                            ing the past year, the Commission incorporated its perfor-
                                                                                       mance plan into its submission of the Commission’s FY
Focusing on results and accountability with performance
                                                                                       2007 Budget Estimate to OMB. For the FY 2007 budget cycle,
monitoring and financial reporting is sound practice. One
                                                                                       the budget and annual performance plan were formulated
critical gauge of how well taxpayer dollars are being used
                                                                                       concurrently and are increasingly integrated.
is for an agency to link the performance of its programs to
subsequent budget determinations.                                                      	   Measurement Challenges. Commission’s chal-
                                                                                       lenges of linking performance results to the budget are
	     The Commission constantly seeks to strengthen the
                                                                                       complicated by the fact it is difficult to separate the
linkage between financial investments and program quality.
                                                                                       Commission’s impact from other events affecting futures
We do this not only through the development of program
                                                                                       and option markets.
measures, but also through various reporting mechanisms
and effective budget management. This report is one
example of how we provide comprehensive, accurate in-
formation to the American public in a timely manner. The
following are some other major activities related to budget
and performance integration.
	     Program Assessment Rating Tool (PART). The
OMB has systematically assessed the quality of government
programs over the past three years. Through the PART, OMB
works with Federal agencies to judge the effectiveness of
programs with regard to their stated purpose, strategic plan-
ning, internal management, and results and accountability.
Although primarily a diagnostic tool for programs, PART
reviews provide critical information that can be used to
establish funding priorities for the subsequent budget cycle.




1
 The FIRREA agencies are the Federal Deposit Insurance Corporation, the Comptroller
of the Currency, the National Credit Union Administration Board, the Federal Housing
Finance Board, the Farm Credit Administration, and the Office of Thrift Supervision.

                                                                                                                                                     17
                              Financial Highlights


Financial Overview                                             	    Improved management reporting, in turn, enables
                                                               managers to be accountable and supports the concepts of
With U.S.-based jurisdiction for regulating the commod-
                                                               the GPRA and the principles of the President’s Manage-
ity futures and options trading industry, the CFTC covers
                                                               ment Agenda. Both GPRA and the President’s Manage-
a great deal of ground – both domestically and abroad.
                                                               ment Agenda require the Commission to: 1) establish a
Unlike many other financial regulators, the Commission
                                                               strategic plan with programmatic goals and objectives;
relies solely on appropriations to cover salaries, expenses,
                                                               2) develop appropriate measurement indicators; and 3)
and on-going operations. Any fees or other monies, total-
                                                               measure performance in achieving those goals.
ing many millions of dollars, collected during the year are
deposited into U.S. Treasury accounts and flow into its        	    During FY 2005, we improved our management

general fund.                                                  reporting to include monthly fiscal reporting for program
                                                               managers. Improved reporting capabilities enable the Com-
	    Operations in FY 2005 achieved marked improve-
                                                               mission to integrate program results with fiscal costs that
ments in our financial management and reporting capa-
                                                               assist in measuring program results against performance.
bilities. Key enhancements were achieved with account
relationship analysis, timely reporting, and the intro-        	    Our financial reporting capabilities have become rou-

duction of new management reports. The Commission              tine, enabling us to extend our financial analysis for both

derived maximum benefits from these enhancements as            program management and fiscal reporting in less time;

they helped streamline reconciliation processes. Moreover,     thereby utilizing Commission resources more efficiently

more timely data led us to generate new executive man-         and effectively.

agement reports to monitor the progress of our programs.
	    The Commission’s ability to demonstrate that effective    Lines of Business
controls were in place over financial reporting ensured that   The Commission managed an appropriation of approxi-
an unqualified audit opinion was rendered. The Com-            mately $93.5 million in FY 2005, of which 34 percent
mission is confident that this will be sustained through       went primarily toward market oversight activities. The
effective stewardship. Management recognizes the need          futures markets continue to grow rapidly, with the 2006
for accountability, and fully supports the culture change      trading volume expected to be twice that of 2000, the year
necessary to implement more thorough assessments of risk       the CFMA was passed.
factors that can have an impact on financial reporting.




18
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




In 2000, there were 12 U.S. futures exchanges. Today, there    institutions and another of which is an overseas institu-
are 20 designated contract markets and another 13 trading      tion. Clearinghouses, as central counterparties in the
platforms covered by the CFMA. The number of markets           futures markets, are critical to the financial integrity of
subject to some level of Commission oversight has tripled.     markets and intermediaries. Their proper supervision
Similarly, more than 600 new products have been brought        requires the Commission to devote about 26 percent of its
to market since 2000, versus fewer than 200 in the three       resources executing oversight programs.
years preceding the CFMA’s passage.                            	    In addition, the USA PATRIOT Act of 2001 assigned to
	   These are very positive developments for market us-        the Commission new responsibilities to work with other
ers, but they challenge the human capital resources of the     Federal financial regulators to develop and then implement
Commission. Moreover, as derivatives markets generally         rules and practices geared toward effectively enforcing key
become more global in nature, the Commission is increas-       provisions, such as anti-money laundering protections. Ful-
ingly called upon to register overseas clearinghouses and      filling this important new national security responsibility
futures firms, to approve complex cross-border trading and     requires the Commission to devote resources to developing
clearing linkages, and to then perform effective on-going      new workforce competencies, practices, and procedures.
supervision. This requires the Commission to invest re-        	    As noted earlier, unlike most other Federal financial
sources in developing and maintaining effective relation-      regulators who receive fees or other monies collected during
ships with foreign regulatory authorities.                     the year, the Commission relies on appropriations for 100
	   Of the Commission’s three strategic goals, the largest     percent of its total operating budget. Therefore, management
portion of the Commission’s resources, 42 percent, was         must be diligent in its allocation and administration of
allocated towards Goal Two, with activities designed to        resources. This is a key driver behind the adoption of a new
protect market users and the public. The Commission’s          fourth goal in FY 2006 addressing management excellence.
aggressive enforcement actions in the energy sector reflect
an approach to market oversight that emphasizes tough          Financial Position
enforcement actions against wrongdoers without creating
                                                               The Commission’s financial statements, which begin on
overly burdensome regulations.
                                                               p. 64, received an unqualified audit opinion, issued by
	   As energy price escalations impact the U.S. economy,       the independent accounting firm of KPMG LLP. In FY
the Commission must do its part to ensure that market          2004, KPMG was only able to render an opinion on the
users and the public are protected. Moreover, retail foreign   Commission’s balance sheet because the other statements
currency fraud has become an increasing problem particu-       were dependent on prior year activity that had not been
larly with the growth of the Internet, which enables access    audited. Preparing these statements is part of the Commis-
to foreign scam artists and parties who would evade our        sion’s continuing efforts to achieve financial management
safeguards and shift funds to off-shore locations.             excellence and to provide accurate and reliable informa-
	   The Commission needs to calibrate its resources to         tion that is useful for assessing performance and allocating
actively pursue increasingly sophisticated and global fraud    resources. Commission management is responsible for
that may have implications on national security as well as     the integrity and objectivity of the financial information
customer protection. No less important, but using a rela-      presented in the financial statements.
tively few number of people, activities to ensure market       	    The financial statements presented in this report have
integrity in nonexempt markets require the Commission          been prepared from the accounting records of the CFTC in
to rely on self-regulation and to leverage technology.         conformity with generally accepted accounting principles
	   With the CFMA, the Commission was, for the first           (GAAP) in the United States. GAAP for Federal entities
time, assigned separate supervisory responsibility over        are the standards proscribed by the Federal Accounting
futures clearinghouses. Since 2000, seven clearinghouses       Standards Advisory Board.
have been designated, three of which are completely new




                                                                                                                             19
                                   TOTAL ASSETS VS. TOTAL LIABILITIES                  collection of accounts receivable and analysis of outstand-
                        80
                                                                                       ing balances. Accounts are re-estimated quarterly based
                        70                                                             on account reviews and determination that changes to the
                                                               $62.2
                                                                                       net realizable value are needed.
                        60
                                       $54.2
                                                                                       	       Several factors influenced the change in the Com-
I N MI L L I ON S




                        50
                                                                       $44.4           mission’s net position during FY 2005. This includes the
                                               $39.1
                        40                                                             timing of the execution of prior year write-offs of old debt
                                                                                       and the overall case management and analysis of debt by
                        30
                                                                                       the Division of Enforcement.
                        20                                                                 	   Statement of Net Cost. The statement of net cost is
                        10
                                                                                       designed to present the components of the net cost of the
                                                                                       Commission. Net cost is the gross cost incurred less any
                        $0
                                         FY 2005                 FY 2004               revenues earned from Commission activities. The state-
                                          Total Assets            Total Liabilities    ment of net cost is categorized by the Commission’s stra-
                                                                                       tegic goals. The Commission experienced a four percent
                    	        Balance Sheet. The balance sheet presents, as of a        increase in total net costs during FY 2005.
                    specific point in time, the economic value of assets and           	       Goal 1, which tracks activities related to Market
                    liabilities retained or managed by the Commission. The             Oversight, experienced a nine percent increase in costs
                    difference between assets and liabilities represents the net       over FY 2004.
                    position of the Commission.                                        	       Goal 2 is representative of efforts to protect market
                    	        The balance sheet displayed on p. 64 reflects total as-   users and the public. Costs are spread across three out-
                    sets of $54.2 million, a 13 percent decrease from FY 2004.         comes. However, the majority of costs are related to detect-
                    This decrease is attributable to custodial fines and interest      ing and preventing violations of Federal commodity laws.
                    receivables from the Civil Monetary Sanctions Program.	            These programs experienced a five percent cost increase in
                    	        The majority of the liabilities, 73 percent, consist      FY 2005.
                    of custodial liabilities. Custodial receivables (non-entity        	       Goal 3, which is representative of efforts to ensure
                    assets) are those for which fines and penalties have been          market integrity, spreads costs across the achievement of
                    assessed and levied against businesses for violation of law.       four outcomes. The distribution of costs for maintain-
                    The CFTC litigates against defendants for alleged viola-           ing self-regulated markets was that of costs incurred for
                    tions of the CEA, as amended. Violators may be subject             other outcomes. Overall, a one percent cost decrease was
                    to a variety of sanctions including fines, injunctive orders,      incurred in FY 2005.
                    bars or suspensions, rescissions of illegal contracts, dis-        	       Statement of Budgetary Resources. This statement
                    gorgement, and restitution to customers.                           provides information about the provision of budgetary
                    	        Historical experience has indicated that a high           resources and their status as of the end of the report-
                    percentage of custodial receivables prove uncollectible.           ing period. Information in this statement is consistent
                    The methodology used to estimate the allowance for                 with budget execution information and the information
                    uncollectible amounts related to custodial accounts is             reported in the Budget of the United States Government.
                    that custodial receivables are considered 100 percent              	       The statement displayed on p. 67 shows that the
                    uncollectible unless otherwise noted in the judgment. An           Commission had $101.8 million in budgetary resources,
                    allowance for uncollectible accounts has been established          $0.77 million of which remained unobligated, with $3
                    and included in “accounts receivable” on the balance               million not available at year-end. The $3 million is only
                    sheet. The allowance is based on past experience in the            available for making upward and downward adjustments




           20
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




to obligations. The Commission had $96 million in net            broad-based changes on the horizon which will have a
outlays for FY 2005.                                             dramatic impact on our markets.
	    Statement of Financing. This statement demon-               	    Additionally, 20 percent of the Commission’s workforce,
strates the relationship between an entity’s proprietary and     including 28 percent of its leadership positions, are eligible
budgetary accounting information. It links the net cost of       to retire during FY 2006. The Commission must take im-
operations (proprietary) with net obligations (budgetary)        mediate steps to preserve its intellectual human capital and
by identifying key differences between the two statements.       expertise in a rapidly changing industry. The Commission
This statement is structured to identify total resources used    must also strive to fully coordinate its strategic technology
during the fiscal year, and then makes adjustments based         investments with human capital management.
on whether the resources were used to finance the net            	    Rapid development in foreign economies will lead to
obligations or net cost.                                         competition for U.S. exchanges and further lead to cross-bor-
	    This statement, displayed on p. 69, identifies $95.2        der trade in derivatives-related financial services between the
million of resources used to finance activities, $4.9 million    U.S. and other countries or multi-nation unions.
of resources used to finance items not part of the net cost of   	    Continued technological developments will continue
operations, and $0.043 million of components of net cost         to reduce floor-based trading and increase use of electronic
of operations that will not require or generate resources.       trading systems. The same technology advancement and in-
	    Statement of Custodial Activity. This statement             creased globalization will lead to an even greater number of
provides information about the sources and disposition of        exchanges and blurring of jurisdictional lines distinguishing
non-exchange revenues. Non-exchange revenue at the CFTC          foreign and domestic boards of trade.
is primarily represented by fines, penalties, and forfeitures    	    Increasingly diversified U.S. economic activity will result
assessed and levied against businesses and individuals for       in added use of exchange-traded and off-exchange derivatives
violations of the CEA, as amended. Other non-exchange            with proliferation of contract-types, trading platforms, and
revenue includes registration, and filing and appeal fees, as    clearing methods.
well as general receipts. The statement of custodial activity    	    In recent years, the Commission has been able to
displayed on p. 70 reflects total non-exchange revenue col-      operate at a level needed to ensure that it has the tools and
lected (cash collections) of $35 million and a transfer of the   resources necessary to do the job expected of it by the Con-
collections to the U.S. Treasury in the same amount.             gress, the Administration, and the American people.
                                                                 	    Many of the choices the Commission must make about
Look Ahead – Possible Effects of Existing                        how it will use its limited resources are extremely difficult.
Events and Conditions                                            Future trends in the market indicate rapid overall growth
The commodity futures and option markets are burgeoning          in trading, computer-based trading, complex contracts, use
and dynamic. These trillion dollar markets, of vital impor-      of international transactions and exchanges, and exploding
tance to the economy, are expanding steadily in both volume      over-the-counter markets.
and new users, and their complexity is rapidly evolving with     	    The Commission primarily uses its resources to
new technologies, globalization, product innovation, and         enforce the law aggressively and to pursue wrongdoing in
greater competition. The integrity of these markets is an es-    the marketplace. To continue to be an effective regulator,
sential defense against economic disruption of the market-       the Commission will need to continue to rely on part-
place and, by extension, the American economy.                   nerships and leveraging its resources with those of other
	    Almost everything in the futures industry has funda-        agencies and industry groups. That will greatly assist the
mentally changed over the last 20 years – from the products      Commission to confront the jurisdictional challenges
that are trading to the platforms on which they are traded.      created by innovation and the worldwide adoption of
As the Commission looks ahead, there are even more               futures and option markets. This, coupled with a wide




                                                                                                                                  21
array of new surveillance issues, will consume significant       network. To ensure success, the strategic technology
Commission resources.                                            investment plan will be coordinated with human capital
	    From an operational perspective, the Commission             management and planning.
must diligently deploy its resources to fulfill its regulatory   	   Human Capital Transformation. A results-oriented
mandate. To do so, the Commission seeks to transform itself      enterprise requires that an organization clearly identify and
along the following dimensions.                                  achieve valuable goals. Our goals continue to reflect the
	    Institutional Transformation. Activities and pro-           placement of strategic management of human capital at
cesses centering on governance, risk management, and             the top of the five key initiatives on the President’s Manage-
compliance with laws and regulations are converging. To          ment Agenda.
be effective, the Commission must excel in all three areas.      	   Specifically, the Commission is focusing significant re-
These long-term management issues require continued              sources on a consistent approach for the development and
focus and sustained management commitment to ensure              implementation of a human capital management plan. The
future success.                                                  plan integrates human capital management with competi-
	    The Commission will concentrate on the costs of             tive sourcing and restructuring requirements, and has the
identifying and controlling institutional risks, specifically,   solid foundation of data from its first strategic workforce
the risk of impairment to the Commission’s operations            planning competency-based gap analysis and workforce
model, reputation, and financial condition from failure to       forecasting overview. Along with a talent management ac-
fully comply with laws and regulations, internal controls,       tion plan, the human capital management plan provides
and taxpayer expectations. The value of adopting such an         a narrative and literal template for creating a customized,
approach far outweighs the costs of implementation. Senior       prioritized action plan for the strategic management of hu-
management will build long-term value by making invest-          man capital in each organizational unit of the CFTC.
ments to comply with relevant regulations, embed compli-         	   As noted in the Technology Transformation section,
ance within the organization, manage the costs associated        this planning will continue to be coordinated with other
with compliance, and identify and address regulatory             strategic infrastructure investments.
change. Our progressive focus on compliance will ensure          	   The Commission’s continued commitment to strategic
that fewer resources are necessary for remediation activity.     investments in both systems and human capital will result
	    Technology Transformation. Technology improve-              in a robust, cost-effective environment. This, in turn, pro-
ments will continue to empower the Commission in the             vides taxpayers with an improved return on their invest-
future by increasing the availability of our most critical       ment in the Commission.
resource – time. Through these improvements, executive
management may spend additional time on policy analy-
sis and decision-making rather than on the processing
and compiling of key data. This trend at the Commis-
sion will continue to accelerate at an increasing rate as
many of our investments in systems and E-Government
continue to mature.
	    Major Commission investments currently include
replacing the existing financial accounting system and
full participation in the on-going E-Government initia-
tive. This model will create public value by optimizing
government operations and providing effective oversight
in the most efficient manner through a unified data




22
                                                                    M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                        Management Challenges


Management Challenges                                         and property management, and procurement. The agency
                                                              will face many challenges in making the migration to ESC
The major management challenges facing the Commission
                                                              and successfully implementing an integrated system to
include:
                                                              better meet and serve our financial management needs.
	   Financial Management. The Commission has faced
                                                              	   Information Technology. The challenges that face the
many challenges in the past few years related to finan-
                                                              Commission relating to information technology include
cial management, including regulatory compliance with
                                                              investment management, security, critical infrastructure
Accountability of Tax Dollars Act, requiring the agency
                                                              protection, and contingency planning. The Commission
to develop financial statements and undergo an annual
                                                              has made significant strides relating to its information
independent audit.
                                                              technology challenges. The Commission accredited its
	   In addition, regulatory reporting requirements
                                                              mission-critical systems in July 2005 and is on track to ac-
continue to rapidly change through OMB’s revisions to
                                                              credit its general support systems by December 31, 2005.
financial reporting requirements (OMB Circular A-136,
                                                              	   In addition, the Commission completed a manage-
Financial Reporting Requirements) and management’s
                                                              ment study on mission-essential infrastructure protection
responsibility for internal control (OMB Circular A-123,
                                                              that will test critical infrastructure interdependencies
Management’s Responsibility for Internal Control). The need
                                                              within the Commission. The Commission has also initi-
to comply with these requirements has been extremely
                                                              ated several modernization efforts, including eLaw, to
difficult and labor intensive to maintain in its existing
                                                              increase enforcement case management efficiency.
financial management system environment.
                                                              	   Program Performance and Accountability. The Com-
	   In September 2005, the CFTC entered into an agree-
                                                              mission has several challenges involving data reliability,
ment with the Department of Transportation Enterprise
                                                              program monitoring, and program accountability and com-
Services Center (ESC), an OMB-approved Center of Excel-
                                                              pliance. As indicated in this report, the Commission will
lence, to use their systems and services. During the next
                                                              address this issue in the newly proposed fourth goal of the
year, the CFTC will migrate to ESC’s integrated financial
                                                              Strategic Plan, and has made accountability a key priority.
management system, Delphi. ESC and its Delphi sys-
tem will provide the agency with a system that supports       	   Human Capital. To address the challenge of manag-

eTravel, financial transaction processing, and financial      ing and maintaining an appropriately skilled workforce,

reporting – including monthly financial statements, asset     the Commission has undertaken a comprehensive human




                                                                                                                            23
      capital management initiative. This initiative includes ef-          	     Integration of Commission strategic, budget, and per-
      fective planning for future needs, recruitment, hiring, and          formance data permits management to make individual
      the development of the current workforce. It has identified          assurance statements with confidence. Moreover, data-
      and addressed training gaps and mission-critical leadership          driven reporting provides the foundation for Commission
      positions. The Commission is aware that it still has much to         staff to monitor and improve its control environment.
      do and is diligently working to achieve its goals..
                                                                           Federal Managers’ Financial Integrity Act
      Management Overview                                                  During FY 2005, in accordance with the Federal Managers’
      The CFTC is committed to management excellence and                   Financial Integrity Act (FMFIA), and using the guidelines
      recognizes the importance of strong financial systems and            of the OMB, the Commission reviewed key components
      internal controls to ensure accountability, integrity, and           of its management and internal control system.
      reliability. This operating philosophy has permitted the             	     The objectives of our internal controls are to provide
      Commission to make significant progress in preparing for             reasonable assurance that:
      an expanded audit of its internal controls over financial re-        •	 Obligations and costs are in compliance with appli-
      porting next year, as called for under OMB Circular A-123,               cable laws;
      Management’s Responsibility for Internal Control.                    •	 Our assets are safeguarded against waste, loss, unau-
      	        The Commission relies on its performance manage-                thorized use or misappropriation;
      ment and internal control framework depicted below to:               •	 The revenues and expenditures applicable to Com-
      •	 Ensure that its divisions and mission support offices                 mission operations are properly recorded and ac-
           achieve their intended results efficiently and effectively.         counted for to permit the preparation of accounts
      •	 Ensure the maintenance and use of reliable, complete,                 and reliable financial and statistical reports and to
           and timely data for decision-making at all levels.                  maintain accountability over the assets; and
      	        The Commission strongly believes that the rapid             •	 All programs are efficiently and effectively carried out in
      implementation of audit recommendations is essential                     accordance with applicable laws and management policy.
      to improving its operations.                                         	     The efficiency of the Commission’s operations is
                                                                           continually evaluated using information obtained from re-
                              Internal Control Process                     views conducted by the Government Accountability Office
                                                                           (GAO) and the Office of Inspector General, specifically
                                             IN




                                                                           requested studies, or observations of daily operations.
                                              FO
                                                  RM




                                                                           	     These reviews ensure that the Commission’s systems
                                                   AT
                                                       IO




                                     MONITORING
                                                                           and controls comply with the standards established by
                                                       N




                                                                           FMFIA. Moreover, managers throughout the Commission
                                                        &
                                                            CO




                                                                           are responsible for ensuring that effective controls are
                                                             MM




                                  CONTROL ACTIVITIES
                                                                           implemented in their areas of responsibility. Individual
                          N




                                                                 UN
                         IO




                                                                  IC
                     AT




                                                                           assurance statements from division and office heads
                                                                  AT
                     IC




                                                                      IO




                                                                           serve as a primary basis for the Chairman’s assurance that
                    UN




                                                                       N
                MM




                                  RISK ASSESSMENT                          management controls are adequate. The assurance state-
               CO




                                                                           ments are based upon each office’s evaluation of progress
           &




                                                                           made in correcting any previously reported problems, as
          N
          IO
      AT




                                 CONTROL ENVIRONMENT
                                                                           well as new problems identified by the Office of Inspector
     RM
FO
IN




     24
                                                                   M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




General, the GAO, and other management reports, and           FMFIA Section 4, Financial Management
the management environment within each office.                Systems
	     Commission organizations that have material weak-       Substantial corrective action has been taken to address
nesses are required to submit plans for correcting those      the material nonconformance reported in the FY 2004
weaknesses. The plans, combined with the individual as-       Annual Assurance Statement on the agency’s information
surance statements, provide the framework for continually     asset management program. Therefore, this program is no
monitoring and improving the Commission’s manage-             longer considered to be in material nonconformance. This
ment and internal controls.                                   matter was originally reported in the FY 2002 FMFIA Re-
	     The items presented below are illustrative of the       port, and updated in the FY 2003 and 2004 Reports. The
review work we performed during FY 2005:                      Commission did not declare any new material systems
•	 Implemented key areas of the President’s Manage-           nonconformance under FMFIA during FY 2005.
    ment Agenda initiatives for strategic management of
    human capital;
•	 Assessed gaps in compliance with the pay and ben-
    efits provisions called for in Section 10702 of Public
    Law 107-171, Farm Security and Rural Investment Act
    of 2002;
•	 Improved financial performance, expanding electronic
    government, and integrating budget and performance;
•	 Complied with the Federal Information Security Re-
    form Act; and
•	 Corrected material weaknesses and reportable condi-
    tions identified in the FY 2004 independent auditors’
    report of the agency’s financial statements and related
    internal controls.


FMFIA Section 2, Management Control.
The Commission has not declared material weaknesses
under FMFIA for FY 2005. However, substantial corrective
action has been taken for the three material weaknesses
reported in the FY 2004 Financial Statement Audit, and
they are no longer considered material:
•	 Improvements needed in recording accruals and prepar-
    ing financial statements;
•	 Improvements needed in financial accounting process
    over journal vouchers; and
•	 Financial management systems need improvement.




                                                                                                                          25
                     PERFORMANCE SECTION




     “
             [The CFTC Enforcement Program] is well designed to meet
                 objectives and to maximize the use of its resources. 
         Through cooperative enforcement with other government and private
                                                                             “
            organizations, the program enhances the impact of its efforts.
     	
                            —Office of Management and Budget




26
                                                                            P
                                                                            PEER
                                                                               R FF O
                                                                                    ORRM
                                                                                       MAAN
                                                                                          NCCE
                                                                                             E D
                                                                                               S
                                                                                               D EE C
                                                                                                    TTA
                                                                                                      AT III LLOS
                                                                                                                SN




   Mission Statement and Agency Goals


                   THE U.S. COMMODITY FUTURES TRADING COMMISSION’S
              MISSION STATEMENT, STRATEGIC GOALS AND OUTCOME OBJECTIVES


MISSION STATEMENT
The mission of the CFTC is to protect market users and the public from fraud, manipulation, and abusive practices related to the sale
of commodity futures and options, and to foster open, competitive, and financially sound commodity futures and option markets.




GOAL ONE: Ensure the economic vitality of the commodity futures and option markets.

Outcomes
1. Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of disruptive activity.
2. M
    arkets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could adversely
   affect their economic vitality.


GOAL TWO: Protect market users and the public.

Outcomes
1. Violations of Federal commodities laws are detected and prevented.
2. Commodities professionals meet high standards.
3. C
    ustomer complaints against persons or firms falling within the jurisdiction of the Commodity Exchange Act are handled effectively
   and expeditiously.


GOAL THREE: Ensure market integrity in order to foster open, competitive, and financially sound markets.

Outcomes
1. Clearing organizations and firms holding customer funds have sound financial practices.
2. Commodity futures and option markets are effectively self-regulated.
3. Markets are free of trade practice abuses.
4. Regulatory environment is responsive to evolving market conditions.




                                                                                                                                          27
Introduction to the Performance Section


Strategic Planning Framework                                    	   In addition, the Commission will continue to scru-
                                                                tinize the current performance metrics to ensure that the
The mission of the CFTC is accomplished through three
                                                                metrics adequately challenge the programs to reach the
strategic goals, each focusing on a vital area of regula-
                                                                desired results, ensure accountability, and provide infor-
tory responsibility.
                                                                mation that can be used to make financial decisions and
	    Accomplishing the three long-term strategic goals is
                                                                develop future budgets.
evidenced by the progress of nine key outcome objectives.
In most cases, due to the broad economic functions that
the Commission oversees, it is not a simple task to iden-
                                                                How the Commission Reports Performance
tify specific detailed objectives that will be accomplished
                                                                Results
each year; however, it is possible to identify conditions       Performance results are discussed throughout this report.
that, if present, are indicators that the Commission’s          Commission-wide strategic performance measures are dis-
activities are contributing successfully to the health of the   cussed at a summary level in the executive summary. They
industry it regulates.                                          are further amplified in the discussion of each strategic
	    Commission programs strive to achieve the three            goal in the Performance Detail section.
performance goals supporting nine outcome objectives            	   Although OMB Circular A-11, Preparation and Submis-
through various means and strategies described in the           sion of Strategic Plans, Annual Performance Plans, and Annual
Performance Detail section. Annually, the performance           Program Performance Reports, suggests reporting more
metrics are analyzed to determine the measure of suc-           than three prior fiscal years of performance metrics, new
cess the program’s activities have in accomplishing the         measurement data was developed in 2004 rendering 2002
Commission’s overall strategic mission.                         performance data obsolete and is, therefore, not included
	    To ensure this level of success, the Commission is         in this report. In 2004, the Commission modified the
committed to a continual in-depth assessment of the             2004 strategic measures and targets to better align our
agency and its strategic planning structure. In early No-       measures to our objectives and to adopt replacement mea-
vember 2005, the Commission conducted strategic plan-           sures where data is not available for prior measures. In the
ning sessions to reassess the agency’s strategic planning       Performance Detail section, the 2005 replacement targets,
structure and probe basic fundamental questions, such as:       modified in 2004, are identified as “N/A,” not available.
Where are we going? How will we get there? How has our          	   Each strategic goal, in the Performance Detail section,
environment changed to adapt to external changes?               reports the percentage of performance measures met. The



28
performance statistics in this document represent the
best assessment of Commission performance obtainable
through the use of existing performance measures. Per-
formance data that is still pending is identified as “TBD,”
to be determined. Once the performance metrics are final-
ized, the “TBD” data will be replaced with the final metrics
in the FY 2006 Performance and Accountability Report.
	   The Performance Details section also sets the national
context for each of our goals and describes the accom-
plishments of our programs over the past year. This discus-
sion is followed by the results on the strategic measures.
The Commission believes, however, that significant revi-
sions to these measures are necessary to more meaning-
fully assess its performance.




                                                               29
                 Program Assessment Rating Tool


The President’s Office of Management and Budget has sys-      Assessment Findings:	
tematically assessed the quality of government programs       The OMB found the CFTC Enforcement program is:
over the past three years. Through the Program Assessment     	    “Well designed to meet objectives and to maximize the use
Rating Tool (PART), the OMB works with Federal agen-          of its resources. Through cooperative enforcement with other
cies to judge the effectiveness of programs with regard to    government and private organizations, the program enhances
their stated purpose, strategic planning, internal manage-    the impact of its efforts.
ment, and results and accountability. Although primarily a    	    Demonstrates through its performance measures that it
diagnostic tool for programs, PART reviews provide critical   brings substantive cases in a timely manner. CFTC successfully
information that can be used to establish funding priori-     resolved 99 percent of the cases it closed in the past year.
ties for the subsequent budget cycle.
                                                              	    Lacks performance measures that illustrate whether the
	       OMB did not undertake a PART review of any CFTC       program meets its overall objective. Like other enforcement
program in FY 2005, and the findings of OMB’s PART            programs, it faces challenges in establishing overall perfor-
review of the Enforcement program in FY 2004 were             mance measures to indicate the percentage of violative activity
released in December 2004, after the FY 2004 Performance      deterred, since no way has been devised to measure the total
and Results Report was published; therefore, we are includ-   amount of fraud that exits. Thus, while current measures show
ing these results here for the first time:                    that markets have been growing, which could demonstrate that
                                                              they are ‘open, competitive, and financially sound,’ it cannot be
PROGRAM ASSESSED: Enforcement
                                                              determined how free they are from ‘fraud, manipulation, and
RATINGS: Results not Demonstrated
                                                              abusive practice’.”
       			                     SCORING	                       In response to these findings, OMB has requested that
    Purpose	                                           100    the Commission:
    Planning	                                           71    “Work with other similar programs in the government to
    Management	                                        100    develop measures that better reflect program effectiveness. The
    Results/Accountability 	                            67    program will consider developing a novel way of measuring
                                                              results, for instance, surveying industry experts.
	       By way of comparison, the Commission understands      	    Develop a measure that quantifies increased efficiencies.
that the category scoring for the Division of Enforcement     	    Develop measures and targets for the collections of fines.”
was the highest of the three Enforcement programs that        	    The Commission is preparing its response to the OMB
underwent the 2004 PART.                                      recommendations for submission in December 2005.


30
                                                                               P E R F O R M A N C E D E TA I L S




                                                Goal One


Ensure the economic vitality of the
commodity futures and option markets

Public Benefit:
Properly functioning futures markets collect informa-
tion from around the world, digest it, and respond with
judgments about the likely price of commodities at some
                                                                                         FY 2005 GOAL ONE RESOURCES
future time. For example, such judgments could, in turn,
trigger decisions to sell a commodity at a certain price;                                        Plan vs. Appropriation
                                                                          35                                                $31.5
raise capital through an equity rather than a debt offer-                                     $29.2                      (166 FTEs)
                                                                                           (169 FTEs)
ing; increase inventories of various commodities (i.e.,                   30

copper, soybeans, etc.); use corn syrup rather than sugar
                                                                          25
                                                            IN MILLIONS




or sweetener; or to hold receivables in Deutsche marks
rather than British pounds. Thus, futures markets help                    20

us plan and make decisions, so that market users avoid
                                                                          15
uncontrolled risk.
                                                                          10
Resource Investment:
                                                                           5
In FY 2005, the Commission requested $29.2 million and
169 full time equivalents (FTEs) and was appropriated                     $0
                                                                                         FY 2005                          FY 2005
$31.5 million and 166 FTEs for Goal One.                                         BUDGET/PERFORMANCE PLAN            A P P R O P R I AT I O N




                                                                                                                                               31
Goal One
Ensure the economic vitality of the commodity futures and option markets.


                                       GOAL ONE: HISTORY OF PERFORMANCE RESULTS 1


    OUTCOME OBJECTIVE 1.1
    Futures and option markets that accurately reflect the forces of supply and demand for the underlying commodity are free of
    disruptive activity.


    PERFORMANCE MEASURES                                                                                 FY 2003   FY 2004      FY 2005

    Percentage growth in market volume                                                                    20%       24%          26%

    Percentage of novel or innovative proposals or requests for CFTC                                     100%      100%          100%
    action addressed within six months to accommodate new approaches
    to, or the expansion in, derivatives trading, enhance the price discovery
    process or, increase available risk management tools

    Percentage increase in number of products traded                                                      25%       12%          43%

    Percentage of new exchange or clearinghouse organization                                             100%      100%          100%
    applications completed within expedited review period

    Percentage of new contract certification reviews completed                                            21%       53%          54%
    within three months to identify and correct deficiencies in
    contract terms that make contracts susceptible to manipulation


    Percentage of rule change certification reviews completed within                                      70%       70%          84%
    three months to identify and correct deficiencies in exchange rules
    that make contracts susceptible to manipulation or trading abuses
    or result in violations of the law



	 OUTCOME OBJECTIVE 1.2
	 Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could affect their
	 economic vitality.


    PERFORMANCE MEASURES                                                                                 FY 2003   FY 2004      FY 2005

    Percentage of DCO applications demonstrating compliance                                              100%       100%         100%
    with core principles

    Ratio of contracts surveilled per economist                                                            8         10            11

    Percentage of contract expirations without manipulation                                              99.9%     99.9%         99.9%



1
 The performance metrics included in this document represent the best current estimate of
Commission performance. Additional work is needed to devise better measures and valid current
performance measures in order to effectively illustrate program success in meeting overall objectives.




32
                                                                               P E R F O R M A N C E D E TA I L S




Return on Investment
The Commission’s 2005 Annual Performance Plan supports two outcome objectives for Goal One.


                                     OBJECTIVE 1.1: NO PRICE MANIPULATION


FY 2005 Appropriation: $25.3 Million
FY 2005 Results: Performance results are positive and generally indicate the achievement of results. However, performance
plan targets were not developed at the time of the FY 2005 Budget submission in February 2004, as a result of the contemporaneous        	
adoption of the 5-year strategic plan in February 2004.


    Number of            Exceeded Goal              Met Goal          Did Not Meet Goal       To Be Determined      Percent Meeting or
    Measures                                                                                   or Not Available      Exceeding Goal

         6                       0                        0                      0                     6                   0%



         PERFORMANCE MEASURES                                                                 FY 2005 PLAN          FY 2005 RESULTS

1.1.1    Percentage growth in market volume                                                        N/A                    26%

1.1.2    Percentage of novel or innovative market proposals or requests for CFTC                   N/A                   100%
         action addressed within six months to accommodate new approaches to,
         or the expansion in,derivatives trading, enhance the price discovery process
         or, increase available risk management tools


1.1.3    Percentage increase in number of products traded                                          N/A                    43%

1.1.4    Percentage of new exchange and clearinghouse organization                                 N/A                   100%
         applications completed within the expedited review period	

1.1.5    Percentage of new contract certification reviews completed within                         N/A                    54%
         three months to identify and correct deficiencies in contract terms
         that make contracts susceptible to manipulation	

1.1.6    Percentage of rule change certification reviews completed within                          N/A                    84%
         three months to identify and correct deficiencies in exchange rules
         that make contracts susceptible to manipulation or trading abuses
         or violations of law




                                                                                                                                      33
             OBJECTIVE 1.2: EFFECTIVE AND EFFICIENT MARKET SURVEILLANCE

    FY 2005 APPROPRIATION: $6.2 Million
    FY 2005 RESULTS: 67 Percent of Performance Results are on target. Performance plan target for Outcome Measure 1.2.2
    was not developed at the time of the FY 2005 Budget submission in February 2004, as a result of the contemporaneous adoption
    of the 5-year strategic plan in February 2004.


        Number of            Exceeded Goal             Met Goal        Did Not Meet Goal    To Be Determined      Percent Meeting or
        Measures                                                                             or Not Available      Exceeding Goal

             3                       0                     2                   0                     1                   67%



             PERFORMANCE MEASURES                                                           FY 2005 PLAN          FY 2005 RESULTS

    1.2.1    Percentage of DCO applications demonstrating compliance with                       100%                    100%
             core principles

    1.2.2    Ratio of contracts surveilled per economist                                         N/A                     11


    1.2.3    Percentage of contract expirations without manipulation                            99.9%                  99.9%




Program Contributions to Strategic                                     futures markets, which experienced periods of high prices
Goal One:                                                              and high price volatility due to, among other things, low
                                                                       stocks, tight production capacity, geopolitical tension in
In 2005, the explosive growth in the futures and option
                                                                       the Middle East, strong world economic demand and
markets continued; total volume in FY 2005 was up 26
                                                                       natural disasters. In addition, very close monitoring was
percent from FY 2004 with over 2 billion contracts traded.
                                                                       conducted on the cattle futures markets as prices were
(See measure 1.1.1)
                                                                       volatile due to the countervailing pressures of strong
	       Market Surveillance. Monitoring market activity rep-
                                                                       demand and the effects of discovery of Bovine Spongiform
resents one of the ways the Commission seeks to protect
                                                                       Encephalopathy (BSE) or “Mad Cow” disease in a single
the economic functions of the markets. Market surveil-
                                                                       cow in the state of Washington. The surveillance included
lance is conducted to detect attempted manipulation and
                                                                       collecting and analyzing approximately 44 million line
other abusive practices that could undermine the capacity
                                                                       items of data regarding large trader activity and approxi-
of these markets to perform their economic function. The
                                                                       mately 16,000 reports identifying the large traders. In the
Commission takes preventive measures to ensure that
                                                                       course of the year, economists prepared approximately
market prices accurately reflect fundamental supply and
                                                                       1,500 weekly surveillance reports and compiled 23 special
demand conditions, including the routine daily monitor-
                                                                       market reports. (See measure 1.2.2)
ing of large trader positions, futures and cash prices, price
                                                                       	    Commission staff reviewed six applications of entities
relationships, and supply and demand factors in order to
                                                                       seeking to become a designated contract market. Staff also
detect threats of price manipulation.
                                                                       reviewed three filings by entities that notified the Com-
	       In FY 2005, the Commission conducted daily surveil-
                                                                       mission of their intention to operate as exempt markets
lance of 669 active futures and option contracts. Par-
                                                                       under the CEA. (See measure 1.1.4)
ticularly close monitoring was conducted on the energy



34
                                                                    P E R F O R M A N C E D E TA I L S




	   Commission staff reviewed 10 rule amendment ap-            annually because market volatility cannot be predicted.
proval requests for existing futures and option contracts      Nevertheless, such events are expected to occur. Commis-
in FY 2005. Staff reviewed the terms and conditions of         sion staff conducted 72 market move reviews in FY 2005.
contracts submitted for approval to ensure that contract       Such reviews met the objectives of assuring that registrants
terms and conditions were in compliance with Commis-           and financial intermediaries are not impaired by market
sion regulations and policies and did not raise any public     volatility or disruptions to meet financial obligations; and
interest issues. Under the Commission’s certification          detecting any failure by a DCO to meet its obligations or
procedures for listing new products, 286 new contracts         other impairment of a registrant. (See measure 1.2.3)
were filed, including 91 SFPs, and under its certification     	   Economic and Statistical Analyses. Commission
procedures, 125 product rule changes were filed. Staff         staff performed economic and empirical analyses to evalu-
reviewed the terms and conditions of contracts submitted       ate the performance of futures markets and to evaluate the
under certification procedures to ensure that statutory and    impact of changes in trading rules and in contract speci-
regulatory anti-manipulation requirements were met and         fications on the performance of the futures markets. For
to provide essential background information in order to        example, staff empirically examined the effects of partici-
conduct market surveillance. (See measures 1.1.1, 1.1.2,       pation by managed money traders in certain U.S. futures
1.1.3, 1.1.5, 1.2.1)                                           markets. Economists in the Office of the Chief Economist
	   The Commission’s review of exchange rules is a key         also provided economic and statistical consulting services
aspect of the statutory framework for self-regulation under    to Commission staff and offered economic and financial
Commission oversight. The staff reviewed exchange rule         research seminars and short courses in futures, options,
submissions with a view toward maintaining the fair-           and financial economics.
ness and financial integrity of the markets, protecting        	   Staff also provided economic and statistical analysis
customers, accommodating and fostering innovation, and         on a number of cases involving foreign currencies and
increasing efficiency in self-regulation consistent with the   energy products, conducted an examination of the ap-
Commission’s statutory mandates. During FY 2005, staff         propriate role for Federal oversight of event-type markets,
reviewed 262 exchange rule submissions containing 1,237        and of several recently developed derivatives products. In
separate new rule amendments. Commission staff are             addition, Commission staff presented research findings
also responsible for providing exemptive, interpretive, or     relating to price discovery, hedging, and market micro-
other relief to various markets and market participants to     structure and development issues at industry or academic
facilitate the continued development of an effective, flex-    and industry conferences, as well as through publications
ible regulatory environment responsive to evolving market      available to the public.
conditions. (See measure 1.1.6)                                	   Manipulation, Attempted Manipulation and False
	   Derivatives Clearing Organization Oversight. The           Reporting. Manipulation investigations and litigations
Commission monitors the potential for, and instances           tend to be among the most complex and resource-intensive
of, market volatility, market disruptions or emergencies       matters handled by Enforcement staff. During FY 2005, the
which have the potential to impact: 1) the proper capi-        Commission’s Enforcement efforts in this program area
talization of firms; 2) the proper segregation of customer     are reflected in its handling of alleged misconduct in the
funds; 3) the ability of financial intermediaries to make      agriculture and energy markets. (See Appendices)
payments to a DCO in a timely manner; and 4) issues            	   Office of the General Counsel. In FY 2005, the
with respect to systemic risk. Commission staff monitor        Commission continued to review for legal sufficiency and
cases of volatile markets in order to advise the Commis-       for conformance with the CEA and Commission policy
sion of any potential financial impairment of a registrant     and precedent contract market designation applications
or potential systemic risk. It is not possible to estimate     and applications for registration as DCOs. In addition,
in advance the number of such events that will occur           Commission staff continued to advise the Commission




                                                                                                                            35
concerning implementation of the rules and regulations
issued pursuant to the CFMA. Staff have been instrumen-
tal in advising the Commission as it comprehensively
modernizes its rules, and particularly the rules governing
market intermediaries such as FCMs, CPOs, CTAs and
other registrants in light of the study completed by the
Commission and submitted to Congress under Section
125 of the CFMA.
	    Staff also reviewed in excess of 100 proposed enforce-
ment actions, including those alleging manipulation and
other abusive trading practices, during FY 2005, to assure
their legal sufficiency and conformance with Commission
policy and precedent.
	    Integrated Surveillance System. In FY 2005, the
Commission’s primary mission critical application to
support futures and option data market surveillance, the
Integrated Surveillance System (ISS), was significantly
enhanced to address changes and growth in the futures
industry. This year, those changes included the automa-
tion of the collection and review of data from exempt
commercial markets. In addition, a number of notewor-
thy enhancements were established in the ISS that will
improve the efficiency of market monitoring and analysis.
These modifications include integrated document storage
capabilities in support of large trader reporting, consoli-
dated market queries that allow related markets to be
grouped together for better market analysis, full search
capabilities throughout the application, and comprehen-
sive graphing capability.




36
                                                                                P E R F O R M A N C E D E TA I L S




                                                Goal Two


Protect market users and the public

Public Benefit:
                                                                                          FY 2005 GOAL TWO RESOURCES
Market users must be protected from possible wrongdo-                                             Plan vs. Appropriation
ing on the part of firms and commodity professionals                       45
                                                                                               $39.7
with whom they deal to access the marketplace, and they                                     (202 FTEs)                      $37.4
                                                                           40                                            (195 FTEs)
must be confident that the marketplace is free of fraud,
                                                                           35
manipulation, and abusive practices. The Commission
                                                             IN MILLIONS




plays a crucial role in deterring behavior that could af-                  30

fect market users’ confidence by investigating and taking                  25
action against unscrupulous commodity professionals
                                                                           20
who engage in a wide variety of fraudulent sales practices
against the public.                                                        15


                                                                           10
Resource Investment:
In FY 2005, the Commission requested $39.7 million                          5

and 202 FTEs and was appropriated $37.4 million and                        $0
                                                                                          FY 2005                          FY 2005
195 FTEs for Goal Two.                                                            BUDGET/PERFORMANCE PLAN            A P P R O P R I AT I O N




                                                                                                                                                37
Goal Two
Protect market users and the public.


                                      GOAL TWO: HISTORY OF PERFORMANCE RESULTS 2


    OUTCOME OBJECTIVE 2.1
    Violations of Federal commodities laws are detected and prevented.


    PERFORMANCE MEASURES                                                                   FY 2003   FY 2004         FY 2005

    Number of enforcement investigations opened during the fiscal year                      172         215           131

    Number of enforcement cases filed during the fiscal year                                 65         83             69

    Percentage of enforcement cases closed during the fiscal year in                        99%        99%           100%
    which the Commission obtained sanctions

    Cases filed by other criminal and civil law enforcement authorities                      20         23             20
    during the fiscal year that included cooperative assistance from
    the Commission



	 OUTCOME OBJECTIVE 2.2
	 Commodity professionals meet high standards.


    PERFORMANCE MEASURES                                                                   FY 2003    FY 2004        FY 2005

    Percentage of SROs that comply with core principles                                    100%        100%           TBD

    Percentage of DCOs that comply with core principles                                    100%        100%           TBD

    Percentage of professionals compliant with standards regarding                         100%        100%          100%
    testing, licensing, and ethics training


    Percentage of SROs that comply with requirement to enforce their rules                 100%        100%           TBD

    Percentage of total requests receiving CFTC responses for guidance                      90%        90%            90%
    and advice



	 OUTCOME OBJECTIVE 2.3
	 Customer complaints against persons or firms registered under the Act are handled effectively and expeditiously.


    PERFORMANCE MEASURES                                                                   FY 2003    FY 2004        FY 2005

    Percentage of filed complaints resolved within one year of the filing date              50%        41%            50%

    Percentage of appeals resolved within six months	                                       35%        35%            46%

2
 The performance metrics included in this document represent the best current estimate
of Commission performance. Additional work is needed to devise better measures and
valid current performance measures in order to effectively illustrate program success in
meeting overall objectives.


38
                                                                             P E R F O R M A N C E D E TA I L S




Return on Investment
The Commission’s 2005 Annual Performance Plan supports three outcome objectives for Goal Two.


                         OBJECTIVE 2.1: VIOLATORS DETECTED & SANCTIONED


 FY 2005 Appropriation: $28.0 Million
 FY 2005 Results: Results achieved or slightly below target. It is impractical and infeasible to predict with a degree of precision the 	
 exact number of investigations opened, cases filed, cases closed with sanctions obtained, and cases filed with cooperative assistance. 	
 Outcome measure 2.1.3 is arguably the strongest measure and the planned results were achieved


     Number of           Exceeded Goal              Met Goal          Did Not Meet Goal     To Be Determined       Percent Meeting or
     Measures                                                                                or Not Available       Exceeding Goal

             4                   1                      1                      2                       0                  50%




         PERFORMANCE MEASURES                                                               FY 2005 PLAN          FY 2005 RESULTS

2.1.1    Number of enforcement investigations opened during the fiscal year                      135                      131


2.1.2    Number of enforcement cases filed during the fiscal year                                 65                      69


2.1.3    Percentage of enforcement cases closed in which the Commission                         100%                     100%
         obtained sanctions


2.1.4    Cases filed by other criminal and civil law enforcement authorities during               21                      20
         the fiscal year that included cooperative assistance from the Commission
         	




                                                                                                                                      39
              OBJECTIVE 2.2: COMMODITY PROFESSIONALS MEET HIGH STANDARDS


 FY 2005 Appropriation: $5.8 Million
 FY 2005 Results: Results achieved or “to be determined.” Oversight is still on-going and program staff have not completed
 its review and assessment on measures 2.2.1, 2.2.2, and 2.2.4 to provide sufficient data to report on the percentages that comply
 with core principles.


     Number of            Exceeded Goal              Met Goal          Did Not Meet Goal    To Be Determined       Percent Meeting or
     Measures                                                                                or Not Available       Exceeding Goal

          5                      0                       2                       0                   3                    40%



         PERFORMANCE MEASURES                                                               FY 2005 PLAN          FY 2005 RESULTS

 2.2.1   Percentage of SROs that comply with core principles                                    100%                     TBD

 2.2.2   Percentage of DCOs that comply with core principles                                    100%                     TBD


 2.2.3   Percentage of professionals compliant with standards regarding testing,                100%                     100%
         licensing and ethics training


 2.2.4   Percentage of SROs that comply with requirement to enforce their rules                 100%                     TBD


 2.2.5   Percentage of total requests receiving CFTC responses for guidance                      90%                     90%
         and advice




                           OBJECTIVE 2.3: CUSTOMER COMPLAINTS RESOLVED


 FY 2005 Appropriation: $3.6 Million
 FY 2005 Results: Slightly above and on target.


     Number of            Exceeded Goal              Met Goal          Did Not Meet Goal    To Be Determined       Percent Meeting or
     Measures                                                                                or Not Available       Exceeding Goal

          2                      1                       1                       0                   0                   100%



         PERFORMANCE MEASURES                                                               FY 2005 PLAN          FY 2005 RESULTS

 2.3.1   Percentage of filed complaints resolved within one year of the filing date              50%                     50%


 2.3.2   Percentage of appeals resolved within six months                                        35%                     46%




40
                                                                        P E R F O R M A N C E D E TA I L S




Program Contributions to Strategic                                activities are designed to protect market participants and
Goal Two:                                                         the public interest by assuring that persons who deal
                                                                  directly with customers and those who handle customer
Oversight of Sales Practices and Registered Futures
                                                                  orders and funds meet the standards for fitness, integrity,
Associations. A core part of the Commission’s mission is to
                                                                  and training established under the CEA. Persons who
operate a program that protects market users and the public
                                                                  cannot meet these standards may be subject to statutory
from fraud and abusive practices related to the offer and
                                                                  disqualification from registration and may have their
sale of commodity futures and options. Commission staff
                                                                  registration denied, conditioned, or revoked.
conduct on-going oversight related to screening market pro-
fessionals for fitness and assuring that DCOs have appro-         	    The Commission seeks to protect market users and
priate risk management programs. The Commission also              the public by requiring futures industry professionals to
develops disclosure standards, particularly for managed fu-       meet high standards through registration and passing of a
tures and option products, to assure that market users and        proficiency exam by salespersons. When Commission staff
potential market users are appropriately and consistently         uncover persons who are not registered but should be, a
informed of the risks of futures and option trading, and are      letter is sent to the person, and/or the matter is referred
provided with information about trading managers.                 for enforcement action. (See measure 2.2.3.)

	    During FY 2005, the Commission initiated a review            	    The Commission chaired the Registration Working
of the NFA’s program for the oversight of CPOs and CTAs           Group (RWG), which is composed of Commission and
for compliance with Commission and NFA rules and                  NFA representatives. The RWG was created as a means for
regulations. This review has focused on the following             the Commission and NFA staff to share ideas and con-
NFA programs: registration of CPOs and CTAs, review               cerns about issues that are not tied to any specific pending
of CPO and CTA Disclosure Documents, review of CPO                registration case. Commission staff participated in four
annual financial statements, sales practices, and disciplin-      meetings of the RWG during FY 2005, in which the group
ary process. Staff is currently finalizing its report, which is   discussed, among other things: 1) registration holds; 2)
expected to be presented to the Commission in early FY            conditional registrations; 3) augmentation of the registra-
2006. (See measures 2.2.1 and 2.2.2.)                             tion database to include a name for regulatory contacts;
                                                                  and 4) fingerprint processing.
	    Oversight of Intermediary Fitness. In FY 2005,
there were 71,264 industry registrants. These registrants         	    Anti-Money Laundering. Commission staff continue
included 215 futures commission merchants (15 of which            to work with other Federal financial regulators on various
were securities broker-dealers registered with the SEC            aspects of a program to combat money laundering and
that “notice-registered” with the CFTC because their only         terrorist financing. Specifically, staff continues to participate
futures-related activity involved SFPs), 1,701 introducing        in developing rules implementing the USA PATRIOT Act
brokers (IBs) (42 of whom were notice-registered), 1,791          and in developing and issuing guidance concerning the
CPOs, and 2,661 CTAs. These firms employ 54,823 sales             application of these rules. For example, staff worked with
personnel, known as associated persons. In addition, there        the SEC and other agencies in drafting a no-action position
are 8,524 individuals registered as floor brokers and 1,549       concerning the customers of certain CTAs and investment
individuals registered as floor traders executing trades on       advisors that was issued on March 14, 2005. Commission
U.S. exchanges.                                                   staff also continues to work with the U.S. Treasury to share
                                                                  information about possible terrorist financiers and money
	    The Commission is responsible for formal oversight
                                                                  launderers. As part of this process, staff maintains and
of the NFA registration program. This oversight involves
                                                                  updates a list of FCMs and contact persons, which the U.S.
inspection of records and interviews with NFA staff as
                                                                  Treasury then uses when issuing a biweekly list of possible
well as numerous informal contacts between NFA and
                                                                  money launderers and terrorist financiers.
the Commission staff on a weekly basis. These oversight




                                                                                                                                 41
	    Commodity Pools (including “Hedge Funds”),                      is unlawful to offer off-exchange foreign currency futures
Commodity Pool Operators, and Commodity Trading                      or option contracts to retail customers unless the counter-
Advisors. Investors continue to fall prey to unscrupulous            party to the contract is a regulated financial entity enumer-
CPOs and CTAs, including CPOs and CTAs operating                     ated in the CFMA, such as an FCM or financial institution.
self-described hedge funds. In many of these cases, the              In addition, even if the counterparty is appropriate, the
defendants have pre-existing business, social, religious,            Commission has jurisdiction to investigate and prosecute
or ethnic ties to the individual investors. These personal           retail foreign currency futures or options fraud. Forex
relationships enable the defendants to gain the investors’           trading scams often attract customers through advertise-
trust and then lull them into a false sense of confidence.           ments in local newspapers, radio promotions, or online.
The Commission addresses this violative conduct through              These advertisements often tout purportedly high-return,
a combination of enforcement actions and investor                    low-risk investment opportunities in foreign currencies.
education. Some of the scams are operated as “Ponzi                  The Commission has brought enforcement actions against
schemes” in which early investors are paid purported                 both registered firms (for fraud and for other CEA viola-
“profits” with newer investor funds. The schemes generally           tions, such as failure to maintain net capital requirements)
involve fraud in soliciting the general public to invest in          and unregistered “bucket shops.” (See Appendices.)
the pools operated by the CPO or CTA, fraudulent state-              	    During FY 2005, the Commission filed 17 enforce-
ments concerning the results being achieved by the pool              ment actions against firms and individuals selling illegal
for its investors, and/or outright misappropriation of pool          foreign currency futures and option contracts, bringing the
funds by the CPO. During FY 2005, the Commission filed               total of such actions to 79 since enactment of the CFMA
nine enforcement actions in this program area, and also              in December 2001. During FY 2005, the Commission also
achieved significant litigation results in six actions filed in      achieved significant litigation results in eight actions filed
this practice area during previous fiscal years. Examples of         in this practice area during previous fiscal years. Since the
these successes are provided in the Appendices.                      enactment of the CFMA, the Commission has obtained in
	    Commodity Trading Advisors, Managed Accounts, and               its 79 forex enforcement actions approximate monetary
Trading Systems. During FY 2005, the Commission filed                sanctions of $170 million in civil monetary penalties and
eight enforcement actions in this program area and achieved          $115 million in restitution. (See Appendices.)
significant litigation results in four actions filed in this prac-   	    Precious Metals and Other Illegal Off-Exchange
tice area during previous fiscal years. (See Appendices.)            Cases. During FY 2005, the Commission’s Enforcement
	    Futures Commission Merchants, Introducing                       program prosecuted two actions that alleged non-forex,
Brokers, and Their Associated Persons. The Commission                illegal off-exchange trading. (See Appendices.)
diligently redresses misappropriation and other violative            	    Violation of Commission Orders. The Commission
conduct by futures commission merchants, introducing                 filed one enforcement action in this program area during
brokers, and their associated persons. During FY 2005, the           FY 2005. (See Appendices.)
Commission filed 11 enforcement actions in this practice             	    Quick-Strike Cases. The Commission is committed
area, and also achieved significant litigation results in            to responding quickly to enforcement investigations that
one action filed in this practice area during previous fiscal        uncover on-going fraud. Quick-strike cases are civil injunc-
years. (See Appendices.)                                             tive actions that generally are filed in Federal district courts
	    Foreign Currency Cases. The Commission continued                within days or weeks of the discovery of the illegal activity,
to battle fraud perpetrated on the retail public by firms            enabling the Commission to stop fraud at an early stage
offering trading in off-exchange forex. While much foreign           and to attempt to preserve customer funds. During FY
currency trading is legitimate, numerous companies have              2005, the Commission prosecuted 13 quick-strike cases,
fraudulently solicited and traded customer foreign curren-           which were all filed within four months of opening the
cy futures or option trading accounts. Under the CFMA, it            related investigation.




42
                                                                        P E R F O R M A N C E D E TA I L S




	   Domestic Cooperative Enforcement. The Commis-                •	 Corporate Fraud Task Force. By Executive Order,
sion’s cooperative enforcement efforts are an important              signed by President Bush on July 9, 2002, the CFTC was
part of its ability to promote compliance with and deter             named a member of the Corporate Fraud Task Force.
violations of Federal commodities laws. Cooperative en-              This task force was established with the objective of
forcement enables the Commission to maximize its ability             strengthening the efforts of DOJ, Federal, State, and
to detect, deter, and impose sanctions against wrongdoers            local agencies to investigate and prosecute significant
in cases involving U.S. markets, registrants, and customers.         financial crimes, recover the proceeds of such crimes,
The benefits of cooperative enforcement include: 1) The              and ensure just and effective punishment of those who
use of resources from other sources to support Commis-               perpetrate financial crimes.
sion enforcement actions; 2) coordination in filing actions      •	Anti-Money Laundering (AML). The Commission par-
with other authorities to further the impact of enforce-             ticipates in domestic and international AML cooperative
ment efforts; and 3) development of consistent and clear             enforcement efforts. On the domestic front, the Com-
governmental responses and avoidance of duplication of               mission is a member of the Money Laundering Strategy
efforts by multiple authorities.                                     Working Group and the U.S. Treasury Department’s
	   As in the past, staff have coordinated with numerous             Bank Secrecy Act Advisory Group. Internationally, the
Federal, State, and self-regulatory authorities. Historically,       Commission has aided the U.S. delegation to the
program staff have sought assistance from or provided                Financial Action Task Force on issues including efforts
assistance to various Federal agencies, such as the Depart-          to combat global terrorist financing.
ment of Justice (DOJ), Federal Trade Commission (FTC),           •	Telemarketing and Internet Fraud Working Group. This
Federal Energy Regulatory Commission (FERC), Federal                 Group consists of representatives from Federal, State, and
Bureau of Investigation (FBI), SEC, and the U.S. Postal              international regulatory and criminal authorities.
Inspection Service. Similarly, Commission staff have pro-        •	Securities and Commodities Fraud Working Group.
vided assistance to and/or received assistance from State            The Securities and Commodities Fraud Working Group
authorities, such as agencies responsible for the regulation         is a vehicle for public and private sector participants to
of corporations, securities, and banking. The Commission             discuss current trends in financial crime in the securi-
also provided Federal and local law enforcement authori-             ties, futures, and option industries and to exchange
ties with testimony or other assistance in connection                ideas about enforcement techniques. The group, orga-
with criminal investigations. Enforcement program staff              nized by the Fraud section of the Criminal Division of
worked with the DOJ and various U.S. Attorney’s offices              the DOJ, meets on a quarterly basis, and its members
throughout the nation, the FBI, the offices of numerous              include criminal and regulatory authorities from State
State attorneys general, local police authorities, and task          and Federal agencies and representatives from various
forces focusing on areas such as corporate fraud and for-            exchanges and other SROs.
eign currency fraud.                                             	     Proceedings. The Commission provides a forum for
	   In addition to direct cooperation with domestic law          effectively and expeditiously handling customer com-
enforcement and regulatory authorities, the Enforcement          plaints against persons or firms registered with the Com-
program also represents the Commission in a variety of           mission at the time of the alleged wrongdoing or at the
domestic and international efforts, including task forces        time the complaint is filed.
and working groups designed to keep market participants          	     During FY 2005, 46 percent of the reparations com-
abreast of new developments in financial crimes and to           plaints were disposed of within one year from the date
coordinate governmental responses to common issues.              the complaint was filed. The remaining complaints were
Several examples of the efforts of the Enforcement pro-          not resolved within one year as a result of issues beyond
gram in this area follow:                                        the Commission’s control. For example, parties requested




                                                                                                                                43
additional time for one or more of the following reasons:       consequent capacity to pay a penalty. The Commission
1) to submit supplementation to their cases; 2) to prepare      elected not to remand the case. Instead, the Commission
pleadings; 3) to complete extensive discovery documents;        issued an opinion in which it announced that it would
or 4) to deal with personal or professional responsibilities.   conduct direct fact finding itself. The outcome was that the
(See measure 2.3.1.)                                            respondent paid a civil monetary penalty of $200,000. In
	     The Commission’s administrative law judges (ALJs)         re Nikkhah (CFTC Mar. 25, 2005).
are responsible for hearing and rendering decisions in          	   The Commission refused to find that a closely-held
administrative enforcement cases brought by the Com-            FCM, its owner and his wife violated speculative position
mission against alleged violators of the CEA or related         limits. The owner, his family and several close friends trad-
regulations. The Commission decided 23 administrative           ed profitably during a corn bull market. The Commission
enforcement cases in FY 2005.                                   held that similarities in their trading were insufficient to
	     Opinions and Review. Through its Opinions pro-            establish either that the owner controlled his wife’s trad-
gram, the Commission drafts opinions and orders in              ing or that an express or implied agreement existed among
matters appealed to the Commission. The Commission’s            the owner and his daughters and friends, all of whom had
jurisdiction in adjudicatory matters includes:                  substantial trading experience and independent financial
•	Administrative cases prosecuted by the Enforcement           resources. In re Bielfeldt, Docket No. 96-1 (CFTC Dec. 2,
    program against alleged violators of the CEA or related     2004) (affirming in part and reversing in part the initial
    regulations;                                                decision, and dismissing the complaint).

•	Reparations cases brought by customers to recover mon-       	   Office of General Counsel. Through the litigation
    etary damages from industry registrants; and                program, Commission staff represents the Commission

•	 Adjudicatory actions taken by industry SROs.                 in the U.S. District Courts and the Courts of Appeals and
                                                                assists the Solicitor General in representing the Commis-
	     Through mid-September 2005, the Commission issued
                                                                sion before the U.S. Supreme Court. Commission staff
37 opinions and other orders (including orders issued
                                                                also monitors litigation of interest to accomplishing the
pursuant to delegated authority), 19 of which were final
                                                                Commission’s mission, including the Commission’s coop-
dispositions of cases pending on the Commission’s docket.
                                                                eration with other Federal financial regulators through the
Among other decisions, in an appeal from an exchange
                                                                President’s Working Group on Financial Markets and the
proceeding, the Commission affirmed the default judgment
                                                                President’s Corporate Fraud Task Force.
entered against a respondent who challenged a 10-year
access denial imposed because he engaged in unlawful trad-      	   The Commission succeeded in obtaining dismissal

ing to cover a mistake in handling a customer order. The        of one significant case before the U.S. Supreme Court.

Commission rejected the argument that the sanction was          The result in that case, R.J. Fitzgerald & Co. v. CFTC, 125 S.

unfair because the co-respondent in the exchange proceed-       Ct. 808 (Dec. 13, 2004) (Mem.), preserved the successful

ing, who settled, faced no access denial. The Commission        ruling obtained by the Commission in the U.S. Court of

also found no error in the exchange’s decision to impose        Appeals for the Eleventh Circuit in an important anti-sales

an access denial period twice as long as the period recom-      fraud prosecution. The Eleventh Circuit held that a televi-

mended by the exchange’s compliance officials, because the      sion commercial was fraudulent when its overall message

period imposed was permitted by exchange rules. Caruselle       suggested that profits of 200 to 300 percent could be

v. NYMEX, Docket No. 05-E-1 (June 21, 2005).                    gained by investing in options by looking at known and
                                                                expected weather patterns. The Court held that the adver-
	     In another administrative enforcement case, the Com-
                                                                tising overemphasized profit potential and downplayed
mission appealed from the ALJ’s refusal to impose a civil
                                                                the risk of loss. 310 F.3d 1321 (11th Cir. 2002).
monetary penalty on the respondent. Upon review of the
record, the Commission determined that it was unable            	   Before U.S. Courts of Appeals, the Commission ob-

to reliably determine the respondent’s net worth and his        tained favorable rulings upon a variety of issues. Foremost,




44
                                                                      P E R F O R M A N C E D E TA I L S




the Commission succeeded in demonstrating that it was            Commission and the Merit Systems Protection Board and
substantially justified in defending the statutory registra-     represents the Commission in contract matters before the
tion scheme established under Section 4m of the CEA,             General Services Board of Contract Appeals.
Taucher v. Brown-Hruska, 396 F.3d 1168 (D.C. Cir. 2005),         	   Commission staff also monitors bankruptcy cases in-
and in defending the mechanism for evaluating registra-          volving futures industry professionals and, as appropriate,
tion applications provided by Congress through Section           assists courts, trustees, and customers in implementing
8(a) of the Act, Hirschberg v. CFTC, 414 F.3d 679 (7th Cir.      special bankruptcy code provisions that pertain to com-
2005). The Commission also succeeded in the appellate            modity firms. In FY 2005, Commission staff analyzed the
courts in its defense of challenges brought against injunc-      Commission’s interests in 22 bankruptcy cases and for-
tions issued by district courts aimed at preventing sales        mally appeared before various bankruptcy courts through-
solicitation fraud. CFTC v. Wall Street Underground, 128         out the country to protect both the Commission’s interest
Fed. Appx. 726 (10th Cir. 2005); CFTC v. Fremer, 128 Fed.        in recovering penalties owed due to market misconduct
Appx. 104 (11th Cir. 2005); CFTC v. Gibralter Monetary           and the interest of public customers in having their funds
Corp., No. 04-13828-I (11th Cir. May 9, 2005).                   recovered and returned in 12 such cases.
	   In support of its oversight of the activities of SROs,       	   Finally, through its amicus curiae program, Com-
the Commission succeeded on appeal in defending its              mission staff supported the Commission in assisting the
affirmance of an exchange’s handling of an altercation that      courts in resolving difficult or novel questions arising
arose at the exchange. Piccolo v. CFTC, 388 F.3d 387 (2nd        under the CEA or Commission regulations with the intent
Cir. 2005). In another matter, the Commission was not suc-       of making significant contributions to the development
cessful in persuading the Court of Appeals for the Seventh       of consistent and accurate legal precedent. In FY 2005, the
Circuit of the correctness of the Commission’s interpreta-       Commission participated in Board of Trade of the City of
tion of a core jurisdictional issue regarding the definition     New York v. Klein & Co. Futures, Inc., No. 00Civ.5563GBD
of a futures contract in CFTC v. Zelener, 373 F.3d 861 (7th      (S.D.N.Y.), a case involving the rights and duties of par-
Cir.), reh’g denied, 387 F.3d 624 (2004). The result in that     ties subject to the Act upon the incidence of a customer’s
case brought to the fore the need for legislative action to      financial default.
clarify the Commission’s ability to combat fraud in the sale     	   Regulatory and Legislative Matters. In FY 2005,
of foreign currency exchange investments.                        Commission staff continued to advise the Commission
	   In several cases before the U.S. District Courts, Com-       concerning the implementation of rules and regulations
mission staff defended the Commission’s interests in the         issued pursuant to the CFMA. Commission staff assisted
handling of records it collects while investigating possible     the Commission in new regulatory initiatives to further
violations of the CEA. One case, In re Application of Wil-       carry out CFMA mandates, including providing regulatory
liam R. Tacon, Misc. No. 05MS00083 (D.D.C.), involved            relief to market intermediaries, such as amendments to
the Commission’s defense of the statutory prescriptions          the CFTC’s Large Trader Reporting rules and revised FCM
application to the Commission’s receipt of information. In       reporting requirements for risk-based capital.
another case, In re Subpoena Issued to CFTC, 370 F. Supp. 2d.    	   The Commission consulted with staff of the U.S.
201 (D.D.C. 2005), Commission staff continues to defend          Treasury and various Federal financial regulators to develop
the Commission’s interests where an issue of government-         anti-money laundering regulations required under the USA
wide interest has been posed, specifically, whether the          PATRIOT Act, including in FY 2005, providing guidance to
appellate court should recognize a federal common law            certain customers of CTAs and working with other agencies
right to withhold from third parties records pertaining to       to complete information-sharing agreements.
settlement under a federal “settlement privilege.”               	   During FY 2005, the Commission presented testimo-
	   Commission staff represents the Commission in                ny before Congressional committees on the Commission’s
personnel cases before the district courts and before adminis-   reauthorization.
trative agencies, such as the Equal Employment Opportunity


                                                                                                                              45
                                            Goal Three


Ensure market integrity in order to
foster open, competitive, and financially
sound markets
                                                                                         FY 2005 GOAL THREE RESOURCES
Public Benefit:
                                                                                                 Plan vs. Appropriation
The U.S. commodity futures markets must be protected
                                                                              30
from and free of abusive practices and influences to better                                   $26.4
                                                                                           (134 FTEs)                     $24.7
operate and fulfill their vital role in the nation’s economy,                                                          (130 FTEs)
                                                                              25
as well as the global economy. The CFTC works diligently
                                                                IN MILLIONS




to ensure that futures markets do function properly so
                                                                              20
that the marketplace may be used with confidence by the
farmer who wishes to hedge his crop or feed, or the pen-                      15
sion fund manager who desires to guarantee a set return
on money entrusted for investment.                                            10


Resource Investment:                                                           5
In FY 2005, the Commission requested $26.4 million
and 134 FTEs and was appropriated $24.7 million and                           $0
                                                                                           FY 2005                      FY 2005
130 FTEs for Goal Three.                                                           BUDGET/PERFORMANCE PLAN        A P P R O P R I AT I O N




46
                                                                                                         P E R F O R M A N C E D E TA I L S




Goal Three
Ensure market integrity in order to foster open, competitive, and financially sound markets.



                                                      HISTORY OF PERFORMANCE RESULTS 3


     OUTCOME OBJECTIVE 3.1
     Clearing organizations and firms holding customer funds have sound financial practices.


    PERFORMANCE MEASURES                                                                                    FY 2003             FY 2004       FY 2005

    Lost Funds
      Percentage decrease in number of customers losing funds                                                 0%                  0%           0%
      Amount of funds lost                                                                                     $0                  $0           $0

    Number of rulemakings to ensure market integrity and financially                                            1                  1            3
    sound markets

    Percentage of self-regulatory organizations that comply with requirment                                  100%                100%          TBD
    to enforce rules



	 OUTCOME OBJECTIVE 3.2
	 Commodity futures and option markets are effectively self-regulated.


    PERFORMANCE MEASURES                                                                                     FY 2003            FY 2004       FY 2005

    Percentage of intermediaries who meet risk-based capital                                                 100%                100%         100%
    requirements


    Percentage of clearing organizations that comply with requirement                                        100%                100%          TBD
    to enforce their rules



	 OUTCOME OBJECTIVE 3.3
	 Markets are free of trade practice abuses.


    PERFORMANCE MEASURES                                                                                     FY 2003            FY 2004       FY 2005

    Percentage of exchanges deemed to have adequate systems for                                              100%                100%         100%
    detecting trade practice abuses


    Percentage of exchanges that comply with requirement to enforce                                          100%                100%         100%
    their rules




3
 The performance metrics included in this document represent the best current estimate of
Commission performance. Additional work is needed to devise better measures and valid current
performance measures in order to effectively illustrate program success in meeting overall objectives.




                                                                                                                                                        47
	 OUTCOME OBJECTIVE 3.4
	 Regulatory environment is flexible and responsive to evolving market conditions.


 PERFORMANCE MEASURES                                                                FY 2003   FY 2004   FY 2005

                                                                                     100%       100%     100%
 Percentage of CFMA Section 126(b) objectives addressed


 Number of rulemakings, studies, interpretations, and guidance to                      8         6         6
 ensure market integrity and exchanges’ compliance with regulatory
 requirements


 Percentage of requests for no-action or other relief completed within               100%       100%     100%
 six months related to novel market or trading practices and issues to
 facilitate innovation


 Percentage of requests receiving CFTC responses for guidance                         90%       90%       90%
 and advice




48
                                                                               P E R F O R M A N C E D E TA I L S




Return on Investment
The Commission’s 2005 Annual Performance Plan supports four outcome objectives for Goal Three.


   OBJECTIVE 3.1: NO LOSS OF CUSTOMER FUNDS BY DERIVATIVE CLEARING ORGANIZATIONS


FY 2005 Appropriation: $5.9 Million
FY 2005 Results: Slightly above and on target. Measure 3.1.3 is “to be determined;” program staff have not completed its review and
assessment to provide sufficient data to report on the percentages of derivatives clearing organizations that comply with core principles.


     Number of             Exceeded Goal             Met Goal           Did Not Meet Goal       To Be Determined        Percent Meeting or
     Measures                                                                                    or Not Available        Exceeding Goal

          4                       1                      2                       0                         1                   75%



         PERFORMANCE MEASURES                                                                   FY 2005 PLAN           FY 2005 RESULTS

3.1.1    Lost Funds
              1) Percentage decrease in number of customers who lose funds                           50%                       0%
              2) Amount of funds lost                                                                 $0                       $0


3.1.2    Number of rulemakings to ensure market integrity and financially sound markets                1                         3


3.1.3    Percentage of self-regulatory organizations that comply with requirements to               100%                       TBD
         enforce rules




    OBJECTIVE 3.2: NO LOSS OF CUSTOMER FUNDS BY SELF-REGULATORY ORGANIZATIONS


 FY 2005 Appropriation: $10.6 Million
 FY 2005 Results: On target. Measure 3.2.2 is “to be determined;” program staff have not completed its review and
assessment to provide sufficient data to report on the percentages of derivatives clearing organizations that comply with core principles.


     Number of             Exceeded Goal             Met Goal           Did Not Meet Goal       To Be Determined        Percent Meeting or
     Measures                                                                                    or Not Available        Exceeding Goal

          2                       0                       1                       0                        1                   50%



         PERFORMANCE MEASURES                                                                   FY 2005 PLAN            FY 2005 RESULTS

 3.2.1   Percentage of intermediaries who meet risk-based capital requirements                       100%                      100%


 3.2.2   Percentage of clearing organizations that comply with requirement to                        100%                      TBD
         enforce their rules




                                                                                                                                             49
                     OBJECTIVE 3.3: MARKETS FREE OF TRADE PRACTICE ABUSES


 FY 2005 Appropriation: $5.1 Million
 FY 2005 Results: On target.


     Number of           Exceeded Goal             Met Goal          Did Not Meet Goal   To Be Determined    Percent Meeting or
     Measures                                                                             or Not Available    Exceeding Goal

         2                      0                      2                         0                 0               100%



         PERFORMANCE MEASURES                                                            FY 2005 PLAN        FY 2005 RESULTS

 3.3.1   Percentage of exchanges deemed to have adequate systems for detecting               100%                 100%
         trade practice abuses


 3.3.2   Percentage of exchanges that comply with requirement to enforce their rules         100%                 100%




                         OBJECTIVE 3.4: REGULATORY ENVIRONMENT IS FLEXIBLE
                          AND RESPONSIVE TO EVOLVING MARKET CONDITIONS


 FY 2005 Appropriation: $3.1 Million
 FY 2005 Results: Slightly above and on target


     Number of           Exceeded Goal             Met Goal          Did Not Meet Goal   To Be Determined    Percent Meeting or
     Measures                                                                             or Not Available    Exceeding Goal

         4                      1                      2                         0                 1               75%



         PERFORMANCE MEASURES                                                            FY 2005 PLAN        FY 2005 RESULTS

 3.4.1   Percentage of CFMA Section 126(b) objectives addressed                              100%                 100%


 3.4.2   Number of rulemakings, studies, interpretations, and guidance to ensure               2                     6
         market integrity and exchanges’ compliance with regulatory requirements

 3.4.3   Percentage of requests for no-action or other relief completed within                N/A                 100%
         six month related to novel market or trading practices and issues to
         facilitate innovation


 3.4.4   Percentage of total requests receiving CFTC responses for guidance                  90%                   90%
         and advice




50
                                                                       P E R F O R M A N C E D E TA I L S




Program Contributions to Strategic                                example, in FY 2005, the Commission issued an interpre-
Goal Three:                                                       tative letter to the Australian Wheat Board (AWB) which
                                                                  found that AWB’s proposal to have its wholly-owned
Market Surveillance. The Commission staff completed
                                                                  subsidiary, AWB (USA), Inc., conduct over-the-counter
two rule enforcement reviews of SRO compliance pro-
                                                                  trading, both as an offeror and an offeree of agricultural
grams. Periodic review of SRO compliance programs is a
                                                                  trade option contracts, fell within the exemptive provi-
component of the program’s oversight activity to promote
                                                                  sions of regulation 32.13(g). The Commission continued
and enhance effective self-regulation and ensure that SROs
                                                                  the policy initiated in FY 1999 of issuing no-action letters
enforce compliance with their rules.
                                                                  in response to requests by foreign boards of trade to per-
	    One of the rule enforcement reviews completed dur-
                                                                  mit placement of electronic terminals in the U.S. without
ing FY 2005 was a review of OneChicago’s market surveil-
                                                                  requiring contract market designation for those boards of
lance, audit trail, trade practice surveillance, disciplinary,
                                                                  trade. In FY 2005, the Commission issued a no-action let-
and dispute resolution programs. The other rule enforce-
                                                                  ter to the European Energy Exchange and issued amended
ment review completed during FY 2005 was a review of the
                                                                  no-action letters to Eurex Deutschland and Eurex Zurich,
CBOT’s audit trail, trade practice surveillance, disciplinary,
                                                                  Ltd., to permit, subject to Commission approval, the
and dispute resolution programs. Market Compliance
                                                                  clearing of Euro products traded on the two exchanges
staff found that both OneChicago and CBOT maintain
                                                                  to be cleared by the Clearing Corporation (CCorp) as a
adequate programs with respect to the areas reviewed.
                                                                  special clearing member of Eurex Clearing AG. In FY 2005,
	    The Commission’s review of exchange rules is a key
                                                                  the Market and Product Review subprogram also issued
aspect of the statutory framework for self-regulation.
                                                                  an amended no-action relief letter to the Sydney Futures
Market and Product Review subprogram staff review
                                                                  Exchange Limited (SFE) to permit non-clearing SFE
exchange rule submissions with the goals of: 1) maintain-
                                                                  members that carry U.S. customer accounts to place SFE
ing the fairness and financial integrity of the markets; 2)
                                                                  terminals with those customers, conditioned on the non-
protecting customers; 3) accommodating and fostering
                                                                  clearing member giving up those trades to a guaranteeing
innovation; and 4) increasing efficiency in self-regulation
                                                                  FCM or rule 30.10 firm.
consistent with the Commission’s statutory mandates. To
                                                                  	   In FY 2005, the Commission issued a no-action let-
these ends, staff reviewed 262 exchange rule submission
                                                                  ter to U.S. Futures Exchange, LLC (Eurex U.S.) to afford
packages and, within those packages, staff reviewed 1,237
                                                                  it relief from the Commission’s default contract report-
new rules and rule amendments. (See measures 3.2.1,
                                                                  ing levels for futures and option contracts so that Eurex
3.2.2, 3.3.1 and 3.3.2.)
                                                                  U.S.’s new 3-Year U.S. Treasury Notes (3-Year T-Notes)
	    Commission staff also work to facilitate indus-
                                                                  contract would be subject to a reporting level of 750
try innovations and new trading methods and market
                                                                  contracts, rather than the default level of 25 contracts.
structures, thereby meeting the Commission’s objective
                                                                  (Subsequently, the Commission adopted a rulemaking
of promoting and enhancing effective self-regulation and
                                                                  formally establishing a 750-contract reporting level for
competition. During FY 2005, staff was involved in a
                                                                  3-Year T-Notes.) The no-action relief eased the burden
number of significant matters including issues related to
                                                                  of reporting on market participants while preserving the
new exchanges and exempt markets, exchange mergers,
                                                                  Commission’s ability to effectively surveil trading in 3-
novel trading procedures and contract designs, and new
                                                                  Year T-Note contract. The Commission also continued the
automated trading systems.
                                                                  policy initiated in FY 1999 of issuing no-action letters in
	    Issuing Exemptive, Interpretive, and No-Action
                                                                  response to requests by foreign boards of trade to permit
Relief. The Commission is responsible for providing
                                                                  placement of electronic terminals in the U.S. without
exemptive, interpretive, or other relief to facilitate the con-
                                                                  requiring contract market designation for those boards
tinued development of an effective, flexible regulatory en-
                                                                  of trade. In FY 2005, the Division’s Chief Counsel Office
vironment responsive to evolving market conditions. For



                                                                                                                                51
issued three new no-action letters to the European Energy     Interpretation No. 10-1 to prohibit FCMs from deposit-
Exchange, the Winnipeg Commodity Exchange, Inc. and           ing, holding, or maintaining margin funds for customer
Euronext Amsterdam N.V. In addition, amended no-ac-           accounts in third-party custodial accounts, with limited
tion letters were issued to Eurex Deutschland (Eurex) and     exception for FCMs not eligible to hold the assets of their
the SFE. The letter to Eurex permitted, among other things,   RIC customer (i.e., due to their affiliation with the RIC or
participants of CCorp to carry positions in Eurex prod-       its adviser). The ban against the use of third-party accounts
ucts pursuant to the Euro-link agreement between CCorp        is intended to prevent potential delay or interruption in
and Eurex Clearing. On the other hand, the letter to SFE      securing required margin payments that, in times of signifi-
permitted the exchange to make its electronic trading and     cant market disruption, could magnify the impact of such
order matching system, known as SYCOM®, available to          market disruption and impair the liquidity of other FCMs
non-exchange participants in the U.S.                         and clearinghouses. (See measures 3.4.3 and 3.4.4.)
	    The Commission responded to a high number of             	   Fostering Sound Business Practices: Oversight of
formal and informal requests for guidance concerning          SROs, Market Intermediaries, and DCOs. A key aspect of
the application of regulatory requirements to specific        assuring effective self-regulation is oversight by the Com-
transactions, new products, and market circumstances.         mission of SRO programs to assure compliance by their
Staff issued 170 responses to written requests, including     members with customer and market protection standards.
electronic responses, from members of the public and the      Toward this end, the DCIO oversees, reviews, and reports
regulated industry to provide guidance concerning the         to the Commission concerning statutorily required self-
application of Commission regulations and to provide ex-      regulatory programs directed at maintaining the financial
emptions. Staff also responded to 1,773 telephone inqui-      integrity of the markets and deterring improper sales
ries concerning the application of Commission require-        practices and other wrongful conduct.
ments to commodity professionals. These responses aided       	   The DCIO staff administer a financial surveillance
market participants and the public by providing guidance      and audit program that buttresses periodic audit, daily
concerning the manner in which they may conduct their         financial surveillance, and other self-policing programs
activities to comply with relevant requirements and by        administered by the exchanges and NFA to promote
granting relief from requirements where application of the    and enhance effective self-regulation of the commodity
rules would not serve the public interest.                    futures and option markets. The objective of this program
	    Financial and Segregation Interpretation No. 10          is to assure sound financial practices of DCOs and firms
(Interpretation No. 10), issued in 1984, effectively per-     holding customer funds. The effort includes oversight of
mitted customer margins to be deposited at a bank in a        financial compliance programs of SROs and direct quality
safekeeping or custodial account (otherwise known as          control audits to assess the efficacy of their programs. The
“safekeeping account” or “third-party custodial account”),    oversight of SRO programs is necessary to ensure that SRO
in lieu of posting such funds directly with a FCM, without    member firms are properly capitalized and maintain ap-
being deemed to violate the customer funds segregation        propriate risk management capabilities, and that customer
provisions of Section 4d(a)(2) of the CEA and related         funds are held in segregation by appropriate custodians
Commission regulations. Through analysis and discus-          and are protected from misappropriation.
sions with industry participants, it was determined that      	   This oversight function of the Clearing and Intermedi-
third-party custodial accounts are no longer necessary or     ary Oversight program has taken on increased importance
justified in light of developments since the issuance of      with the Commission’s new regulatory framework under
Interpretation No. 10 and may present significant cost and    the CFMA. The CFMA defined a new category of regis-
burdens for market participants. Accordingly, the Division    tered entity, DCOs, and set forth certain core principles
of Clearing and Intermediary Oversight (DCIO) withdrew        governing such entities. Similar to the approach of other
Interpretation No. 10 in May 2005 and issued an amended       Federal financial regulators and certain overseas financial




52
                                                                    P E R F O R M A N C E D E TA I L S




supervisors – indeed, in close consultation with several       pursuant to 4d of the CFMA permitting CCorp, a DCO,
such peers – the DCIO program has begun enhancing              and its member FCMs to clear trades executed on Eurex, a
its supervision of exchanges, clearinghouses, and other        foreign market, and commingle such positions and associ-
SROs with risk-based examination cycles and risk-focused       ated funds with other positions and funds required to be
reviews. Both the scheduling and scope of the DCIO’s           segregated. The Commission also issued an interpretation
supervisory reviews are now based on careful analysis of       clarifying the treatment in insolvency of funds held in
the underlying risks to which an institution is exposed and    segregation pursuant to such an order. In December 2004,
the controls that it has in place to address those risks.      the Commission issued an amended order permitting
	   The Major Review unit of the DCIO was created to           HedgeStreet, a DCO, to clear additional products. In Sep-
plan, coordinate, schedule, monitor, and assess major          tember 2005, the Commission issued an order pursuant to
risk-focused reviews. During FY 2005, program staff initi-     4d permitting New York Mercantile Exchange (NYMEX),
ated a review of the Minneapolis Grain Exchange (MGE)          a DCO, and its member FCMs to clear trades executed on
in its capacity as a DCO registered with the Commission        NYMEX Europe, an affiliated exchange located in London,
pursuant to Section 5b of the CEA. The purpose of the          and commingle such positions and associated funds with
review was to determine whether MGE had demonstrated           other positions and funds required to be segregated.
compliance with the core principles for DCOs set forth         	   The DCIO staff prepared six rulemaking actions
in Section 5b(c)(2) of the Act and with Part 39 of the         during the fiscal year. Two of these were corrections of
Commission’s Rules. While program staff looked initially       previously published rule changes, one of which related
at compliance with the core principles, generally its risk     to closing out of offsetting positions and the other to
assessment and scope-setting phases effort led to a focus      delegation of authority to the DCIO division director. One
on MGE’s abilities to demonstrate fulfillment of its re-       order expanded the authority of NFA to exempt certain
sponsibilities as a risk-managing central counterparty. The    firms that act as FCMs and that are regulated by multiple
DCIO staff is currently preparing a report of its review for   foreign futures authorities or foreign SROs from registra-
Commission consideration.                                      tion under the CEA in accordance with guidelines set forth
	   The DCIO staff performed 11 audits (one DCO                in the order by the Commission. A rule change simplified
and 10 FCMs) in FY 2005 to test compliance with the            the signature requirements for acknowledgment by non-
Commission’s financial requirements for the safekeep-          institutional customers of FCMs and IBs of required risk
ing of customer funds. In addition, program staff pro-         disclosure statements and consent for the firms to take the
cessed about 2,700 financial reports filed by registrants.     opposite side of customer trades. An interpretation by the
As a result of on-going program efforts such as these, no      predecessor of the DCIO regarding segregation of cus-
regulated customer funds were lost in FY 2005, thereby         tomer funds was amended to prohibit the use of so-called
meeting the program’s objective of ensuring sound finan-       third-party safekeeping accounts, except in cases where
cial practices of clearing organizations and firms holding     customers were required by the SEC to use such accounts.
customer funds. (See measures 3.1.1, 3.1.2 and 3.1.3.)         Finally, rules were issued that further expanded the range
	   Ensuring a Flexible and Responsive Regulatory En-          of permissible investments of customer funds by FCMs
vironment. In FY 2005, the DCIO supported the Commis-          and DCOs subject to appropriate safeguards.
sion’s on-going regulatory reform program, as well as ac-      	   In September 2005, the Commission published in the
tions required by or appropriate to the implementation of      Federal Register a notice of proposed rulemaking to define
the CFMA. In April 2005, the Commission issued an order        the term “client” as it relates to a CTA. The proposed defi-
registering AE Clearinghouse as a DCO. AE Clearinghouse        nition provides that a “subscriber” is one type of “client,”
provides an innovative method for clearing transactions        thus clarifying apparent inconsistencies in the Act and in
executed on an exempt board of trade or over-the-coun-         the Commission’s regulations concerning the advisees
ter. In October 2004, the Commission issued an order           of CTAs. The proposal also clarifies the Commission’s




                                                                                                                            53
longstanding view that its antifraud authority extends to       	   Foreign Futures and Option Transactions. The
all CTAs, irrespective of whether they provide advice on        Commission also furthered the development of the offer
a personalized or non-personalized basis. (See measures         and sale of foreign futures and option transactions (U.S.
3.4.1 and 3.4.2.)                                               customers trading on non-U.S. markets) in FY 2005. The
	    Remote Clearing. In a matter of first impression,          Commission issued an order to NFA authorizing NFA
(commonly referred to as “remote clearing,”) a foreign          to confirm exemptive relief to certain firms acting in the
firm requested to become a full clearing member of a            capacity of an FCM. Specifically, FCMs that are subject
combined DCM and DCO to clear trades only for non-              to regulation by a foreign futures authority or that are
U.S. located customers without first registering under the      members of a foreign SRO in a particular jurisdiction to
Act. The DCIO staff researched the legal question as to         which an order under Commission Rule 30.10 has been
whether a remote clearing foreign firm that would clear         issued, notwithstanding that such firms may be subject,
trades only for non-U.S. located customers would be             in part, to joint regulation by a second regulator or SRO
required to register with the Commission as an FCM, and         in another jurisdiction. These firms are referred to in the
addressed the material policy issues of remote clearing         order as CBFBs. The Commission previously had au-
with respect to both customer protection and the financial      thorized NFA to confirm exemptive relief solely to firms
integrity of the markets. After discussions with staff, the     subject to regulation by a single foreign futures authority
foreign firm decided to become registered with the Com-         or that are members of a foreign SRO. This order extends
mission as an FCM.                                              the scope of that authority. Specifically, the Commission
	    Foreign Currency. The DCIO continues to work               authorized NFA to grant exemptive relief to any CBFB that
with the Division of Enforcement and NFA staff regarding        solicits or accepts orders (and accepts money, securities
retail foreign currency trading by FCMs and their affiliates.   or property to margin the trades that result or may result
NFA submitted additional rules concerning retail foreign        therefrom) from U.S. foreign futures and options custom-
currency on August 22, 2005, which the Commission               ers and that is fully regulated, in the aggregate, by a host
approved on September 15, 2005. These rules are in-             and home country regulator, each of which has received a
tended to address on-going problems in the off-exchange         Rule 30.10 Order from the Commission, or is organized
retail forex market by allowing NFA to impose stricter net      in a home country and operating pursuant to certain
capital requirements on certain persons registered as FCMs      European Union directives governing cross-border activity
engaging in retail forex transactions, and to extend certain    (known, collectively, as the European Passport) from a
antifraud and customer protection rules to a greater            branch located in a host country where the regulator or
number of off-exchange retail forex transactions, where         SRO has received a Rule 30.10 Order, notwithstanding
NFA members act as intermediaries, but the counterparty         that the Commission has not issued a Rule 30.10 Order to
is not an NFA member. Members are also required to pro-         the home country regulator. The Commission determined
vide customers with information about NFA’s registrant          further to authorize NFA to maintain records pertaining
database (BASIC) so that they may review the registration       to the functions described in this order and to serve as the
status and disciplinary history of those who solicit them.      official custodian of those Commission records.

	    The DCIO staff has considered ways to provide addi-        	   Hedge Funds. During FY 2005, the DCIO monitored
tional formal guidance regarding compliance and registra-       the SEC’s implementation of new rules requiring registra-
tion issues pertaining to entities involved in retail foreign   tion of hedge fund advisers under the Investment Advisers
currency trading and has met with other divisions to            Act of 1940.
discuss their concerns regarding issues that may be raised      	   Security Futures Products and Cooperation with the
in such an advisory. Staff has also discussed issues with       SEC. The CFMA directs the Commission and the SEC to
NFA concerning NFA examinations and required adjusted           implement a joint regulatory framework for SFPs and nar-
net capital for firms engaged in retail forex transactions.     row-based stock index futures. As part of the on-going SFP




54
                                                                        P E R F O R M A N C E D E TA I L S




supervisory and oversight process, the Commission and             	    Financial, Supervision, Compliance and Record-
the SEC signed a Memorandum of Understanding (MOU)                keeping. During FY 2005, the Commission filed one
to clarify the ability of each agency to conduct inspec-          enforcement action in this program area and also achieved
tions of notice-registered intermediaries, exchanges, and         significant litigation results in two actions filed in this
limited purpose national securities associations. The MOU         practice area during previous fiscal years. (See Appendices.)
provides that the CFTC and SEC will notify each other of          	    Statutory Disqualifications. During FY 2005, the
any planned examinations, advise the other of reasons             Commission filed five enforcement actions in this pro-
for an intended examination, provide each other with              gram area. (See Appendices.)
examination-related information, and conduct examina-             	    International Cooperative Enforcement. The Com-
tions jointly, if feasible. The agencies will notify each other   mission continues to coordinate enforcement activities
of significant market issues and will share trading data and      with foreign authorities. During FY 2005, the Division
related market information.                                       of Enforcement made 106 requests for assistance, and
	    The DCIO permitted NFA in FY 2004 to postpone                it received 18 requests from authorities in foreign juris-
indefinitely updating the Series 3 and Series 30 examina-         dictions. The Commission was successful in obtaining
tions to include questions on SFPs. Staff has discussed           assistance, including bank records, in several jurisdictions
with NFA and the National Association of Securities               where we did not have prior cooperative relationships.
Dealers how to accomplish eventual updating of the                	    Enforcement also has devoted time and resources to
examinations, but, for the time being, salespersons will be       matters involving allegations that persons or entities have
permitted to continue to offer SFPs following the taking of       committed fraud or other misconduct in their cross-bor-
a Web-based training module. The SEC is in accord with            der activities. Such misconduct can adversely affect U.S.
this approach.                                                    firms as well as customers located in the U.S. and overseas.
 	   Trade Practice. The legislative history of the CEA           	    IOSCO’s Screening and Approving MOU Appli-
notes that one of the fundamental purposes of the Act is          cants. Commission staff, as members of a Multilateral
to ensure fair practices and honest dealing in the futures        Memorandum of Understanding Concerning Consulta-
market and to control those forms of speculative activity         tion, Cooperation and the Exchange of Information
that demoralize the market to the detriment of produc-            (MMOU) Verification Team, evaluated the applications
ers, consumers, and the markets. Consistent with Con-             of five IOSCO members to become signatories to the
gress’ mandate, the Commission periodically brings trade          MMOU. The Commission also is a member of the Screen-
practice cases to address a variety of unfair, abusive, or        ing Group which makes recommendations to a decision
deceptive ploys by traders to avoid exposing their orders         making body of IOSCO concerning whether to accept or
to market risk. Such actions can create non-competitive           reject specific MMOU applications.
prices in the marketplace and have the potential to harm          	    During FY 2005, the Commission continued its work
public customers, producers, and others. Improper trade           on the IOSCO MMOU. The MMOU is an important and
practices include a variety of activities, including trad-        meaningful undertaking for regulators to expand coopera-
ing done in violation of exchange rules, such as trading          tion by establishing specific minimum standards for se-
ahead of a customer order, wash trading, accommodation            curities and futures regulators in the area of information-
trading, and fictitious trading. During FY 2005, the Com-         sharing. During FY 2005, Belgium, which the Commission
mission filed six enforcement actions in this program area        did not have an information-sharing arrangement with
and also achieved significant litigation results in one ac-       previously, became a signatory to the MMOU.
tion filed in this practice area during previous fiscal years.
                                                                  	    Standing Committee 4. During FY 2005, staff also
(See Appendices.)
                                                                  continued to participate in the Standing Committee
                                                                  on Enforcement and Information-Sharing (SC4) of the




                                                                                                                                55
Technical Committee of IOSCO. SC4 considers issues and             participants to discuss practical operational issues that
formulates recommendations relating to international as-           most affect their conduct of trans-Atlantic business in
sistance in the detection, investigation, and prosecution of       exchange-traded derivatives and by developing a work
securities and futures violations.                                 program to review issues relating to enhanced transpar-
	     Standing Committee 5. Commission staff also con-             ency, clarity of regulatory developments and simplified
tinued to participate in IOSCO’s Standing Committee 5              access or recognition procedures;
(SC5) on Investment Management. Throughout 2005, SC5             •	Providing assistance to the Financial Sector Assessment
continued to consider and issue reports on several topics          Program of the World Bank and International Monetary
of importance to collective investment vehicles.                   Fund;
	     Office of General Counsel (OGC). OGC continued             •	Coordinating the Commission’s provision of repre-
its review of requests for no-action relief to allow the offer     sentations and regulatory information to regulatory
and sale of foreign exchange-traded foreign stock index            authorities in Australia, Austria, Germany, Italy, the
futures contracts in the U.S. In FY 2005, OGC issued three         Netherlands, Spain and Switzerland that supported the
no-action letters for five of these foreign exchange-traded        recognition of three U.S. futures exchanges electronic
foreign stock index futures contracts.                             trading systems;
	     OGC also advised the Commission with respect to            •	Coordinating the Commission’s comments to the U.S.
legislative provisions affecting the Commission con-               Treasury on various position papers including U.S.-In-
tained in the Domenici-Barton Energy Policy Act of                 dia and U.S.-China dialogue;
2005, which included provisions designed to clarify the          •	Participating in and advising the Toronto Centre on
Commission’s exclusive jurisdiction over futures and               leadership with respect to securities and derivatives sec-
option markets and trading data. Furthermore, OGC                  tor programs; and
advised the Commission on the Energy Policy Act’s re-            •	Providing technical assistance to foreign regulators
quirement that the Commission and the FERC enter into              through visits with staff at the Commission by 89 for-
an information-sharing arrangement.                                eign persons representing 14 foreign jurisdictions, two
	     International Policy. The Commission formulates              on-site visits by Commission staff to foreign jurisdic-
international policy by: 1) coordinating with foreign              tions, and a week-long seminar in Chicago that exam-
regulatory authorities; 2) participating in international          ined the techniques used to promote market, firm, and
regulatory organizations and forums; and 3) providing              customer protections.
technical assistance to foreign governmental bodies. In FY
2005, the Commission contributed to this effort by:
•	Coordinating Commission representation in the Coun-
    cil of Securities Commissions of the Americas (COSRA),
    including contributing a paper on the benefits of futures
    trading to the securitization of small business loans
    and participating on ways to advance COSRA’s regional
    technical assistance and training initiatives;
•	Providing expertise to the Committee of European
    Securities Regulators (CESR) related to their inquiry
    into acceptable market practices for commodity markets
    as part of its deliberations on possible expansion of the
    Investment Services Directive to commodity markets;
•	Promoting access to markets by organizing with CESR
    a round-table for U.S. and European futures industry



56
                                                                  P E R F O R M A N C E D E TA I L S




Methodology for Collecting, Maintaining,
   and Analyzing Performance Data


Market Oversight                                             ceived, the submission’s ultimate disposition, the date of
                                                             disposition, and the processing time.
Statistics concerning the large trader and exchange data
collection systems are computer-generated based on the       	    During FY 2004 and FY 2005, the Division of Market

number of actual reports processed. Similarly, figures on    Oversight (DMO) coordinated with DCIO staff and the

numbers of market trading reports prepared and new           Office of Information Resources Management (OIRM) to

contract and rule change filings analyzed and completed      develop a comprehensive database system for organiza-

are derived from computer records. Performance data          tions (trading facilities, clearing organizations, etc.), for-

from regional offices and headquarters are collected         eign terminal no-action relief, products, and rule amend-

quarterly and combined into an overall report reflecting     ments. This system ultimately will replace the DART

performance data included in the Annual Performance          system and provide a more efficient and effective method

Plan. Trends in volume, open interest, and number of         for tracking the processing of various filings received by

contracts approved are used to project workload statistics   DMO and DCIO.

for future periods. Compliance factors, such as audits       	    The Market Compliance subprogram’s performance
and letters to traders and reporting firms, are reviewed     data are continuously collected from regional and head-
in the context of total reports processed for anomalous      quarters staff and are maintained at headquarters for each
relationships. The number of market surveillance reports     performance category. The adequacy of SROs’ sanctions
and special reports are viewed in the context of the num-    and a comparison of sanctions across all exchanges are
ber of markets trading and analyses that are presented at    conducted quarterly by regional staff and are also main-
Commission meetings. These reports and comparisons           tained at headquarters.
with indicators from previous periods are used to verify
data accuracy.                                               Clearing and Intermediary Oversight
	   The Market and Product Review subprogram calcu-          Compliance and Registration. The Compliance and
lates the performance data included in the Commission’s      Registration subprogram compiles data on discrete events,
Annual Performance Report and Annual Performance Plan        such as letters written, rules promulgated or revised, and
by querying its automated databases: the Filings (FILAC)     RWG meetings held. It should be noted that statistics
system and the Designation and Rule Tracking (DART)          on numbers of letters issued or rules promulgated may
systems. For each new exchange, these systems record         not reflect the complexity of any particular matter or the
product, rule submission, information on the date re-        resources necessary to address one issue versus another



                                                                                                                              57
issue. In addition, matters commenced in one fiscal year         	    Finally, additional data tracked by the Enforcement
may overlap into, and be completed during, a subsequent          program particularly data reflecting investigation and litiga-
fiscal year, resulting in some imprecision in statistical        tion tasks come directly from the headquarters units and
measures for a given fiscal year. Finally, the timeliness of     regional offices performing the work. The Enforcement staff
a response is affected by the speed with which a requester       from each subprogram and regional office submit monthly
provides additional information sought by staff and the          status reports on all pending matters. In conjunction with
length of time required by other Commission divisions            these monthly submissions, staff are required to fill out an
or offices to review a draft response (factors outside the       electronic form that provides specific information for each
control of the Compliance and Registration subprogram).          matter. While every effort is made to ensure that the data
	    Audit and Financial Review. Each branch of the Au-          obtained from the investigation and litigation teams is
dit and Financial Review subprogram prepares a monthly           accurate, the integrity of this data is ultimately and
report that includes statistics for those projects that can be   primarily the responsibility of the reporting teams.
reported on a numerical basis and also describes special
projects, enforcement support, and all other noteworthy          Office of Proceedings
matters that staff have worked on during the month. Sta-         The Office of Proceedings uses “Repcase,” an integrated
tistical summaries are also prepared on a quarterly basis.       computerized case tracking system, to collect, maintain,
	    Clearing Policy. The Clearing Policy subprogram             and analyze performance information for each reparations
maintains an on-going status report of current and com-          case. The reparations case reports are separated into two sec-
pleted projects. Separately, the Commission is close to          tions: complaints and hearings. The data and information
completion of development of an electronic database to           collected in the complaints section consist of the number of
track all exchange and clearinghouse rule filings.               cases pending on the first day of the month, the number of
                                                                 cases received during the month, the number of cases dis-
Enforcement                                                      posed of in complaints, and the number of cases pending at
The Enforcement program tracks several types of perfor-          the end of the month. The data and information collected
mance data. For example, the number of investigations            for the hearings section consist of the number of cases
and cases opened, closed, case type (e.g., fraud, manipu-        pending with an ALJ or judgment officer (JO) at the begin-
lation, etc.), results obtained, and matters pending is          ning of the month, the number of cases assigned during the
collected and tabulated on a monthly basis and at the end        month (including remands, reassignments, and motions to
of each fiscal year. Case status information is then cross-      vacate), the number and type of cases disposed of during
checked against status reports submitted by staff to the         the month, and the number of cases pending with each ALJ
Office of the Director of the Enforcement program. This          or JO at the end of the month.
information is adapted for use in performance reporting          	    A separate database, Administrative Enforcement Case
(i.e., individual matters are identified by the goals and        Tracking system, is used to track administrative cases, (e.g.,
activities under which they most reasonably fall).               administrative/enforcement, exchange, statutory disqualifi-
	    Other data that are routinely tracked and then adapt-       cation, and Commission review cases). The Administrative
ed for use in performance reporting include sanctions            Enforcement Case Tracking system records the number
assessed in enforcement matters. In enforcement cases,           of cases received during the month, the number and type
sanctions can be assessed by resolution of: 1) Commission        assigned during the month, and the number and type
ALJs; 2) the Commission in settlement or on appeal of an         disposed of during the month. Case status information is
ALJ’s decision; and 3) Federal district court actions. Upon      checked on a monthly basis against status reports submit-
final disposition of the enforcement action, unsatisfied         ted by the ALJs, JOs, and proceedings clerk to the director of
judgments are referred to the U.S. Treasury or the DOJ as        the Office of Proceedings. This information is adapted for
appropriate for collection.                                      use in performance reporting.



58
                                                                     P E R F O R M A N C E D E TA I L S




Office of the General Counsel                                   which serves as a check against the data provided by the
                                                                automated tracking system. All reports are reviewed and
OGC uses Repcase to collect, maintain, and analyze per-
                                                                approved by the General Counsel and/or Deputy General
formance information for each reparations, enforcement,
                                                                Counsel for the Opinions and Review section.
exchange review, and NFA case on appeal to the Com-
mission. Statistical data is collected and reported by the
total number of: 1) Cases resolved (e.g., final disposition,    Executive Direction & Support
remand, interlocutory disposition, and miscellaneous dis-       Office of Information Resources Management. OIRM
position); 2) matters received (e.g., merits appeals, inter-    acts on the basis of the CFTC Strategic Plan and direction
locutory appeals, and miscellaneous); 3) matters pending;       from the Executive Management Council. Performance
and 4) drafts pending before the Commission.                    data is collected by comparing the products actually
	    OGC collects and maintains case data on an on-going        delivered against the requirements identified through the
basis. A legal program assistant uses this information to       strategic planning of Commission priorities. The resources
prepare periodic reports, which are used by management to       used to deliver products based on Commission priori-
monitor and analyze all cases on appeal to the Commission.      ties are recorded in the Commission time and attendance
	    Biweekly Report. At the end of each biweekly period,       data or equivalent OIRM internal records for internal FTEs
the legal program assistant prepares a report for the Gen-      and the Commission’s financial management system or
eral Counsel’s signature for submission to the Chairman.        equivalent OIRM internal records for purchased resources.
The information reported includes significant activity (e.g.,   The Commission’s technology investment priorities are
legislative, regulatory, litigation-related, and opinions-re-   reviewed through periodic Investment Review Board and
lated) in the office that occurred during that period.          Technology Review Board sessions involving key technical

	    Monthly Opinions Report. At the end of each                and business stakeholders. Analysis of performance data

month, the legal program assistant prepares a report for        involves comparison of resources expended on projects

the General Counsel’s signature. The information reported       with the planned expenditures to the products delivered

includes all activity (e.g., disposition of cases, matters      with the products planned.

received, and matters pending) in the Opinions program
that occurred during the month.
	    Quarterly Report. At the end of each quarter, the
Deputy General Counsel for Opinions and Review pre-
pares a report to the Commission outlining the status of
cases pending on the Commission’s docket.
	    Annual Report. At the end of each fiscal year, the
legal program assistant prepares a statistical summary that
shows activity in the program during the fiscal year. The
report lists by category the number of matters received,
Commission orders and opinions issued, and the number
of cases pending at the end of the year. All issued opinions
and orders are maintained in binders filed alphabetically,
monthly, quarterly, and annually.
	    In preparing these reports, the legal program assis-
tant reviews the statistical data provided by the Repcase
tracking system as well as issued opinions and orders
maintained in the binders. This staff member also main-
tains a separate tracking system of the cases on appeal,



                                                                                                                             59
                   FINANCIAL SECTION




                                                                 “
         “
                We continue to strive for excellence in the
         financial management of the Commission as illustrated
         throughout this Performance and Accountability Report.
     	
                     —Mark Carney, Chief Financial Officer




60
                                                                      FINANCIAL SECTION




A Message From the Chief Financial Officer


 From the Chief Financial Officer                               	    We continue to strive for excellence in the financial
                                                                management of the Commission as illustrated throughout
 The Performance and Accountability Report for FY 2005
                                                                this Performance and Accountability Report. The Commission
 presents, to the Administration and the public, the status
                                                                continues its efforts to correct our four reportable conditions.
 of the CFTC’s program performance and fiscal opera-
 tions. This document is the principal report produced
 by the Commission delineating our improvements and
 progress for this year. The Commission recognizes the          Mark Carney
 importance of public disclosure and accountability to          Chief Financial Officer
 the Administration, to Congress, and to the American           November 15, 2005
 taxpayer. This Performance and Accountability Report is a
 demonstration of our commitment to fulfill our fiduciary
 and reporting responsibilities.
 	   I am pleased to present the CFTC’s financial state-
 ments for FY 2005 as a part of this report. For the first
 time, an independent public accounting firm, KPMG LLP,
 selected by our Inspector General, issued an unqualified
 or “clean” opinion on the Commission’s consolidated fi-
 nancial statements, which is the best possible audit result.
 	   The financial statements fairly present the Commis-
 sion’s financial position and were prepared in accordance
 with standards developed by the Federal Accounting Stan-
 dards Advisory Board and accounting principles generally
 accepted in the U.S. These statements are presented in the
 format required by the OMB and the Government Man-
 agement Reform Act of 1994.




                                                                                                                              61
                                    Financial Summary

 		                                                                                                                         TOTAL ASSETS
 At End of Year 	                % Change 2005/2004	           2005	            2004                    80

                                                                                                        70
                                                                                                                                           $62.2
                                                                                                        60
 CONDENSED BALANCE SHEET DATA		                                                                         50
                                                                                                                       $54.2




                                                                                        IN MILLIONS
 		   Fund Balance with Treasury	              -11%	   $ 23,464,887	     $ 6,304,227                    40

 		   Property and Equipment	                  292%	      1,919,650	         489,638                    30


 		   Accounts Receivable	                     476%	        185,927	          32,263                    20

                                                                                                        10
 		   Other (Custodial)	                       -19%	     28,663,845	      35,402,939
                                                                                                        $0
                                                                                                                    FY 2005               FY 2004
 TOTAL ASSETS	                                 -13%	   $ 54,234,309	    $ 62,229,067
 		
 	
 		   FECA Liabilities	                        -11%	      $ 629,800	       $ 709,034
 		   Payroll, Benefits and Annual Leave	      14%	       8,082,514	       7,079,766                    50
                                                                                                                        TOTAL LIABILITIES

                                                                                                                                           $44.4
 		   Contingent & Deposit Fund Liabilities	   -89%	         20,094	         182,426
                                                                                                        40
                                                                                                                    $39.1
 		   Accounts Payable	                        65%	       1,692,411	       1,025,643




                                                                                         IN MILLIONS
 		   Custodial Liabilities	                   -19%	     28,663,845	      35,402,939                    30


 		 Total Liabilities	                         -12%	   $ 39,088,664	    $ 44,399,808                    20
 			
 		   Cumulative Results of Operations	        -24%	     (3,939,565)	     (5,199,126)                   10


 		   Unexpended Appropriations	               -17%	     19,085,210	      23,028,385                     0
                                                                                                                 FY 2005                  FY 2004
 		   Total Net Position	                      -15%	     15,145,645	      17,829,259

 TOTAL LIABILITIES AND NET POSITION	           -13%	   $ 54,234,309	    $ 62,229,067
 		
 	
                                                                                                                            NET POSITION
 FULL-TIME EQUIVALENTS 			                                                                              20
                                                                                                                                           $17.8
 		   Market Oversight	                         -3%	             99	             102                                $15.1
                                                                                                        15
 		   Clearing & Intermediary Oversight	       -10%	             62	              69
                                                                                        IN MILLIONS




 		   Chief Economist	                         -11%	               8	              9                    10

 		   Enforcement	                              -6%	            135	             144
 		   Proceedings	                              -7%	             13	             140                     5


 		   General Council	                          -6%	             32	              34
                                                                                                         0
 		   Chairman/Commissioners	                   -7%	             42	              45                             FY 2005                  FY 2004


 		   Executive Direction & Support	            -6%	             94	             100

 TOTAL FULL-TIME EQUIVALENTS	                   -6%	            485	             517

                                                                                                                 FULL-TIME EQUIVALENTS
                                                                                                       600
                                                                                                                            517                    521
                                                                                                              485                   497
                                                                                                       500


                                                                                                       400


                                                                                                       300


                                                                                                       200


                                                                                                       100


                                                                                                        0
                                                                                                             FY 2005     FY 2004   FY 2003     FY 2002

62
                                                                         FINANCIAL SECTION




    		
                                                                                                        2005
    For the Year 	                 % Change 2005/2004	                 2005	            2004


    STATEMENT OF NET COST			                                                                    Goal Three     Goal One
    		   Total Cost	                              4%	         $ 100,412,029	    $ 96,244,924       26%           34%

    		   Earned Revenue	                         91%	              (114,705)	        (60,147)

    TOTAL NET COST OF OPERATIONS	                 4%	           100,297,324	      96,184,777
                                                                                                     Goal Two
    	                                                                                                  40%
    		
    NET COST BY STRATEGIC GOAL			
    		   Goal One - Economic Utility	             9%	          $ 34,101,090	    $ 31,402,406
                                                                                                        2004
    		   Goal Two - Market User and Public	       5%	            40,118,930	      38,325,786
    		   Goal Three - Industry	                   -1%	           26,077,304	      26,456,585

    			                                           4%	         $ 100,297,324	    $ 96,184,777    Goal Three   Goal One
                                                                                                   28%         33%




                                                                                                      Goal Two

Limitations of Financial Statement                                                                      39%


Management has prepared the accompanying financial
statements to report the financial position and operational
results for the CFTC for Fiscal Years 2005 and 2004 pursu-
ant to the requirements of Title 31 of the U.S. Code, section
3515(b).
	        While these statements have been prepared from the
books and records of the Commission in accordance with
GAAP for Federal entities and the formats prescribed by
OMB Circular A-136, Financial Reporting Requirements, these
statements are in addition to the financial reports used to
monitor and control budgetary resources, which are pre-
pared from the same books and records.
	        The statements should be read with the understanding
that they represent a component of the U.S. Government,
a sovereign entity. One implication of this is that the li-
abilities presented herein cannot be liquidated without the
enactment of appropriations, and on-going operations are
subject to the enactment of future appropriations.




                                                                                                                   63
                        Principal Financial Statements
Commodity Futures Trading Commission



Balance Sheets
As of September 30, 2005 and 2004

 			                                                                                 2005		            2004


 ASSETS
 Intragovernmental:
 	     Fund Balance with Treasury (Note 3)		$ 23,464,887	                                     $	 26,304,227
 	     Accounts Receivable (Note 4)		                                              175,595		         22,806
 	     Total Intragovernmental		 23,640,482		 26,327,033

 Custodial Fines and Interest Receivable, Net (Note 4)		 28,663,845		 35,402,939
 Accounts Receivable (Note 4) 		                                                   10,332,		          9,457
 Property and Equipment, Net (Note 5)		                                           1,919,650		       489,638

 TOTAL ASSETS		$ 54,234,309	                                                                  $ 	62,229,067



 LIABILITIES
 Intragovernmental:
 	     FECA Liabilities	                                                     $	    138,496	   $	    194,102
 	     Accounts Payable		                                                           90,950		               -
 	     Total Intragovernmental		                                                   229,446		        194,102

 Accounts Payable		                                                               1,601,461		      1,025,643
 Accrued Funded Payroll		                                                         2,852,389		      2,282,462
 Annual Leave		                                                                   5,230,125		      4,797,304
 Actuarial FECA Liabilities (Note 8) 		                                            491,304		        514,932
 Custodial Liabilities		 28,663,845		 35,402,939
 Contingent Liabilities (Note 10)		                                                      -		        182,426
 Deposit Fund Liabilities		                                                         20,094		               -
 Total Liabilities		 39,088,664		 44,399,808

 Commitments and Contingencies (Notes 9 And 10)

 NET POSITION
 Cumulative Results of Operations		 (3,939,565)		 (5,199,126)
 Unexpended Appropriations		 19,085,210		 23,028,385
 Total Net Position		 15,145,645		 17,829,259

 TOTAL LIABILITIES AND NET POSITION	                                         $	 54,234,309	   $	 62,229,067


The accompanying notes are an integral part of these financial statements.




64
                                                                             FINANCIAL SECTION


Commodity Futures Trading Commission



Statements of Net Cost
For the Years Ended September 30, 2005 and 2004
	       	                                                                                          	       Unaudited
		                                                                                             2005	            2004


    GOAL ONE: Ensure the economic vitality of the commodity futures and option markets
    Intragovernmental Gross Costs	 $	                                                     5,839,022	  $	    4,297,937	
    Less: Earned Revenue		                                                                  (35,169)		        (10,605)
    Intragovernmental Net Cost of Operations		                                            5,803,853		       4,287,332

    Gross Costs With the Public		 28,301,068		 27,124,106
    Less: Earned Revenue		            (3,831)		    (9,032)
    Net Cost of Operations With the Public		 28,297,237		 27,115,074

    NET COST OF OPERATIONS - GOAL ONE		 34,101,090		 31,402,406



    GOAL 2: Protect market users and the public
    Intragovernmental Gross Costs		                                                       6,869,438		       5,245,515
    Less: Earned Revenue		                                                                  (41,375)		        (12,943)
    Intragovernmental Net Cost of Operations 		                                           6,288,063		       5,232,572

    Gross Costs With the Public		 33,295,374		 33,104,237
    Less: Earned Revenue		                                                                   (4,507)		        (11,023)
    Net Cost of Operations With the Public		 33,290,867		 33,093,214

    NET COST OF OPERATIONS - GOAL TWO		 40,118,930		 38,325,786



    GOAL 3: Ensure market integrity in order to foster open, competitive, and financially sound markets

    Intragovernmental Gross Costs		                                                       4,465,134		       3,621,020
    Less: Earned Revenue		                                                                  (26,894)		         (8,934)
    Intragovernmental Net Cost of Operations		                                            4,438,240		       3,612,086


    Gross Costs With the Public		 21,641,993		 22,852,109
    Less: Earned Revenue		                                                                   (2,929)		         (7,610)
    Net Cost of Operations With the Public		 21,639,064		 22,844,499

    NET COST OF OPERATIONS - GOAL THREE		 26,077,304		 26,456,585



    GRAND TOTAL
    Intragovernmental Gross Costs		 17,173,594		 13,164,472
    Less: Earned Revenue		                                                                 (103,438)		        (32,482)
    Intragovernmental Net Cost of Operations		 17,070,156		 13,131,990

    Gross Costs With the Public		 83,238,435		 83,080,452
    Less: Earned Revenue		                                                                  (11,267)		        (27,665)
    Net Cost of Operations With the Public		 83,227,168		 83,052,787

    TOTAL NET COST OF OPERATIONS	                                                     $	 100,297,324	   $	 96,184,777


The accompanying notes are an integral part of these financial statements.


                                                                                                                    65
 Commodity Futures Trading Commission



 Statements of Changes in Net Position
 For the Years Ended September 30, 2005 and 2004


 				                                                                                                                 Unaudited
 		                                                                   September 30, 2005		                      September 30, 2004

 		                                                     Cumulative Results	        Unexpended	        Cumulative Results	          Unexpended
 		                                                        Of Operations	         Appropriations	        Of Operations	           Appropriations	
 		
  BALANCES, OCTOBER 1	                                      $     (5,199,126)	    $    23,028,385	       $    (2,957,781)	    $       (23,550,666)


  BUDGETARY FINANCING SOURCES 	
   Appropriations:			
 	 Received	        -	 94,327,000	                                                                                       -	           90,435,000
   Less: Rescinded	 -	  (754,616)	                                                                                       -	            (533,567)
  Less: Canceled	                                                            -	          (289,267)	                      -	             (339,153)
  Used to Aquire and Provide
  Goods and Services	                                             97,226,292	         (97,226,292)	           90,084,561	          (90,084,561)


  OTHER FINANCING SOURCES
  Imputed Financing Sources	                                        4,330,593	                   -	            3,858,871	                       -
  Total Financing Sources	                                       101,556,885	          (3,943,175)	           93,943,432	               (522,281)

  Net Cost of Operations	                                       (100,297,324)	                   -	          (96,184,777)	                      -

  Net Change	                                                       1,259,561	         (3,943,175)	           (2,241,345)	               (522,281)

  BALANCES, SEPTEMBER 30	                                   $     (3,939,565)	    $    19,085,210	       $    (5,199,126) 	       $     23,028,385



The accompanying notes are an integral part of these financial statements.




66
                                                  FINANCIAL SECTION




Commodity Futures Trading Commission



Statements of Budgetary Resources
For the Years Ended September 30, 2005 and 2004
				                                                                               Unaudited
		                                                      2005	                          2004


 BUDGETARY RESOURCES
 Unobligated Balances, October 1	                          $	   1,395,503	    $	    9,340,776
 Recoveries of Prior Year Unpaid Obligations		                  6,920,117	           8,902,248
 Total Prior Resources		                                        8,315,620	          18,243,024
 New Resources:
 	   Appropriations		 94,327,000		 90,435,000
 	   Spending Authority from Offsetting Collections			
 	      Collected		                                               69,394	             554,529
 	      Change in Federal Receivables 		                         152,789	              22,806
 	   Total New Resources		 94,549,183	                                              91,012,335
 Permanently Not Available:
 	   Cancellation of Expired Accounts		                         (289,267)		          (339,153)
 	   Enacted Reduction		                                        (754,616)		          (533,567)

 TOTAL BUDGETARY RESOURCES	                                $	1 01,820,920 	   $	1 08,382,639



 STATUS OF BUDGETARY RESOURCES
 Obligations Incurred, Direct	                             $	 98,029,681 	    $	106,949,795
 Obligations Incurred, Reimbursable		                             22,698	              37,341
 	   Total Obligations Incurred 		 98,052,379	                                     106,987,136
 Unobligated Balance Apportioned		                               768,613	              38,613
 Unobligated Balance Not Available		                            2,999,928	           1,356,890

 TOTAL STATUS OF BUDGETARY RESOURCES	                      $	101,820,920	     $	108,382,639



 RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
 Net Obligated Balance, October 1
     Unpaid Obligations	                                   $	 24,931,530	     $	 19,713,939
     Uncollected Payments from Federal Sources		                 (22,806)	                     -
     Net Obligated Balance, October 1		 24,908,724		 19,713,939

 Gross Obligations Incurred		 98,052,379		106,987,136

 Gross Outlays		(96,211,945)		(92,867,297)

 Recoveries of Prior Year Unpaid Obligations		 (6,920,117)		 (8,902,248)

 Change in Federal Receivables 		                               (152,789)		           (22,806)




                                                                                               67
 Commodity Futures Trading Commission


 Statements of Budgetary Resources
 For the Years Ended September 30, 2005 and 2004 (continued)

                                                                                                     Unaudited
 			                                                                                  2005	              2004


     Net Obligated Balance, September 30
     	   Unpaid Obligations		 19,851,847		 24,931,530
     	   Uncollected Payments from Federal Sources		 (175,595)		 (22,806)
     	   Net Obligated Balance, September 30		 19,676,252		 24,908,724
     Unreconciled Differences	                                                $	           -	   $	             -



     NET OUTLAYS
     Gross Outlays	                                                           $	 96,211,945	    $ 	 92,867,297
     Offsetting Collections Received		                                             (69,394)	          (554,529)
     Distibuted Offsetting Reciepts		                                                (9,474)	           (13,541)

     NET OUTLAYS	                                                             $	 96,133,077	    $	 92,299,227


 The accompanying notes are an integral part of these financial statements.




68
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission


Statements of Financing
For the Years Ended September 30, 2005 and 2004

			                                                                                                       Unaudited
			                                                                                           2005		            2004


RESOURCES USED TO FINANCE ACTIVITIES
  Obligations Incurred	                                                              $	 98,052,379	     $	106,987,136
  Less: Spending Authority from Offsetting Collections and Recoveries	               $ 	 (7,142,300)	   $ 	(9,479,583)
  Net Obligations		 90,910,079		 97,507,553
  Offsetting Receipts		                                                                      (9,474)		       (13,541)
  Net Obligations After Offsetting Receipts		 90,900,605		 97,494,012

  Other Resources – Imputed Financing from Cost Absorbed by Others		                      4,330,593		 3,858,871
  Total Resources Used to Finance Activities		 95,231,198		101,352,883



  RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
  Offsetting Receipts		                                                                       9,474		          13,541
  Change in Undelivered Orders		                                                          6,316,378		 (7,483,065)
  Resources that Finance the Net Acquisition of Fixed Assets		 (1,472,567)		                                (196,857)
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations		          4,853,285		 (7,666,381)

  Resources Used to Finance the Net Cost of Operations		 100,084,483		 93,686,502



  COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
  GENERATE RESOURCES IN THE CURRENT PERIOD
  Decrease in Accounts Receivable from the Public (Refunds)		                                  (875)		               -
  Change in Unfunded Annual Leave, FECA Expenses and Contingent Liabilities		               171,161		 2,364,826
  Total Cost of Items That Will Generate Resources in Future Periods		                      170,286		 2,364,826



  COMPONETS NOT REQUIRING OR GENERATING RESOURCES
  Depreciation and Amortization		                                                           134,562		        128,239
  Contract Refund and Other		                                                              (92,007)		           5,210
  Total Components Not Requiring or Generating Resources		                                   42,555		        133,449


  NET COST OF OPERATIONS	                                                            $	 100,297,324	    $	 96,184,777


The accompanying notes are an integral part of these financial statements.




                                                                                                                         69
Commodity Futures Trading Commission



Statements of Custodial Activity
For the Years Ended September 30, 2005 and 2004

				                                                                                                Unaudited
			                                                                                  2005		             2004


 REVENUE ACTIVITY
 SOURCES OF CASH COLLECTIONS
      Registration and Filing Fees	                                          $	    742,133	    $	     768,130
      Fines, Penalties, and Forfeitures		 34,260,078		 122,468,925
      General Proprietary Receipts		                                                 9,474		           13,541
 Total Cash Collections		 35,011,685		 123,250,596
 Change in Custodial Fines and Interest Receivable		 (6,739,094)		 35,376,188
 Total Custodial Revenue		 28,272,591		 158,626,784



 DISPOSITION OF COLLECTIONS
 TRANSFERRED TO OTHERS, BY RECIPIENT:
      Transferred to Treasury		 (35,011,685)		(123,250,596)
      Change in Custodial Liabilities		                                           6,739,094		(35,376,188)

 NET CUSTODIAL ACTIVITY	                                                     $	          -	    $	           -


The accompanying notes are an integral part of these financial statements.




70
                                                                   FINANCIAL SECTION




Notes to the Financial Statements                             	   The financial statements report on the CFTC’s
As of and For the Fiscal Years Ended                          financial position, net cost of operations, changes in net
September 30, 2005 and 2004                                   position, budgetary resources, financing, and custodial
                                                              activities of the CFTC. The books and records of the
Note 1. Reporting Entity                                      agency served as the source of information for preparing
The Commodity Futures Trading Commission (CFTC)               the financial statements in the prescribed formats. All
is an independent agency of the executive branch of the       agency financial statements and reports used to monitor
Federal Government. Congress created the CFTC in 1974         and control budgetary resources are prepared from the
under the authorization of the Commodity Exchange Act         same books and records. The statements should be read
with the mandate to regulate commodity futures and op-        with the understanding that they are for a component of
tion markets in the United States. The agency’s mandate       the U.S. Government, a sovereign entity.
was renewed and expanded under the Futures Trading Acts       	   The Balance Sheets present the financial position
of 1978, 1982, and 1986; under the Futures Trading Prac-      of the agency. The Statements of Net Cost present the
tices Act of 1992; and under the CFTC Reauthorization         agency’s operating results, the Statements of Changes in
Act of 1995. The Commodity Futures Modernization Act          Net Position display the changes in the agency’s equity
of 2000 reauthorized the Commission through FY 2005.          accounts. The Statements of Budgetary Resources pres-
Since its inception, the CFTC has continuously operated       ent the sources, status, and uses of the agency’s resources
through authorized appropriations.                            and follows the rules for the Budget of the United States
	   The CFTC is responsible for ensuring the economic         Government. The Statements of Financing present the
utility of futures markets by encouraging their competi-      reconciliation of the agency’s use of budgetary resources
tiveness and efficiency, ensuring their integrity, and pro-   with its operating results. The Statements of Custodial
tecting market participants against manipulation, abusive     Activity present the sources and disposition of collections
trade practices, and fraud.                                   for which the CFTC is the fiscal agent, or custodian, for the
                                                              Treasury General Fund Miscellaneous Receipt accounts.
Note 2. Summary of Significant Accounting Policies
A. Basis of Presentation                                      B. Budgetary Resources and Status
                                                              The CFTC is funded through Congressionally approved
The financial statements have been prepared to report
                                                              appropriations. The CFTC is responsible for administering
the financial position and results of operations for the
                                                              the salaries and expenses of the agency through the execu-
CFTC, as required by the Chief Financial Officers’ Act of
                                                              tion of these appropriations.
1990 along with the Accountability of Tax Dollars Act of
2002, and the Government Management Reform Act of             	   For these annual statements, there is no material dif-
1994. They are presented in accordance with the form          ference between the Statement of Budgetary Resources and
and content requirements contained in Office of Man-          related budgetary information reported to OMB, or in the
agement and Budget (OMB) Circular A-136, “Financial           alignment to the Budget of the U.S. Government.
Reporting Requirements.”                                      	   Congress annually enacts one-year appropriations
	   The financial statements have been prepared from          that provide the CFTC with the authority to obligate
the agency’s books and records in conformity with gener-      funds within the respective fiscal year for necessary
ally accepted accounting principles in the United States      expenses to carry out mandated program activities. In
of America as prescribed for the federal government           addition, Congress enacted a permanent indefinite ap-
by the Federal Accounting Standards Advisory Board            propriation that is available until expended. All appro-
(FASAB), promulgated by the Office of Management and          priations are subject to quarterly apportionment as well
Budget (OMB), and the agency’s accounting policies as         as Congressional restrictions.
summarized in this note.




                                                                                                                            71
CFTC’s budgetary resources for FY 2005 consist of:              E. Accounts Receivable
• U
   nobligated balances of resources brought forward            Accounts receivable consists of amounts owed by other
     from the prior year,                                       federal agencies and the public to the CFTC and is valued
• Recoveries of obligations in prior years, and                 net of an allowance for uncollectible amounts. The al-
• N
   ew resources in the form of appropriations and              lowance is based on past experience in the collection
     spending authority from offsetting collections.            of receivables and analysis of the outstanding balances.
	      Unobligated balances associated with resources           Accounts receivable arise from reimbursable operations,
expiring at the end of the fiscal year remain available for     earned refunds or the Civil Monetary Sanctions program.
five years after expiration only for upward adjustments of      (See Note 4.)
prior year obligations, after which they are canceled and       F. Property and Equipment
may not be used. All unused monies related to canceled
                                                                Property and equipment represents furniture, fixtures,
appropriations are returned to Treasury and the canceled
                                                                equipment, and information technology hardware and soft-
authority is reported as a line item on the Statements of
                                                                ware, which are capitalized and depreciated or amortized
Budgetary Resources and the Statements of Changes in
                                                                over their useful lives.
Net Position.
                                                                	     The CFTC capitalizes assets annually if they have
C. Entity and Non-Entity Assets                                 useful lives of at least two years and an individual value of
Assets consist of entity and non-entity assets. Entity assets   $25,000 or more. Bulk or aggregate purchases are capital-
are those assets that the CFTC has authority to use for its     ized when the individual useful lives are at least two years
operations. Non-entity assets are those held by the CFTC        and a value of $25,000 or more. Property and equipment
that are not available for use in its operations. Non-entity    that does not meet the capitalization criteria are expensed
assets held by the CFTC include deposit fund balances and       when acquired. Depreciation and amortization is computed
custodial fines and interest receivable, net.                   on a straight-line basis using a five-year life. Agency assets
                                                                are valued net of accumulated depreciation. (See Note 5.)
D. Fund Balance with Treasury
Fund Balance with Treasury is the aggregate amount of the       G. Liabilities
CFTC’s funds with Treasury in expenditure, receipt, and         The CFTC’s liabilities consist of actual and estimated
deposit fund accounts. Appropriated funds recorded in           amounts that are likely to be paid as a result of transac-
expenditure accounts are available to pay current liabilities   tions; that are covered by budgetary resources for which
and finance authorized purchases. Custodial collections         Congress has appropriated funds or funding, or are
recorded in the deposit fund account and miscellaneous          otherwise available from reimbursable transactions to pay
receipts accounts of the Treasury are not available for         amounts due.
agency use. At fiscal year end, receipt account balances are    	     Liabilities include those covered by budgetary re-
cleared and returned to Treasury.                               sources in existing legislation and those not covered by
	      The CFTC does not maintain bank accounts of its          budgetary resources (See Note 6). The CFTC liabilities not
own, has no disbursing authority, and does not maintain         covered by budgetary resources include:
cash held outside of Treasury. Treasury disburses funds for     • D
                                                                   eposit funds,
the agency on demand. Spending authority from offsetting        • C
                                                                   ontingent liabilities,
collections is recorded in the agency’s expenditure account     • A
                                                                   ctuarial Federal Employees Compensation Act (FECA)
and is available for agency use subject to certain limita-          liabilities,
tions. (See Note 3.)                                            • A
                                                                   nnual leave benefits which will be funded by annual
                                                                    appropriations as leave is taken,




72
                                                                       FINANCIAL SECTION




• C
   ustodial liabilities for custodial revenue transferred to   determination or investigation. The CFTC deposit fund is
    Treasury at fiscal year end.                                used to record and later distribute monetary awards to the
	     The CFTC’s liabilities that are covered by budgetary      appropriate defendants as restitution.
resources are considered current liabilities.
                                                                K. Net Position
H. Accounts Payable                                             Net position consists of unexpended appropriations and
Accounts payable consists primarily of contracts for            cumulative results of operations.
goods or services, such as leases, utilities, telecommuni-      	     Unexpended appropriations are appropriations that
cations, and consulting and support services. Accounts          have not yet been used to acquire goods and services or
payable to other Federal agencies are designated as             provide benefits. Appropriations are considered expended,
“intragovernmental.”                                            or used, when goods and services have been acquired by
                                                                the CFTC or benefits have been provided using the ap-
I. Accrued Payroll and Benefits and Annual Leave
                                                                propriation authority, regardless of whether monies have
Liability
                                                                been paid or payables for the goods, services, or benefits
The accrued payroll liability represents amounts for sala-
                                                                have been established. Appropriations were used primar-
ries and benefits owed for the time since the payroll was
                                                                ily to acquire goods and services to operate the CFTC’s
last paid through the end of the fiscal year. The annual
                                                                programs or to provide benefits.
leave liability is the amount owed employees for unused
                                                                	     Cumulative results of operations represent the excess
annual leave as of the end of the fiscal year. At the end of
                                                                of financing sources over expenses since inception. Cumu-
each fiscal year, the balance in the accrued annual leave
                                                                lative results of operations are derived from the net effect
account is adjusted to reflect current balances and pay
                                                                of capitalized assets, expenses, exchange revenue, and
rates. Sick leave and other types of non-vested leave are
                                                                unfunded liabilities.
expensed as taken.
	     The agency’s employees participate in the Civil Ser-      L. Revenues
vice Retirement System (CSRS) or the Federal Employees’         The CFTC receives reimbursement and earns revenue for
Retirement System (FERS). On January 1, 1987, FERS went         the following activities:
into effect pursuant to Public Law 99-335. Most employ-         • R
                                                                   eimbursement for travel, subsistence, and related
ees hired after December 31, 1983, are automatically cov-           expenses from federal and non-federal sources for atten-
ered by FERS and Social Security. Employees hired prior to          dance at meetings or similar functions that an employee
January 1, 1984, could elect to either join FERS and Social         has been authorized to attend in an official capacity on
Security or remain in CSRS.                                         behalf of the Commission.
	     For employees under FERS, the CFTC contributes            • R
                                                                   eimbursement for Intergovernmental Personnel Act
an amount equal to one percent of the employee’s basic              Mobility Program assignments from state and local gov-
pay to the tax deferred thrift savings plan and matches             ernments, institutions of higher education, and other
employee contributions up to an additional four percent             eligible organizations for basic pay, supplemental pay,
of pay. FERS employees can contribute 15 percent of their           fringe benefits, and travel and relocation expenses.
gross earnings to the plan. CSRS employees are limited to       • R
                                                                   eimbursement from non-federal sources for registra-
a contribution of 10 percent of their gross earnings and            tion fees to cover the cost of expenses related to the
receive no matching agency contribution.                            CFTC’s annual International Regulators Conference.

J. Deposit Funds                                                M. Net Cost of Operations
Deposit funds are expenditure accounts used to record           Net cost of operations is the difference between the
monies that do not belong to the Federal government.            CFTC’s expenses and its earned revenue. The presenta-
They are held awaiting distribution based on a legal            tion of program results by strategic goals is based on




                                                                                                                              73
the CFTC’s current Strategic Plan established pursuant         which will generate or use resources in a future period,
to the Government Performance and Results Act (GPRA)           such as benefits expense resulting from the increase in
of 1993.                                                       annual leave liability, which is accrued for purposes of
	      The mission statement of the CFTC is to protect         the Statements of Net Cost, but is not funded until leave
market users and the public from fraud, manipulation,          is taken.
and abusive practices related to the sale of commodity and
                                                               P. Custodial Activity
financial futures and options, and to foster open, competi-
                                                               The CFTC collects penalties and fines levied against firms
tive, and financially sound futures and option markets.
                                                               for violation of laws as described in the Commodity
The mission is accomplished through three strategic goals,
                                                               Exchange Act as codified at 7 U.S.C. § 1, et seq., and the
• E
   nsure the economic vitality of the commodity futures
                                                               Commodity Futures Modernization Act of 2000, Appendix
     and option markets.
                                                               E of PL.106-554, 114 Stat. 2763. Unpaid fines, penalties
• P
   rotect market users and the public.
                                                               and accrued interest are reported as custodial receivables,
• E
   nsure market integrity in order to foster open, com-
                                                               with an associated custodial liability. The receivables and
     petitive, and financially sound markets.
                                                               the liability are reduced by losses determined to be uncol-
N. Gross Costs and Earned Revenue by Budget                    lectible. Revenues earned and the losses from bad debts
Functional Classification                                      are reported to Treasury.
The CFTC’s gross costs, earned revenue, and intragovern-       	    Collections made by CFTC during the year are depos-
mental transactions align with the three strategic goals       ited and reported into designated Treasury miscellaneous
based on the agency mission statement related to protect-      receipt accounts for:
ing market users and the public.                               • R
                                                                  egistrations and filing fees,
                                                               • F ees, fines, penalties and forfeitures, and
O. Reconciliation of Net Obligations and Net
                                                               • G
                                                                  eneral miscellaneous recoveries and refunds.
Cost of Operations
                                                               	    At fiscal year end, custodial collections made by CFTC
	      The Statements of Financing reconcile the net obliga-
                                                               are returned to Treasury. The CFTC does not retain any
tions with the net cost of operations. Net obligations,
                                                               amount for custodial activities including reimbursement
reported on the Statements of Budgetary Resources, are
                                                               of the cost of collection.
calculated by subtracting downward adjustments of prior-
period obligations and offsetting collections from gross       Q. Use of Management Estimates
obligations. The net cost of operations, reported on the       The preparation of the accompanying financial state-
Statements of Net Cost represents the difference between       ments in accordance with accounting principles generally
gross costs and earned revenue.                                accepted in the United States requires management to
	      Other resources used to finance activity, such as im-   make certain estimates and assumptions that directly af-
puted costs from the Statements of Changes in Net Posi-        fect the results of reported assets, liabilities, revenues, and
tion, are added to net obligations to derive total resources   expenses. Actual results could differ from these estimates.
used to fund activities. Resources used to finance items
not part of the net cost of operations, such as undelivered    R. Tax Status
orders are added to the reconciliation.                        The CFTC is not subject to Federal, State or local income
	      The reconciliation is finalized by adding in items      taxes. Accordingly, no provision for income taxes is recorded.
in the net cost of operations that do not generate or use
resources in the current period. This includes costs and
earned revenues which will never generate or use resourc-
es, such as depreciation expense. This also includes those




74
                                                               FINANCIAL SECTION




Note 3. Fund Balance with Treasury

A. Reconciliation to Treasury:
There are no differences between the Fund Balance re-
flected in the CFTC Balance Sheets and the balance in the
Treasury accounts.

B. Fund Balances:
Fund Balances with Treasury consist of entity assets such
as appropriations and reimbursements for services ren-
dered. Obligation of these funds is controlled by quarterly
apportionments made by the OMB. Work performed
under reimbursable agreements is initially financed by the
annual appropriation and is subsequently reimbursed.
Other funds include non-entity deposit fund receipts.
	       Fund Balance with Treasury at September 30, 2005
and 2004, consisted of the following:


    			                                                                         2005		            2004


    Appropriated Funds	                                                $ 	 23,444,793	   $ 	 26,304,227


    Other Funds:
    Deposit Funds		                                                           20,094		                -

    TOTAL FUND BALANCE WITH TREASURY	                                  $	 23,464,887	    $	 26,304,227



    C. Status of Fund Balance with Treasury:
    The Status of Fund Balance with Treasury at
    September 30, 2005 and 2004, consisted of the following:

    		
    			                                                                         2005		            2004


    Appropriated Funds
    Unobligated Fund Balance
    -Available	                                                        $	    756,075	    $	     16,360
    -Expired		                                                                12,538		          22,253
    -Unavailable		                                                          2,999,928		       1,356,890
    Obligated Balance Not Yet Disbursed		 19,676,252		 24,908,724

    Deposit Fund		                                                            20,094		                -

    TOTAL FUND BALANCE WITH TREASURY	                                  $	 23,464,887	    $	 26,304,227




                                                                                                      75
Note 4. Accounts Receivable                                       	   Historical experience has indicated that a high per-
Accounts receivable consist of amounts owed to the CFTC           centage of custodial receivables prove uncollectible. The
by other Federal agencies and the public. Accounts receiv-        methodology used to estimate the allowance for uncollect-
able are valued net of estimated uncollectibles. Non-custo-       ible amounts related to custodial accounts is that custo-
dial accounts receivable are primarily for overpayments of        dial receivables are considered 100 percent uncollectible
expenses to other agencies, or vendors, and repayment of          unless otherwise noted in the judgment. An allowance for
employee benefits. Historical experience has indicated that       uncollectible accounts has been established and included
most of the non-custodial receivables are collectable and         in accounts receivable on the balance sheet. The allowance
there are no material uncollectible amounts.                      is based on past experience in the collection of accounts
	       Custodial receivables (non-entity assets) are those for   receivable and analysis of outstanding balances. Accounts
which fines and penalties have been assessed and levied           are reestimated quarterly based on account reviews and
against businesses for violation of law. The CFTC litigates       the agency determination that changes to the net realiz-
against defendants for alleged violations of the CEA, as          able value are needed.
amended. Violators may be subject to a variety of sanc-           	   Accounts receivable, as of September 30, 2005 and
tions including fines, injunctive orders, bars or suspen-         2004, consisted of the following:
sions, rescissions of illegal contracts, disgorgements, and
restitutions to customers.


			                                                                                            2005		                  2004


    Intragovernmental Accounts Receivable 	                                          $	     175,595	          $	      22,806

    Custodial Fines and Interest Receivables, Net:
    	   Civil Monetary Penalty Interest	                                             $	    2,501,590	         $	 65,253,060
    	   Less: Allowance for Loss on Interest 		 (2,290,056)		(65,253,060)
    	   Civil Monetary Penalties, Fines, and Administrative Fees		 328,168,373		 465,735,791
    	   Less: Allowance for Loss on Penalties, Fines and Administrative Fees		(299,716,062)	                   (	430,332,852)
    	   Net Custodial		 28,663,845		 35,402,939
    Other		                                                                                  10,332		                  9,457


    Total Accounts Receivable With the Public	                                       $	 28,674,177	           $	 35,412,396




76
                                                                         FINANCIAL SECTION




Note 5. Property and Equipment, Net
Assets are capitalized annually if they have useful lives of
at least two years and an individual value of $25,000 or
more. Bulk or aggregate purchases are capitalized when
the individual useful lives are at least two years and a
value of $25,000 or more. Depreciation and amortization
is computed on a straight-line basis using a five-year life.
The CFTC did not defer any maintenance in FY 2005 and
FY 2004. Property and equipment, net, as of September
30, 2005 and 2004, consisted of the following:


	 2005 			                                                                          Accumulated
		                                    		                                            Amortization/
  Major Class	 Service Life and Method	 Cost	                                        Depreciation	   Net Book Value


 Equipment		              5 Years/Straight Line	               $	 562,894	           $	 176,878	      $	     386,016
 IT Software		            5 Years/Straight Line	               $	 1,580,271	         $	  46,637	      $	   1,533,634
 Total Property and Equipment		                                $	 2,143,165	         $	 223,515	      $	   1,919,650


 2004					                                                                          Accumulated			
 						                                                                             Amortization/
 Major Class		 Service Life and Method		 Cost	                                       Depreciation	 Net Book Value


 Equipment		              5 Years/Straight Line	               $	   428,040	         $	  87,830	      $	    340,210
 IT Software		            5 Years/Straight Line	               $	   284,301	         $	 134,873	      $	    149,428
 Total Property and Equipment		                                $	   712,341	         $	 222,703	      $	    489,638



 Note 6. Liabilities Not Covered by Budgetary Resources
 As of September 30, 2005 and 2004, the following
 liabilities not covered by budgetary resources exist:


 			                                                                                         2005		           2004


 Intragovernmental-FECA	                                                       $	       138,496	     $	      194,102


 Annual Leave	                                                                        5,230,125	           4,797,303
 Actuarial FECA	                                                                        491,304	             514,932
 Contingent Liabilities	                                                                       -	            182,426
 Deposit Fund	                                                                           20,094	                       -

 TOTAL LIABILITIES NOT COVERED BY BUDGETARY RESOURCES	                         $	     5,880,019	     $	    5,688,764




                                                                                                                   77
 Note 7. Retirement Plans and Other Employee                     utilizes historical benefits payment patterns related to a
 Benefits                                                        specific incurred period to predict the ultimate payments
 The CFTC imputes costs and the related financing source         related to that period. The projected annual benefits
 for its share of retirement systems accruing to its past and    payments are discounted to present value using OMB’s
 present employees that are in excess of the amount of           economic assumptions for ten-year Treasury notes and
 contributions from the CFTC and its employees, which are        bonds. To provide more specifically for effects of infla-
 mandated by law. The Office of Personnel Management             tions on liability for FWC benefits, wage inflation factors
 (OPM), which administers Federal civilian retirement            (Consumer Price Index-Medical) are applied to the calcu-
 programs, provides the cost information to the CFTC. The        lation of projected future benefits. These factors are also
 CFTC recognizes the full cost of providing future pension       used to adjust historical payment so benefits are stated in
 and Other Retirement Benefits (ORB) for current employ-         current-year constant dollars.
 ees as required by SFFAS No. 5, Accounting for Liabilities of
                                                                 Note 9. Leases
 the Federal Government.
                                                                 The CFTC leases office space in publicly owned buildings
 	    Full costs include pension and ORB contributions
                                                                 for its locations in Washington D.C., Chicago, New York,
 paid out of the CFTC’s appropriations and costs financed
                                                                 Minneapolis, and Kansas City. The lease contracts for pub-
 by OPM. The amount financed by OPM is recognized as
                                                                 licly-owned buildings are operating leases. The CFTC has
 an imputed financing source. Reporting amounts such as
                                                                 no real property. Future lease payments are not accrued as
 plan assets, accumulated plan benefits, or unfunded li-
                                                                 liabilities and are expensed as incurred.
 abilities, if any, is the responsibility of OPM.
                                                                 	      As of September 30, 2005, future estimated mini-
 	    Liabilities for future pension payments and other
                                                                 mum lease payments through FY 2010, and thereafter, are
 future payments for retired employees who participate in
                                                                 as follows:
 the Federal Employees Health Benefits Program (FEHBP)
 and the Federal Employees Group Life Insurance Program
                                                                 	 Fiscal Year	                                         Dollars
 (FEGLI) are reported by OPM rather than the CFTC.
                                                                 	   2006	                                       $ 10,926,612
 Note 8. Actuarial FECA Liabilities                              	   2007	                                         11,343,178
                                                                 	   2008	                                         11,654,861
 The Federal Employees Compensation Act (FECA) pro-
                                                                 	   2009	                                         11,942,110
 vides income and medical cost protections to covered            	   2010	                                         12,207,780
 federal civilian employees injured on the job, to em-           	   Thereafter	                                   40,996,482
 ployees who have incurred work-related occupational
                                                                 	 TOTAL FUTURE MINIMUM LEASE PAYMENTS	 $ 99,071,023
 diseases and to beneficiaries of employees whose deaths
 are attributable to job-related injuries or occupational
                                                                 Note 10. Contingent Liabilities
 diseases. The FECA program is administered by the U.S.
                                                                 	      The CFTC records contingent liabilities for cases in
 Department of Labor (DOL), which pays valid claims
                                                                 which payment has been deemed probable and for which
 against the Department and subsequently seeks reim-
                                                                 the amount of potential liability has been estimated,
 bursement from the Department for these paid claims.
                                                                 including certain judgments that have been issued against
 Accrued FECA liabilities represent amounts due to DOL
                                                                 the agency and which have been appealed. In FY 2004, the
 for claims paid on behalf of the agency.
                                                                 U.S. District Court held the CFTC liable for $182,425 for
 	    Actuarial FECA liability represents the liability for
                                                                 violation of the Equal Access to Justice Act and a contin-
 future workers compensation (FWC) benefits, which
                                                                 gent liability was established. In FY 2005, the U.S. District
 includes the expected liability for death, disability,
                                                                 Court found in favor of the CFTC and the contingent
 medical, and miscellaneous cost for approved cases.
                                                                 liability was terminated. As of September 30, 2005, no
 The liability is determined using a formula provided by
                                                                 contingent liabilities exist.
 DOL annually as of September 30th using a method that


78
                                                                   FINANCIAL SECTION




    Required Supplementary Information

Detailed Information on Intragovernmental Amounts
Intragovernmental assets and liabilities as of September 30, 2005 and 2004 consisted of the following:

		
			                                                                                      2005		                  2004


Assets:
Fund Balance with Treasury	                                                     $	 23,464,887	           $	 26,304,227



ACCOUNTS RECEIVABLE:
Postal Service		                                                                           446		                     -
Department of Treasury 		                                                              175,149		                     -
Executive Office of the President		                                                           -		              22,806

Total Intragovernmental Assets	                                                 $	 23,640,482	           $	 26,327,033



Liabilities:
Department of Labor (FECA)	                                                     $	     138,496	          $	   194,102



ACCOUNTS PAYABLE:
General Services Administration	                                                $	      51,491		                     -
Government Printing Office		                                                             2,451		                     -
Department of Treasury		                                                                11,070		                     -
Department of Agriculture		                                                             16,250		                     -
Department of Health and Human Services		                                                2,352		                     -	
Library of Congress		                                                                    1,200		                     -
Federal Reserve Board		                                                                  6,136		                     -
   Total Accounts Payable		                                                             90,950		                     -

Total Intragovernmental Liabilities 	                                           $	     229,446	          $	   194,102




                                                                                                                     79
     A Report of the Independent Auditors




80
          FINANCIAL SECTION




Financial Details




                              81
82
          FF II N
                N AA N
                     NCC II AA LL S
                                  DEEC
                                     TATIL
                                         OSN




Financial Details




                                               83
84
          FINANCIAL SECTION




Financial Details




                              85
86
FINANCIAL SECTION




                    87
88
FINANCIAL SECTION




                    89
90
          FINANCIAL SECTION




Financial Details




                              91
92
                                                                    FINANCIAL SECTION




          Other Statutorily Required Reports


Credit Management and Debt Collection                          to provide a framework for enhancing the effectiveness of
Improvement Act                                                information security in the Federal government. FISMA
                                                               also provides a mechanism for effective oversight of Fed-
The CFTC has designed and implemented a comprehen-
                                                               eral agency information security programs. In Fiscal Year
sive debt collection program that enables us to effectively
                                                               2005, OMB introduced a new privacy management section
administer our multimillion-dollar civil monetary sanc-
                                                               of FISMA reporting, which removes privacy compliance
tions program. The debt collection program covers ac-
                                                               reporting from the annual E-Government Act report to the
count servicing, collection, and close-out and it conforms
                                                               annual FISMA report. FISMA requires system owners to
to the government-wide policies in the Federal Claims
                                                               annually review certification and accreditation status of all
Collection Standards, the OMB Circular A-129, and the
                                                               systems, including those that are accredited (i.e., granted
Debt Collection Improvement Act.
                                                               an approval to operate).
	   The Commission has $28.7 million in outstanding
civil monetary sanctions which accounts for almost 100
percent of its outstanding debt. The other category of debt    E-Government Act of 2002
that it manages, other administrative debt, is negligible.     Each year OMB reports to Congress, a summary of the in-
As of September 30, 2005 the CFTC has forwarded ap-            formation reported by agencies. In 2005, the Commission
proximately 95 percent of all debts eligible for referral to   provided a brief overview of our process for determining
Treasury for servicing.                                        which information will be made available on the Internet
                                                               as well as our implementation accomplishments.
Federal Information Security Management                        	   In FY 2005, the CFTC made significant progress
Act and Agency Privacy Management                              toward implementation of the policies and best practices
The Commission is in substantial compliance with the           published by the Interagency Committee on Govern-
Federal Information Security Management Act of 2002            ment Information as required by Section 207(f)(2) of the
(FISMA) also known as Title III of the E-Government Act        E-Government Act of 2002. Specifically, CFTC compiled
of 2002. FISMA requires each Federal agency to provide         and published a Web site inventory; established a privacy
information security for its information technology assets.    policy in machine-readable format for visitors to the Web
Our Independent Auditors’ Report disclosed one instance        site; completed the administration and publication of
of noncompliance with FISMA. The purpose of FISMA is           CFTC forms to the new government-wide forms portal;




                                                                                                                             93
 and upgraded its search engine to provide improved cus-            	   eLearning. The CFTC offers on-line training consis-
 tomer functionality and internal reporting capabilities. In        tent with the eLearning initiative and in FY 2005 started
 an effort to gather essential information about customer           planning to broaden the range of on-line course offerings.
 satisfaction, CFTC entered into an agreement with the              	   Enterprise Human Resources Integration (EHRI).
 Federal Consulting Group and its partner, Foresee Results          In FY 2005, CFTC participated in the planning activities
 Inc., to publish a survey to the www.CFTC.gov Web site.            for the e-Government services that are in the development
 This survey is providing valuable information on customer          stage for the EHRI project, including imaging CFTC em-
 needs and behaviors for on-going enhancements to the               ployee personnel records. Our staff has also contributed to
 Web site. The CFTC has a long-standing policy of placing           the development of the related e-Payroll and HR Line of
 as much information as possible and practicable on its             Business projects.
 Web site.                                                          	   Financial Education Web site. Through a partnership
 	    One noteworthy highlight was implementation of an             with 19 other Federal agencies, the CFTC helped launch
 automated strategic workforce planning system. Support             a new financial education Web site and toll-free hotline
 by agency senior leadership of a more transparent and              number. The www.mymoney.gov Web site and the 1-888-
 participative approach to resource management guided               mymoney toll-free hotline were established to provide
 the selection of an on-line survey that drew on the collec-        Americans easily access to information that can help them
 tive expertise of all employees to inventory the mission-          save, invest, and manage their money wisely to meet im-
 critical competencies needed over the life of the CFTC             portant personal goals.
 strategic plan.


 The Commission Participated in Several
 E-Gov Initiatives During FY 2005.
 Personnel Security e-Clearance. In FY 2005, CFTC
 implemented a 100 percent electronic Personnel Security
 and Suitability process with the installation of electronic
 fingerprinting units in its Chicago, Washington, D.C.,
 Kansas City and New York offices. CFTC now electroni-
 cally captures and transmits fingerprints as part of the
 required background investigations conducted by the
 OPM. This equipment is certified by the FBI in compliance
 with the FBI’s Integrated Automated Fingerprint Identifica-
 tion System. This technology significantly improved the
 satisfactory classification rate of fingerprints, as well as the
 timeliness in processing and receiving results of finger-
 print checks.
 	    Financial Management. In FY 2005, CFTC selected an
 OMB-approved Financial Management Center of Excel-
 lence and initiated the migration process. This migration
 will be completed in FY 2006.
 	    Travel Management. In FY 2005, CFTC initiated
 migration to an electronic travel system solution through
 an OMB-approved Financial Management Center of Excel-
 lence and initiated the migration process. This migration
 will be completed in FY 2006.


94
FINANCIAL SECTION




                    95
     APPENDICES




96
                                                                                                         APPENDICES




                                                                    Appendices


Inspector General’s Assessment of Management Challenges .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 98




Enforcement Litigation by Strategic Goal One.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 102




Enforcement Litigation by Strategic Goal Two . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 106




Enforcement Litigation by Strategic Goal Three .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 113




Glossary of Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 115




                                                                                                                                                                                          97
     Inspector General’s Assessment
       of Management Challenges




98
APPENDICES




             99
100
APPENDICES




             101
      Enforcement Litigation for Goal One


 Litigation by Goal One                                           managers, Jack McCaffery of North Platte and John D.
                                                                  Lawless of Imperial, to report phony sales of feeder cattle
 Goal One: Ensure the economic vitality of the com-               to the U.S. Department of Agriculture (USDA). Accord-
 modity futures and option markets.                               ing to the complaint, the USDA included these sales in
 Manipulation Attempted Manipulation & False Report-              its public cash market feeder cattle report, which the
 ing. Manipulation investigations and litigations tend to be      CME used to price the CME’s Feeder Cattle Index, which
 among the most complex and resource-intensive matters            ultimately determined the final settlement price for the
 handled by Enforcement staff. During FY 2005, the Com-           October 2003 Feeder Cattle futures contract. Accord-
 mission’s Enforcement program’s efforts in this program          ing to the complaint, the reports of phony sales caused
 area are reflected in its handling of alleged misconduct in      an increase of $2.85 in the final settlement price of the
 the feeder cattle and energy markets.                            CME’s October 2003 feeder cattle contract, to $106.98
 	    Potential Cattle Market Misconduct - CFTC v.                per hundredweight of feeder steers. The Commission
 DeLay, et al., No. 05C 5619 (N.D.Ill. filed Sept. 29,            lawsuit also alleges that, as part of the manipulation
 2005). On September 29, 2005, the Commission filed an            scheme, Delay violated CFTC-approved speculative posi-
 action charging Todd J. Delay, a futures broker located in       tion limits for the Feeder Cattle futures contract, in that
 Columbus, Ohio, with engaging in a scheme to manipu-             Delay and other trading accounts he controlled bought
 late the price of the October 2003 Feeder Cattle futures         twice as many contracts as permitted, all of which ben-
 contract traded at the CME. The futures contracts at issue       efited from the rise in futures prices. The Commission
 involve “feeder cattle” as defined in the CME contract,          received invaluable assistance throughout the investiga-
 which are young steers that are sent to feedlots for             tion from the CME’s Market Regulation Department.
 finishing into “fed” or “fat” cattle that, in turn, are sent     	   Potential Energy Market Misconduct. During FY
 to packers for slaughter. Futures contracts enable cattle        2005, the Commission’s Enforcement program contin-
 producers, meat packers, bulk beef purchasers and others         ued its rigorous investigation of the energy industry to
 to manage their price risk more effectively, and foster          determine whether any companies and individuals had
 price discovery in the livestock industry. The Commission        engaged in any conduct violative of the CEA. In particu-
 action charges that Delay caused Feeder Cattle futures           lar, the Enforcement program investigated conduct that
 contracts to trade at an artificially high price at the end of   potentially involved false reporting of natural gas trading
 October 2003 by conspiring with two Nebraska feedlot             to companies that compile and publish natural gas index




102
                                                                         APPENDICES




prices for delivery hubs throughout the U.S. and/or at-           Previously Filed Administrative Case Resulting in Sanc-
tempts to manipulate and/or manipulation of natural gas           tions During FY 2005 - CFTC v. American Electric Power
index prices.                                                     Company and AEP Energy Services, Inc., No. 2:03-cv-891, Fi-
	     As a result of extensive investigative work in this area,   nal Judgment and Consent Order (S.D.Ohio filed Jan. 26,
during FY 2005, the Commission achieved significant suc-          2005). On January 26, 2005, the Commission settled an
cess (see discussion below) including: filing a total of 10       action brought on September 30, 2003, against American
enforcement actions; achieving significant litigation results     Electric Power Company, Inc. (AEP) and AEP Energy Ser-
in one action filed in this practice area during the previous     vices, Inc. (AEPES), a subsidiary of AEP. The Final Judgment
fiscal year; and achieving a significant victory in a related     and Consent Order requires the defendants to pay a $30
subpoena enforcement action.                                      million civil monetary penalty in settlement of charges that
                                                                  defendants falsely reported natural gas trades and attempt-
Administrative Cases Against Energy Companies                     ed to manipulate natural gas prices. In addition, in related
Filed During FY 2005                                              actions, AEPES agreed to pay an additional $30 million to
• In re Mirant Americas Energy Marketing LP, CFTC Docket         the DOJ to avoid federal criminal prosecution, and $21 mil-
    No. 05-05 (CFTC filed Dec. 6, 2004). On December 6,           lion to the Federal Energy Regulatory Commission.
    2004, the Commission simultaneously instituted and            	     Individual Energy Trader Enforcement Actions.
    settled an action against Mirant Americas, a wholly           During FY 2005, the Commission filed seven enforcement
    owned subsidiary of Mirant Corporation, charging it           actions charging a total of 16 individual energy traders
    with attempted energy marketing manipulation and false        and charging them with false reporting and attempted
    reporting in connection with its false reports of informa-    manipulation. All the individual defendants are or were
    tion concerning natural gas transactions to price compil-     natural gas traders working for various energy compa-
    ing publications. The order requires Mirant Americas to       nies, which are identified below (and most of which were
    cease and desist from further violations as charged and       previously sued by the Commission). The traders are
    imposes a $12.5 million civil monetary penalty.               charged with submitting reports to various natural gas
• In re Cinergy Marketing & Trading, LP, CFTC Docket No.         price compilers, including Gas Daily, Inside FERC, Natural
    05-03 (CFTC filed Nov. 16, 2004). On November 16,             Gas Intelligence, Btu Daily and Natural Gas Week, that
    2004, the Commission simultaneously instituted and            contained false information such as fictitious trades or the
    settled an action against Cinergy Marketing & Trading,        alteration of price or volume for actual executed trades, all
    LP (Cinergy) charging it with false reporting of trade        in an attempt to manipulate prices.
    information concerning natural gas transactions to two        • CFTC v. Whitney, No. H-05-333 (S.D.Tex. filed Feb. 1,
    price compiling publications. The order requires Cinergy          2005). On February 1, 2005, the Commission filed an
    to cease and desist from further violations as charged and        action charging that Michael Whitney, formerly an energy
    imposes a civil monetary penalty of $3 million.                   trader with Duke Energy Trading and Marketing, LLC,
• In re BP Energy Co., CFTC Docket No. 05-02 (CFTC filed             submitted or caused to be submitted false or mislead-
    Nov. 4, 2004). On November 4, 2004, the Commission                ing or knowingly inaccurate price and volume informa-
    simultaneously instituted and settled an action against           tion to Gas Daily and Enerdata, Ltd. concerning natural
    BP Energy Company charging it with illegal wash sales             gas transactions he executed on behalf of Duke Energy
    involving electricity contracts and the reporting of non-         between June 2001 and approximately August 2002. As
    bona fide prices. The order requires BP Energy Company            alleged, Whitney submitted the false trade information
    to cease and desist from further violations as charged and        in an attempt to manipulate the price of natural gas in
    imposes a $100,000 civil monetary penalty.                        interstate commerce.
	




                                                                                                                                 103
  • CFTC v. Bradley, et al., No. 05CV62-CVE-FHM (N.D.Okla.             attempted to manipulate the price of natural gas in inter-
      filed Feb. 1, 2005). On February 1, 2005, the Commis-             state commerce by reporting biased information to price
      sion filed an action charging that, between January 2001          reporting companies. Specifically, the complaint alleges
      and October 2002, Jeffrey A. Bradley, formerly the man-           that defendants regularly circulated an e-mail with direc-
      ager of marketing for CMS Field Services, Inc., knowingly         tions to the traders to report prices in such a way that
      submitted false, misleading or knowingly inaccurate               it would benefit their positions. The complaint charges
      transaction information regarding hundreds of natural             that all these activities occurred while defendants were
      gas transactions to multiple natural gas reporting firms,         employed by the energy company Shell Trading Gas and
      including but not limited to Gas Daily, Btu Daily, Natural        Power Company in providing services for Coral Energy
      Gas Intelligence and Natural Gas Week. The action al-             Resources, L.P.
      leges that Bradley did this by reporting fictitious trades as   • CFTC v. Reed, et al., No. 05-D-178 (D.Colo. filed Feb. 1,
      if they were bona fide transactions, by altering the prices       2005). On February 1, 2005, the Commission filed an
      and volumes for actual trades, or by reporting non-fixed          action charging that, between May 2000 and October
      price trades as if they were fixed price trades. On at least      2002, Matthew Reed, Darrell Danyluk and Shawn
      one occasion, Robert L. Martin, formerly the director of          McLaughlin engaged in false reporting and attempted
      gas supply for the same company, allegedly conspired              manipulation while employed by Enserco Energy Servic-
      and coordinated with Bradley, and caused reports to be            es. McLaughlin engaged in this conduct while acting as
      submitted to the same natural gas reporting firms.                President of Enserco. The complaint further alleges that
  • CFTC v. Atha, et al., No. 1:05-CV-0293 (N.D.Ga. filed Feb.         Reed continued the false reporting and attempted ma-
      1, 2005). On February 1, 2005, the Commission filed               nipulation scheme while employed by Concord Energy,
      an action charging Paul Atha, Christopher McDonald,               LLC, which is also charged with liability for his acts. As
      and Texas resident Michael Whalen, all formerly Mirant            alleged, while at Enserco, with McLaughlin’s knowl-
      Americas Energy Marketing, LP, energy traders, with false         edge and consent, Reed, located in Enserco’s Colorado
      reporting and attempted manipulation of the natural gas           office, and Danyluk, located in Enserco’s Calgary office,
      markets between January 2000 and late 2000 or early               coordinated on an almost daily basis how they wanted
      2001. As charged, Whalen departed Mirant in May 2000              to report fictitious trades to numerous reporting firms,
      and his alleged violations occurred during his subsequent         including Gas Daily and Natural Gas Intelligence, to
      employment with Cinergy Corporation in Texas. The                 benefit trading positions they held.
      complaint alleges a series of revealing telephone calls         • CFTC v. Richmond, No. 05-M-668 (D.Colo. filed April
      between the Mirant traders and Whalen wherein they                12, 2005). On April 12, 2005, the Commission filed an
      conspire about how they should report to Inside FERC              action against Andrew Richmond charging false report-
      to benefit their positions and discuss how to make their          ing and attempted manipulation of the price of natural
      reports believable.                                               gas. Specifically, the complaint alleges that, between
  • CFTC v. Johnson, et al., No. H-05-0332 (S.D.Tex. filed Feb.        approximately April 2000 and February 2001, while he
      1, 2005). On February 1, 2005, the Commission filed an            was the director of marketing at Western, Richmond
      action charging Denette Johnson, Courtney Cubbison                pressured his subordinates to submit false or mislead-
      Moore, Robert Harp, Anthony Dizona, John Tracy, and               ing or knowingly inaccurate price and volume informa-
      Kelly Dyer with knowingly delivering dozens of reports            tion to Gas Daily in an attempt to manipulate the price
      containing knowingly inaccurate fixed-price, physical,            of natural gas.
      baseload trade information for at least nine locations in       • CFTC v. Foley, No. 2:05 cv 849 (S.D.Ohio filed Sept. 14,
      the Western United States between October 2001 and                2005). On September 14, 2005, the Commission filed
      June 2002. The complaint also alleges that defendants             an action charging that between November 2000 and




104
                                                                   APPENDICES




    September 2002, Joseph P. Foley, a former natural gas
    head trader at AEPES, engaged in attempted manipula-
    tion and false reporting of natural gas prices. Foley is al-
    leged to have directed those he supervised to submit false
    reports of natural gas trading, including false prices and
    volumes, to index reporting firms that compile energy
    price surveys or indices (indices), such as Platts. Accord-
    ing to the complaint, price and volume information is
    used by Platts and others in calculating indexes of natural
    gas prices for various hubs throughout the U.S. The com-
    plaint alleges that Foley knowingly directed the delivery
    of false information to firms such as Platts in an attempt
    to skew those indexes for his and his company’s financial
    benefit. According to the complaint, Foley knowingly
    directed those he supervised to deliver thousands of
    purported natural gas trades to the energy price indexes.
    The complaint alleges that, of those trades, a substantial
    number were false or misleading or knowingly inac-
    curate. Foley went so far as to direct the creation of a
    computer spreadsheet, titled “IFERC Bogus”, to record
    certain false trade information Foley wanted submitted,
    according to the complaint.
	     Subpoena Enforcement Action - CFTC v. The
McGraw-Hill Companies, Inc., No. 1:05MS00235
(D.D.C. filed June 16, 2005). On June 16, 2005, the
Commission filed an application in the U.S. District
Court for the District of Columbia seeking to enforce a
subpoena it served on McGraw-Hill in April 2005. The
subpoena, issued as part of the Commission’s on-going
investigations of reporting by energy corporations, seeks
information regarding the reporting of natural gas trad-
ing records to Platts, an entity owned by McGraw-Hill.
The information is being sought in connection with a
non-public investigation. The Commission subpoena
also seeks McGraw-Hill’s documents concerning Platts’
use of that data in the indices that Platts calculates and
disseminates. Following oral argument on September
27th, the Honorable Judge Lamberth, on October 4th,
granted the Commission’s motion and ordered Mc-
Graw-Hill to provide the requested documents. Mc-
Graw-Hill subsequently moved for reconsideration, and
the matter is still pending.




                                                                                105
        Enforcement Litigation for Goal Two


  Litigation by Goal Two                                                action against Philadelphia Alternative Asset Manage-
                                                                        ment Co., LLC (PAAM), a registered commodity pool
  Goal Two: Protect market users and the public.                        operator, and Paul M. Eustace, a registered associated
  Commodity Pools (including “Hedge Funds”),                            person and president of PAAM, alleging fraudulent
  Commodity Pool Operators, and Commodity Trading                       solicitation and false reporting involving a hedge fund
  Advisors. Investors continue to fall prey to unscrupulous             and commodity pools. PAAM is alleged to have ac-
  CPOs and CTAs, including CPOs and CTAs operating self-                cepted over $230 million from participants and started
  described hedge funds. In many of these cases, the defen-             sustaining massive losses that mounted to over $140
  dants have pre-existing business, social, religious, or ethnic        million by May 2005. On the same day that the com-
  ties to the individual investors. These personal relationships        plaint was filed, the Commission obtained a statutory
  enable the defendants to gain the investors’ trust and then           restraining order freezing defendants’ assets, preventing
  lull them into a false sense of confidence. The Commission            the destruction of books and records, and appointing a
  addresses this violative conduct through a combination                receiver to take control of defendants’ assets.
  of enforcement actions and investor education. Some of              •	CFTC v. Bayou Management, LLC, No. 05 CIV. 8374
  the scams are operated as “Ponzi schemes” in which early              (S.D.N.Y. filed Sept. 29, 2005). On September 29, 2005,
  investors are paid purported “profits” with newer investor            the Commission filed an action alleging misappropria-
  funds. The schemes generally involve fraud in soliciting the          tion and fraud involving Connecticut hedge fund man-
  general public to invest in the pools operated by the CPO             ager Bayou Management, LLC (Bayou Management),
  or CTA, fraudulent statements concerning the results being            its principals, Samuel Israel III and Daniel E. Marino,
  achieved by the pool for its investors, and/or outright mis-          and Richmond Fairfield Associates, Certified Public
  appropriation of pool funds by the CPO. During FY 2005,               Accountants PLLC (Richmond Fairfield). The complaint
  the Commission filed nine enforcement actions in this                 alleges that the defendants misappropriated customer
  program area, and also achieved significant litigation results        funds, acquired funds through false pretenses, engaged
  in six actions filed in this practice area during previous fiscal     in unauthorized trading, and misrepresented material
  years. Examples of these successes are provided below:                facts to actual and prospective investors, including the
  •	CFTC v. Eustace, et al., No. 05CV2973 (E.D.Pa. filed June          rates of return the hedge funds earned, the value of assets
      21, 2005). On June 21, 2005, the Commission filed an              under management, and the existence and identity of the




106
                                                                         APPENDICES




    accounting firms that had purportedly audited the hedge       trading for others); CFTC v. Steele, No. 05-3130 (N.D.Ill.
    funds. On the same date that the action was filed, the        filed May 25, 2005); CFTC v. Beasley, et al., No. C 05
    defendants consented to a preliminary injunction that         02142 (N.D.Cal. filed May 25, 2005); CFTC v. Eustace, et
    included an asset freeze. Also on the same date, Israel and   al., No. 05CV2973 (E.D.Pa. filed June 21, 2005); CFTC
    Marino, based upon the same conduct, pleaded guilty to        v. Pippin, No. CV 05 4120 (E.D.N.Y. filed Aug. 29, 2005);
    criminal charges brought by the U.S. Attorney’s Office for    and CFTC v. Linuxor Asset Mgt., et al., No. 005 CV 8091
    the Southern District of New York, White Plains Division.     (S.D.N.Y. filed Sept. 19, 2005).
    The Commission coordinated its investigation with the         	     Commodity Trading Advisors, Managed Accounts,
    U.S. Attorney’s Office and the SEC.                           and Trading Systems. During FY 2005, the Commis-
• CFTC v. Princeton Global Management, Ltd., et al., No.         sion filed eight enforcement actions in this program area
    99CIV.9669 (S.D.N.Y. filed Sept. 18, 1999). On March          and achieved significant litigation results in four actions
    14, 2005, the Commission and SEC announced that a             filed in this practice area during previous fiscal years. An
    court-appointed receiver in the pending actions against       example of the Commission’s enforcement success in this
    Princeton Economics International, Ltd. and Princeton         practice area appears below:
    Global Management, Ltd. (the Princeton Companies)             • C
                                                                     FTC v. Charles, No. 2:05-cv-02144 (C.D.Ill. filed June
    and Martin Armstrong was in the process of distributing           23, 2005). On June 23, 2005, the Commission filed
    over $50 million as part of an interim distribution to            an action against Cameron Charles alleging that he
    former customers of the Princeton Companies. The dis-             defrauded Watseka Farmers Grain Co. Cooperative
    tribution stems from actions filed by the Commission              (Watseka) by engaging in unauthorized and illegal
    and SEC alleging that Armstrong and his companies                 speculative trading. Specifically, according to the com-
    violated the Commodity Exchange Act and Federal se-               plaint, Charles, a Watseka manager, engaged in unau-
    curities laws, respectively, by engaging in unauthorized          thorized and illegal speculative trades for Watseka in the
    commodity futures and options trading and then hiding             soybean market between January and May 2004. The
    their trading losses of several hundred million dollars           complaint further alleges that Charles concealed from
    by, among other things, the issuance of false net asset           and failed to disclose these trades to Watseka’s board
    value letters. Separately, Mr. Armstrong has been held            of directors and the Illinois Department of Agriculture
    in civil contempt of a district court order for failing to        by making misrepresentations and falsifying Watseka’s
    produce more than $14 million in assets that the Com-             records to make it appear that Watseka was not at risk in
    mission and SEC contend were proceeds of the fraud.               the futures market. The Commission complaint further
	     Other FY 2005 Commission Enforcement Actions                    alleges that in mid-May 2004, a sharp decline in the
Alleging Illegal Activity Involving Commodity Pools                   soybean futures market caused Watseka to receive mar-
(including “Hedge Funds”), Commodity Pool Opera-                      gin calls on the speculative long futures positions that
tors, and Commodity Trading Advisors. During FY                       Charles had created. As alleged, Watseka could not meet
2005, the Commission also filed the following actions                 the margin calls, thus forcing Watseka into liquidation.
in this program area: CFTC v. Schotz, et al., No. 04-08889            According to the complaint, the liquidation resulted in
SJO (SSx) (C.D.Cal. filed Oct. 27, 2004); CFTC v. Remco               a loss of at least $1 million to shareholders of Watseka,
Capital Management, et al., No. 04 CV 09029 (S.D.N.Y.                 who were mainly local farmers. The complaint also
filed Nov. 16, 2004); CFTC v. Heffernan, No. 4 04 23302               alleges that Charles solicited and accepted orders for
25 (D.S.C. filed Dec. 16, 2004); In re Allen, CFTC Docket             futures transactions from local farmers that Charles
No. 05-08 (CFTC filed April 6, 2005) (simultaneous file               executed through Watseka’s futures account. In so do-
and settle; commodity pool operator/commodity trading                 ing, the complaint alleges, Charles acted illegally as an
advisor fraud; sanctions including cease and desist order,            associated person of a futures commission merchant
five-year personal trading ban and permanent ban from                 without proper registration with the Commission. The




                                                                                                                                  107
      Commission’s investigation was done in coordination             losses. The day after the complaint was filed, the court
      with the Illinois Department of Agriculture and the Il-         issued a statutory restraining order, which CFTC repre-
      linois Attorney General’s office.                               sentatives executed at four locations in Florida with the
  	     Other FY 2005 Commission Enforcement Ac-                      assistance of Florida law enforcement.
  tions in This Program Area. The Commission’s FY 2005            	     Other FY 2005 Commission Enforcement Ac-
  enforcement actions in this program area also included          tions in This Program Area. The Commission’s FY 2005
  the following: CFTC v. Jade Trader, et al., No. CV04-8213       enforcement actions in this program area also included
  (C.D.Cal. filed Oct. 1, 2004); CFTC v. Longhorn Financial       the following: CFTC v. Brickell Key Financial, LLC, et al.,
  Advisors, LLC, et al., No. 1:04CV00911 (M.D.N.C. filed Oct.     No. 04-22549 (S.D.Fla. filed Oct. 8, 2004); CFTC v. United
  5, 2005); In re Berg, et al., CFTC Docket No. 05-07 (CFTC       Investors Group, Inc., et al., No. 05-80002 (S.D.Fla. filed
  filed Jan. 18, 2005) (simultaneous file and settle; com-        Jan. 3, 2005); CFTC v. Lanier, No. 5:05-CV-516 (W.D.Okla.
  modity trading advisor distribution of inaccurate and out-      filed May 10, 2005); In re Mueller, CFTC Docket No. 05-09
  dated disclosure document; sanctions including cease and        (CFTC filed June 3, 2005) (simultaneous file and settle; as-
  desist order and $10,000 civil monetary penalty); CFTC v.       sociated person unauthorized trading; sanctions including
  Gemancer, Inc., et al., No. CV05 2660 (C.D.Cal. filed April     case and desist order, permanent trading ban and $30,000
  12, 2005); CFTC v. Smithers, et al., No. 05-80592 (S.D.Fla.     civil monetary penalty); CFTC v. Commodity Investment
  filed June 29, 2005); CFTC v. Lovett, No. CV05-5074 GHK         Group, Inc., et al., No. 05 CV 5741 (S.D.N.Y. filed June 21,
  (MANx) (C.D.Cal. filed July 12, 2005); CFTC v. Poole, No.       2005); In re Lochmann, CFTC Docket No. 05-12 (CFTC
  1:05CV00859 (M.D.N.C. filed Sept. 30, 2005).                    filed July 6, 2005) (unauthorized trading by introducing
  	     Futures Commission Merchants, Introducing                 broker associated person); CFTC v. Musorofiti, et al., No.
  Brokers and Their Associated Persons. The Commission            CV 05 3917 (E.D.N.Y. filed Aug. 16, 2005); CFTC v. Ameri-
  diligently redresses misappropriation and other violative       can Derivatives Corp., et al., No. 1 05-CV 2492 (N.D.Ga.
  conduct by futures commission merchants, introducing            filed Sept. 26, 2005); and CFTC v. Int’l Currency Exchange,
  brokers, and their associated persons. During FY 2005, the      Inc., et al., No. 05 CV 8446 (S.D.N.Y. filed Sept. 30, 2005).
  Commission filed 11 enforcement actions in this practice        	     Foreign Currency Cases. During FY 2005, the Com-
  area, and also achieved significant litigation results in       mission continued to battle fraud perpetrated on the retail
  one action filed in this practice area during previous fiscal   public by firms offering trading in off-exchange forex. While
  years. An example of the Commission’s enforcement suc-          much foreign currency trading is legitimate, numerous
  cess in this practice area appears below:                       companies have fraudulently solicited and traded customer
  • C
     FTC, et al. v. Cromwell Financial Services, Inc., et al.,   foreign currency futures or option trading accounts. Under
      No. 1:05-cv-00210-JD (D.N.H. filed June 12, 2005). On       the CFMA, it is unlawful to offer off-exchange foreign cur-
      June 12, 2005, the Commission, along with the State         rency futures or option contracts to retail customers unless
      of New Hampshire, filed an action against registered        the counterparty to the contract is a regulated financial
      introducing broker Cromwell Financial Services, Inc.        entity enumerated in the CFMA, such as a FCM or financial
      (Cromwell), its founder and owner (Phillip Tuc-             institution. In addition, even if the counterparty is appro-
      celli), and several of its registered associated persons    priate, the Commission has jurisdiction to investigate and
      (Michael Staryk, Dennis Gee, Richard Peluchette, and        prosecute foreign currency futures or options fraud. Forex
      Richard Astern) alleging fraudulent solicitation to trade   trading scams often attract customers through advertise-
      commodity futures contracts and failure to supervise.       ments in local newspapers, radio promotions, or online.
      Specifically, the complaint alleges that, from at least     These advertisements often tout purportedly high-return,
      January 1, 2002 through December 2003, Cromwell             low-risk investment opportunities in foreign currencies. The
      fraudulently solicited at least 900 customers who col-      Commission has brought enforcement actions against both
      lectively incurred approximately $19 million in trading     registered firms (for fraud and for other CEA violations,




108
                                                                      APPENDICES




such as failure to maintain net capital requirements) and          Pine, which was purchased for $390,000 in cash in
unregistered “bucket shops.”                                       2003. The receiver’s report also states it is investigating
	     During FY 2005, the Commission filed 17 enforce-             the possible diversion of substantial funds to Mexico
ment actions against firms and individuals selling illegal         and Belize. On October 28, 2004, the court entered a
foreign currency futures and option contracts, bringing the        preliminary injunction against White Pine enjoining it
total of such actions to 79 since enactment of the CFMA            from further violations as charged, and also confirmed
in December 2000. During FY 2005, the Commission also              a restraining order entered on October 21 against White
achieved significant litigation results in eight actions filed     Pine and Richard Matthews that freezes defendants’ as-
in this practice area during previous fiscal years. Since the      sets and appoints a temporary receiver.
enactment of the CFMA, the Commission has obtained in            • C
                                                                    FTC v. World-Wide Currency Services Corp., et al., No.
its 79 forex enforcement actions approximate monetary              03-80032-CIV-HURLEY, Order Adopting Magistrate
sanctions of $170 million in civil monetary penalties and          Judge’s Report & Recommendation (S.D.Fla. entered
$115 million in restitution.                                       Jan. 4, 2005). On January 4, 2005, the court entered an
                                                                   order assessing a total of $6,141,748 in civil monetary
Among the Enforcement program’s successes in this                  penalties against defendants World-Wide Currency
area during FY 2005 were the following:                            Services Corp., its president (Genady Spivack) and its
• C
   FTC v. White Pine Trust Corp., et al., No. 04-CV-2093          vice-president Ellison Kent Morris. This Commission
    (S.D.Cal. filed Oct. 20, 2004). On October 20, 2004, the       filed this enforcement action on January 13, 2003, and
    Commission filed an action against White Pine Trust            on August 5, 2004, the court granted the Commission’s
    Corporation (White Pine) and Richard Matthews charg-           summary judgment motion finding that the defendants
    ing them with fraudulent solicitation, misappropria-           fraudulently sold foreign currency futures contracts to
    tion of customer funds, and illegally offering foreign         customers under the guise of conducting spot currency
    currency options. According to the complaint, since at         transactions. Also, according to the summary judgment
    least February 2003, defendants fraudulently solicited         order, defendants solicited customers using telemarket-
    at least $650,000 from customers. As alleged, defen-           ing tactics and claims urging customers to act quickly to
    dants also misappropriated funds to pay for personal           take advantage of current market conditions and make
    and business expenses. Moreover, as asserted in papers         substantial profits, with minimal risk. One customer
    filed by the Commission, shortly after receiving the           was promised a monthly return of one to two percent,
    subpoena to testify before the Commission, $1.4 mil-           another was told to expect an annual profit of 20 per-
    lion was withdrawn in cash from an operating account.          cent, still others were promised anywhere from dou-
    The complaint alleges that defendants control multiple         bling their money to earning as much as five times their
    corporate accounts into which defendants have depos-           investment in just a few months, according to the order.
    ited over $30 million and upon information and belief,         The summary judgment order required repayment to
    those funds may consist in part, or entirely, of customer      defrauded customers of $1,092,880.
    funds obtained from hundreds of customers. Accord-           • CFTC v. Sonoma Trading Corp., et al., No. 05-60342
    ing to papers filed by the Commission, defendants              (S.D.Fla. filed March 9, 2005). On March 9, 2005, the
    paid millions out of these accounts for extravagant            Commission filed an action against Sonoma Trading
    personal and purported business expenses, including            Corporation (Sonoma) and its owner, William David
    NFL football tickets, nightclubs, and Saks Fifth Avenue        Seigler, Jr., charging that they wrongfully solicited
    purchases. According to an October 28, 2004 report             and sold foreign currency options. The Commission
    filed by the court-appointed receiver, the receiver has        complaint alleges that since December 2002, So-
    control over real property exceeding $3 million in value,      noma and Seigler, through a Web site operated in the
    and also has possession of a yacht owned by White              name of Sonoma, solicited retail customers to trade




                                                                                                                                 109
      foreign currency options contracts, touting Sonoma              its ill-gotten gains. ACE Emerald, as a relief defendant,
      as “The Premier Foreign Exchange Options Dealer in              was charged with receiving customer funds to which it
      the Americas.” As further alleged, in connection with           was not entitled, but was not charged with participation
      these solicitations, the defendants instructed custom-          in any violation of law. The lawsuit is still pending as to
      ers to wire transfer funds to a U.S.-based bank for             defendants Emerald, Jian Zhuang and Hao Jan Lu, and
      routing to a Sonoma bank account located in San                 relief defendants ACE Capital Advisory Group Inc., Lyn-
      Jose, Costa Rica. To conduct these activities lawfully,         nwood Jen, and Esther Pranolo.
      the complaint charges that Sonoma and Siegler either          • C
                                                                       FTC v. DBS Capital, Inc., et al., No. 03 CFTC v. DBS
      were required to execute the options transactions on a          Capital, Inc., et al., No. 03-1379 VRW, Consent Order
      contract market or a foreign board, or were required to         Of Permanent Injunction (N.D.Cal. entered June 17,
      register with the Commission as a futures commission            2005). On June 17, 2005, the court entered a consent
      merchant. The complaint alleges that they did neither.          order of permanent injunction and other equitable
      On the same day the complaint was filed, court issued           relief against defendants DBS Capital, Inc., and Douglas
      an order freezing the defendants’ assets and preventing         Stevens, the founder and president of DBS. The order
      the destruction of their books and records.                     stems from an enforcement action filed on March 31,
 • C
    FTC v. Emerald Worldwide Holdings, Inc., et al., No.             2003. Without admitting or denying the findings, the
      CV03-8339 AHM (C.D.Cal. entered April 19, 2005).                defendants consented to entry of the order that found
      April 19, 2005, the court issued a default order requir-        the defendants have been offering and selling illegal,
      ing defendant City Trust and Investment Co. Ltd. (CTI)          off-exchange futures contracts to the retail public; and
      of Tokyo, Japan, to repay defrauded customers more              they fraudulently solicited approximately $14 million
      than $3.2 million, and to pay a civil monetary pen-             from approximately 200 retail customers. In addition to
      alty of $8.2 million, in connection with a forex scam           being permanently enjoined from further violations as
      operated by CTI and Emerald Worldwide Holdings,                 charged, the defendants were ordered to make restitu-
      Inc. (Emerald). The order stems from an amended                 tion to customers of $11,505,025, plus post-judgment
      complaint filed by the Commission on May 10, 2004,              interest, and to pay a $3,191,597 civil monetary penalty.
      alleging that defendants CTI and Emerald Worldwide            • C
                                                                       FTC v. World Market Advisors, Inc., et al., No. 05-60928-
      Holdings, Inc. (Emerald) operated together in fraudu-           CIV-ALTONGA/TURNOFF (S.D.Fla. filed July 21, 2005).
      lently soliciting customers in Japan and China to invest        On July 21, 2005, the Commission filed an action
      more than $5 million to trade illegal off-exchange              against five Florida foreign currency firms, World Market
      foreign currency futures contracts in the United States.        Advisors, Inc. (WMA), U.S. Capital Management, Inc.
      Specifically, the Commission’s amended complaint                (U.S. Capital), United Equity Group, Inc. (United
      alleged that Emerald’s promotional materials, which             Equity), Liberty One Advisors, LLC (Liberty One), Light-
      were disseminated by employees of CTI, contained false          house Capital Management, LLC (Lighthouse), and five
      statements regarding Emerald’s registration status and          individuals, Jason T. Dean of Pompano Beach, Florida,
      affiliation with entities that were legitimately registered     Steven D. Knowles and Paul F. Plunkett of Deerfield
      with the Commission. The complaint also alleged that,           Beach, Florida, Joseph D. Valko of Coconut Creek,
      rather than trade the customers’ funds as promised,             Florida and Jeffrey Paul Jedlicki of Boca Raton, Florida,
      Emerald and CTI transferred the funds to various bank           charging that defendants defrauded customers they
      accounts in the United States, Japan, China, and Hong           solicited to trade foreign currency options contracts.
      Kong in the names of Emerald, CTI, and others. Addi-            The complaint also charges three Florida-based foreign
      tionally, on March 15, 2005, Judge Matz issued an order         currency dealers, Universal Options, Inc. (Universal
      requiring relief defendant ACE Emerald W. Holding,              Options), Qualified Leverage Providers, Inc. (QLP)
      Inc. (ACE Emerald), of Las Vegas, Nevada, to disgorge           and Safeguard FX, LLC (Safeguard), with liability as




110
                                                                         APPENDICES




    principals for the acts of the five foreign currency firms.   et al., No. 1:05CV492 (E.D.Va. filed April 29, 2005); CFTC
    Specifically, the Commission’s complaint alleges that         v. Webman, et al., No. 05 CV 4819 (S.D.N.Y. filed May 19,
    since October 2002, WMA and a series of short-lived           2005); CFTC v. Windsor Forex Trading Corp., et al., No. CV
    affiliates and successors, including the other corporate      05 2547 (E.D.N.Y. filed May 26, 2005); CFTC v. National
    defendants, through their brokers, including Jedlicki,        Investment Consultants, et al., No. C 05 2641 (N.D.Cal. filed
    fraudulently solicited customers over the telephone           June 29, 2005); CFTC v. de Wet, No. 05 CV 8401 (S.D.N.Y.
    throughout the U.S., Canada, and the U.K., using high-        filed Sept. 30, 2005); CFTC v. Efrosman, et al., No. 05 CV
    pressure “boiler room” sales tactics, to open accounts to     8422 (S.D.N.Y. filed Sept. 30, 2005) (violation of prior
    trade foreign currency options contracts. The complaint       Commission order in addition to forex fraud); and CFTC
    further alleges that defendants solicited at least 924        v. Yanev, No. C2 05 900 (S.D.Ohio filed Sept. 29, 2005).
    customers, who collectively invested at least $17.1           	     Precious Metals And Other Illegal Off-Exchange
    million to trade foreign currency options contracts.          Cases. During FY 2005, the Commission’s Enforcement
    The customers paid defendants at least $8.6 million in        program prosecuted the following two actions that alleged
    commissions, and lost approximately $13.6 million             non-forex, illegal off-exchange trading.
    in their trading accounts, according to the complaint.        • C
                                                                     FTC v. E-Metal Merchants, Inc., et al., No. 05-21574
    Over 96 percent of the customers lost money, and most             (S.D.Fla. filed June 13, 2005). On June 13, 2005, the
    customers lost all of their investments. On the day the           Commission filed an action against E-Metal Merchants,
    action was filed, the court entered a restraining order           Inc., and two of its corporate officers, Benji Dayan and
    that, among other things, freezes the assets of all de-           Andrew Stern, both of Miami, Florida, charging them
    fendants except Universal Options, QLP and Safeguard.             with purchasing and selling illegal, off-exchange met-
    The Commission received cooperation in their investi-             als options. Specifically, the Commission’s complaint
    gation and prosecution of this matter from the Florida            charges that, since at least May 2004, E-Metal Merchants
    Attorney General’s Office of Statewide Prosecution, the           accepted over $6.9 million from more than 200 custom-
    Florida Office of Agricultural Law Enforcement, the               ers for the purpose of engaging in the purchase and sale
    Office of Financial Regulation and the Broward County             of illegal off-exchange metals option contracts. Accord-
    Sheriff’s Office, among others. The Commission also re-           ing to the complaint, E-Metal Merchants transferred
    ceived assistance from the National Futures Association.          more than $5.4 million from its customers’ account
	     Other FY 2005 Commission Enforcement Ac-                        to the firm’s operating account, $575,000 to the firm’s
tions Alleging Illegal Forex Activity. During FY 2005, in             off-shore account in New Zealand, and $509,000 to
addition to one enforcement action it filed under seal,               Universal Financial Holding Company, a firm owned
the Commission also filed the following actions in this               by the secretary of E-Metal Merchants, Andrew Stern. As
program area: CFTC v. Foreign Fund, et al., No. 0 04 098              further alleged, that firm paid the president of E-Metal
(M.D.Ten. filed Oct. 5, 2004); In re Bentley Rothchild Group,         Merchants, Benji Dayan, and the secretary, Stern, over
Inc., et al., CFTC Docket No. 05-04 (CFTC filed Nov. 23,              $1 million from customer funds. Dayan and Stern are
2004) (simultaneous file and settle; forex fraud; sanc-               controlling persons of E-Metal Merchants and, there-
tions including cease and desist order and $10,000 civil              fore, are liable for the firm’s violations of the CEA, the
monetary penalty); CFTC v. Richmond Global Associates,                complaint alleges. On the same day the action was filed,
LLC, et al., No. 05 CV 2181 (S.D.N.Y. filed Feb. 16, 2005);           the court entered a restraining order that, among other
CFTC v. Premium Income Corp., et al., NO. 3-05 CV 0416M               things, freezes defendants assets.
(N.D.Tex. filed March 2, 2005); CFTC v. Mercury Partners,
Inc., et al., No. 05-60328 (S.D.Fla. field Mar. 7, 2005;
CFTC v. G7 Advisory Services, LLC, et al., No. 05-80313
(S.D.Fla. filed April 12, 2005); CFTC v. Presidential FX, Inc.,




                                                                                                                                   111
 • In re Trade Exchange Network, CFTC Docket No. 05-14
      (CFTC filed Sept. 29, 2005). On September 29, 2005,
      the Commission simultaneously commenced and set-
      tled an action against Trade Exchange Network Limited
      (TEN), a limited liability company based in Dublin,
      Ireland, alleging that TEN solicited and accepted orders
      from U.S. residents for commodity option contracts that
      were not excepted or exempted from the Commission’s
      ban on options. TEN owns and operates an Internet-
      based trading platform that facilitates trading through
      its Web sites www.Tradesports.com, www.Intrade.com,
      and www.TradebetX.com. According to the findings in
      the order, TEN actively solicited U.S. residents to trade
      such contracts by retaining an individual in the U.S.
      to market TEN’s products throughout the country, and
      TEN ultimately developed a U.S. customer base that was
      roughly 33 to 40 percent of its total customer base. The
      order further finds that the commodity option con-
      tracts offered on TEN’s Web sites were not excepted or
      exempted from the Commission’s regulation banning
      options trading, and therefore violated the CEA. TEN’s
      high level of cooperation during the underlying inves-
      tigation resulted in a reduction of the civil monetary
      penalty to $150,000, which TEN agreed to pay. The
      order also calls for TEN to cease and desist from further
      violations of the CEA and comply with specific under-
      takings. In consenting to the entry of the Commission’s
      order, TEN neither admitted nor denied the findings
      made in the order.




112
                                                                         APPENDICES




          Enforcement Litigation for Goal 3


Litigation by Goal Three                                           conviction of Stuart Michael Helffrich for wire fraud and
                                                                   fraudulent conversion of his customers’ commodity futures
Goal Three: Ensure market integrity to foster                      positions. Helffrich, while a registered floor broker at the
open, competitive, and financially sound markets.                  CBOT, transferred winning trades from his customers’ ac-
Trade Practice. The legislative history of the CEA notes           counts into his own trading account and “parked” his own
that one of the fundamental purposes of the Act is to ensure       losing trades in their accounts, all to cover up mounting
fair practices and honest dealing in the futures market and        losses and to inflate the value of his own personal trading
to control those forms of speculative activity that demoral-       accounts. The scheme went on for approximately six weeks
ize the market to the detriment of producers, consumers,           until it was discovered. Helffrich caused trading losses of
and the markets. Consistent with Congress’ mandate, the            over $866,000 to two large grain dealers, and to Helffrich’s
Commission brings trade practice cases to address a variety        employer, who ultimately repaid the customers. In addi-
of unfair, abusive, or deceptive ploys by traders to avoid         tion, the scheme caused the customers to pay additional
exposing their orders to market risk. Such actions can create      margin and exposed them to additional market risk. On
non-competitive prices in the marketplace and have the             May 10, 2005, U.S. District Court for the Northern District
potential to harm public customers, producers, and others.         of Illinois issued the guilty verdict and on September 1,
Improper trade practices include a variety of activities, in-      2005, Helffrich was sentenced to 41 months’ imprison-
cluding trading done in violation of exchange rules, such as       ment, with 3 years’ supervised release at the conclusion
trading ahead of a customer order, wash trading, accommo-          of the period of incarceration. In addition, Helffrich was
dation trading, and fictitious trading. During FY 2005, the        ordered to repay his employer more than $800,000. This
Commission filed six enforcement actions in this program           criminal case was the result of a Division referral after the
area, and also achieved significant litigation results in one      Chicago Board of Trade revoked Helffrich‘s membership
action filed in this practice area during previous fiscal years.   and the Commission revoked his registration. In the Matter
An example of the Commission’s success in this program             of Stuart Michael Helffrich, SD 04-08 (Sept. 3, 2004).
area appears below:                                                	    Other FY 2005 Enforcement Program Actions Alleg-
	    United States v. Helffrich. With the assistance of the        ing Trade Practice Violations. During FY 2005, the Com-
Commission’s Enforcement program, the U.S. Attorney                mission’s Enforcement program filed the following trade
for the Northern District of Illinois obtained a criminal          practice enforcement actions: In re Hucko, CFTC Docket




                                                                                                                                   113
  No. 05-01 (CFTC filed Oct. 26, 2004) (simultaneous file                will not participate in any audit of any commodity pool
  and settle; fraudulent trade allocation; sanctions including           or Commission registrant in certain capacities until after
  cease and desist order, permanent trading ban and $50,000              December 31, 2005, and AMG will provide training in
  civil monetary penalty); In re Hencorp Becstone Futures LC,            fraud examination and detection to staff, as well as re-
  et al., CFTC Docket NO. 05-06 (CFTC filed Dec. 22, 2004)               view portions of its audit programs that were implicated
  (simultaneous file and settle; wash sales and reporting of             in the alleged audit failures and report to the Commis-
  non-bona fide prices involving CSCE coffee futures; sanc-              sion on its review.
  tions including cease and desist order and $100,000 civil          	     Statutory Disqualifications. During FY 2005, the
  monetary penalty); In re Maddox, CFTC Docket No. 05-10             Commission filed five enforcement actions in this program
  (CFTC filed June 9, 2005)(simultaneous file and settle;            area. An example of the Commission’s success in this pro-
  fraudulent trade allocation; sanctions including $25,000           gram area is provided below:
  civil monetary penalty, $31,000 restitution and one year           • I n re McKenna, CFTC Docket No. SD 05-03 (CFTC
  personal trading ban); In re Armajaro Trading Ltd., et al.,            filed May 20, 2005). On May 20, 2005, the Commis-
  CFTC Docket No. 05-11 (CFTC filed June 21, 2005) (simul-               sion simultaneously filed and settled an action against
  taneous file and settle; fictitious and non-competitive trad-          Brion Scott McKenna, a former gas trader for Williams,
  ing in CSCE cocoa spread cross trades; sanctions including             a subsidiary of The Williams Companies, Inc., a pub-
  cease and desist order and total of $60,000 civil monetary             licly-traded company, revoking his registration as an
  penalties); and In re Credit Lyonnais Rouse Ltd., CFTC Docket          associated person for three years and ordering him to
  No. 05-13 (CFTC filed Aug. 24, 2005) (simultaneous file                cooperate fully with the Commission and other Federal
  and settle; fictitious and non-competitive trading in CSCE             authorities in connection with this proceeding and any
  cocoa spread cross trades; sanctions including cease and               related inquiry. The Commission’s action was the result
  desist order and $85,000 civil monetary penalty).                      of McKenna’s guilty plea in the U.S. District Court for
  	     Financial, Supervision, Compliance and Record-                   the Northern District of California to a felony violation
  keeping. During FY 2005, the Commission filed one                      involving manipulation while employed as a natural
  enforcement action in this program area during FY 2005,                gas trader at Williams. Previously, on July 29, 2003, the
  and also achieved significant litigation results in two                Commission simultaneously filed and settled an action
  actions filed in this practice area during previous fiscal             against Williams for false reporting of natural gas trading
  years. An example of the Commission’s success in this                  information, with Williams agreeing to pay a $20 million
  program area is provided below:                                        civil monetary penalty.
  • I n the Matter of G. Victor Johnson and Altschuler, Melvoin     	     Other Commission Actions Filed In This Program
      and Glasser, LLP, CFTC Docket No. 04-29 (CFTC filed            Area. During FY 2005, the Commission instituted the
      June 13, 2005). On June 13, 2005, the Commission               following additional statutory disqualification actions: In
      issued an order accepting settlements of accounting firm       re Wnukowski, CFTC Docket No. SD-5-01 (CFTC filed Dec.
      (Altschuler, Melvoin & Glasser, LLP (AMG)) and engage-         30, 2004); In re Beacon Hill Asset Mgt. LLC, CFTC Docket
      ment partner (G. Victor Johnson) arising from audits           No. SD 05-02 (CFTC filed May 3, 2005); In re Palomino
      performed of a commodity pool that failed to detect a          Capital Mgt., CFTC Docket No. SD 05-04 (CFTC filed July
      fraud perpetrated on investors by the pool’s operator.         14, 2005); and In re Kaulentis, CFTC Docket No. SD 05-05
      Under the terms of the settlements, Johnson and AMG            (CFTC filed Aug. 1, 2005).
      will pay $200,000 to the defrauded pool investors, will
      repay all audit fees earned from the audit engagements
      (which will go to victims of the fraud) and will pay a civil
      monetary penalty of $150,000. Additionally, Johnson




114
                                                                                                                                   APPENDICES




                                                             The CFTC Glossary


THE CFTC GLOSSARY
A GUIDE TO THE LANGUAGE OF THE FUTURES INDUSTRY
http://www.cftc.gov/opa/glossary/opaglossary_a.htm


Because the acronyms of many words and phrases used throughout the futures industry are not readily available in stan-
dard references, the Commission’s Office of External Affairs compiled a glossary to assist members of the public.
	        This glossary is not inclusive, nor are general definitions intended to state or suggest the views of the Commission
concerning the legal significance, or meaning of any word or term. Moreover, no definition is intended to state or suggest
the Commission’s views concerning any trading strategy or economic theory. If you cannot find the term you are looking
for or have any other comment, please email us at glossary@cftc.gov. The glossary was last revised September 2005.


Glossary of Acronyms
AE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . The Actuarials Exchange, LLC

AEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . American Electric Power Company, Inc.

AEPES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . AEP Energy Services, Inc.

ALJ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Administrative Law Judge

AMG. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Altschuler, Melvoin & Glasser, LLP

AML. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Anti-Money Laundering

AWB. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Australian Wheat Board

BSE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bovine Spongiform Encephalopathy

BTEX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . BrokerTex Futures Exchange

CBOT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chicago Board of Trade




                                                                                                                                                                            115
 CBFB. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Cross-Border Futures Broker

 CCORP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . The Clearing Corporation

 CEA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commodity Exchange Act

 CESR. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Committee of European Securities Regulators

 CFTC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commodity Futures Trading Commission

 CFMA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commodity Futures Modernization Act of 2000

 CME . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chicago Mercantile Exchange

 COSRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Council of Securities Commissions of the Americas

 CPO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commodity Pool Operator

 CSRS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Civil Service Retirement System

 CTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commodity Trading Advisor

 CTI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . City Trust and Investment Company Limited

 DART . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Designation and Rule Tracking System

 DCIO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Division of Clearing and Intermediary Oversight (CFTC)

 DCM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Direct Clearing Member		

 DCO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Derivatives Clearing Organization

 DMO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Division of Market Oversight (CFTC)

 DOJ. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Justice

 DOL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Labor

 EHRI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Enterprise Human Resources Integration

 ESC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Enterprise Services Center

 EUREX US . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Futures Exchange, LLC

 FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Bureau of Investigation

 FCM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Futures Commission Merchant

 FCOM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . FutureCom

 FECA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Employees Compensation Act

 FEGLI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Employees Group Life Insurance Program	

 FEHBP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Employees Health Benefits Program

 FERC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Energy Regulatory Commission

 FERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Employees’ Retirement System

 FILAC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Filings System




116
                                                                                                                                                     APPENDICES




FIRREA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Financial Institutions Reform, Recovery, and Enforcement Act
                                                                                                                           of 1989

FISMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Information Security Management Act of 2002

FMFIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Managers’ Financial Integrity Act of 1982

FTE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Full-time Equivalent

FWC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Future Workers Compensation

FY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Fiscal Year

GAAP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Generally Accepted Accounting Principles

GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Government Accountability Office

GCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Guaranty Clearing Corporation

GMAC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Global Markets Advisory Committee

GPRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Government Performance and Results Act of 1993

IB. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Introducing Broker

ICC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Intermarket Clearing Corporation

IOSCO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . International Organization of Securities Commissions

ISS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Integrated Surveillance System

JO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Judgment Officer

KCBT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Kansas City Board of Trade

LCH. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . London Clearing House

MDA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Management’s Discussion and Analysis

MGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minneapolis Grain Exchange

MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Memorandum of Understanding

MMOU. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Multilateral Memorandum of Understanding

NFA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Futures Association

NYCC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . New York Clearing Corporation

NYMEX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . New York Mercantile Exchange

OCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . The Options Clearing Corporation

OGC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of the General Counsel (CFTC)

OIRM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Information Resources Management (CFTC)

OMB. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget

ONXCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . OnExchange Clearing Corporation

OPM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Personnel Management




                                                                                                                                                                                              117
 ORB. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Other Retirement Benefits

 PAAM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Philadelphia Alternative Asset Management Co., LLC

 PART. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Program Assessment Rating Tool

 QLP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Qualified Leverage Providers, Inc.

 RIC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Registered Investment Companies

 RWG. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Registration Working Group

 SC4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Standing Committee 4

 SC5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Standing Committee 5

 SEC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Securities and Exchange Commission

 SFE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Sydney Futures Exchange Limited

 SFFAS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Statement of Federal Financial Accounting Standards

 SFP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Security Futures Products

 SRO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Self-Regulatory Organization

 TAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Technology Advisory Committee

 TEN. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Trade Exchange Network Limited

 USA PATRIOT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Uniting and Strengthening America by Providing Appropriate
                                                                                                                 Tools Required to Intercept and Obstruct Terrorism

 USDA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . United States Department of Agriculture

 UK. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .United Kingdom

 WMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . World Market Advisors, Inc.




118
APPENDICES




             119
 Notes




120
